<html>
<title> - PROS AND CONS OF DRUG LEGALIZATION, DECRIMINALIZATION, AND HARM REDUCTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




    PROS AND CONS OF DRUG LEGALIZATION, DECRIMINALIZATION, AND HARM 
                               REDUCTION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 1999

                               __________

                           Serial No. 106-99

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-346 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Sean Littlefield, Professional Staff Member
               Gilbert Macklin, Professional Staff Member
                          Amy Davenport, Clerk
                    Cherri Branson, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 1999....................................     1
Statement of:
    Leshner, Alan, Director, National Institute on Drug Abuse; 
      and Donnie Marshall, Deputy Administrator, Drug Enforcement 
      Administration.............................................   104
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy........................................    30
    McDonough, James, director, Office of Drug Control Policy, 
      State of Florida; Scott Ehlers, senior policy analyst, Drug 
      Policy Foundation; Robert L. Maginnis, senior director, 
      Family Research Council; David Boaz, executive vice 
      president, Cato Institute; and Ira Glasser, executive 
      director, American Civil Liberties Union...................   149
Letters, statements, et cetera, submitted for the record by:
    Boaz, David, executive vice president, Cato Institute, 
      prepared statement of......................................   223
    Ehlers, Scott, senior policy analyst, Drug Policy Foundation, 
      prepared statement of......................................   177
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, Tom Constantine's paper.............    11
    Glasser, Ira, executive director, American Civil Liberties 
      Union:
        Article dated December 29, 1997..........................   284
        Prepared statement of....................................   167
        Report entitled, ``Narrow Pathways to Prison: The 
          Selective Incarceration of Repeat Drug Offenders in New 
          York State''...........................................   251
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of Kevin Sabbitt.....     5
    Leshner, Alan, Director, National Institute on Drug Abuse, 
      prepared statement of......................................   107
    Maginnis, Robert L., senior director, Family Research 
      Council, prepared statement of.............................   200
    Marshall, Donnie, Deputy Administrator, Drug Enforcement 
      Administration, prepared statement of......................   120
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy, prepared statement of.................    33
    McDonough, James, director, Office of Drug Control Policy, 
      State of Florida, prepared statement of....................   151
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:..........................................
        Article entitled, ``High on a Lie''......................   293
        Information concerning crack smokers directions..........   289
        Letter dated April 15, 1997..............................   296
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    98

 
    PROS AND CONS OF DRUG LEGALIZATION, DECRIMINALIZATION, AND HARM 
                               REDUCTION

                              ----------                              


                        WEDNESDAY, JUNE 16, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Gilman, Souder, 
Hutchinson, Ose, Mink, Towns, Cummings and Kucinich.
    Staff present: Robert Charles, staff director/chief 
counsel; Andrew Greeley, clerk; Sean Littlefield and Gilbert 
Macklin, professional staff members; Rob Mobley, congressional 
fellow; Cherri Branson, minority counsel; and Ellen Rayner, 
minority chief clerk.
    Mr. Mica. Good morning, I would like to welcome you to this 
meeting of the Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources and call this hearing to order.
    It is my understanding that they are concluding a 
Democratic Caucus, and we should be joined by members from the 
minority side. The Republicans are having a conference which is 
just concluding, and we should be joined by members from the 
majority side in just a few minutes. But we will go ahead and 
begin.
    I have an opening statement and I will be followed by 
others who have opening statements today. We have three panels 
that we will hear from.
    The subject of today's hearing is the pros and cons of drug 
legalization, decriminalization, and harm reduction. Today the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources will examine a subject which is frequently talked 
about but rarely the topic of a congressional hearing--that is 
the question of drug legalization. Specifically, we will 
discuss issues relating to drug use, drug offenses, 
decriminalization, and harm reduction.
    This hearing is just one more in a series of hearings that 
we have held and will continue to hold examining our Nation's 
drug control policy and its effectiveness. As you know, recent 
statistics on drug use by young people are not just worrisome, 
they are tragic and sobering. Methods to deter the use and 
abuse of dangerous substances should be the centerpiece of any 
serious effort to reverse the rising drug use trends.
    The simple truth is that drugs destroy lives. They steal 
away opportunities that might have been. They produce fatal 
overdoses, fatal accidents, and death by criminal homicide.
    Despite the warm glow of well-intentioned words, the 
reality is hard to miss. Drug overdose deaths continue to 
plague our metropolitan areas, our suburbs, and our schools. 
There is really no element of our society today untouched by 
the ravages of illegal narcotics. Drug use is soaring among our 
12th graders. More than 50 percent of them have tried an 
illicit drug, and more than one in four are today a current 
user.
    There have been serious proposals across our land and here 
in Washington about how to best combat school violence and deal 
with drug traffickers, restore individual and community 
security, and reduce overall youth drug use. These proposals 
have ranged from legalization of marijuana for medical use to 
tough sentencing guidelines and needle exchanges.
    Today, we venture into a first-of-its-kind hearing with 
this subcommittee's undertaking to provide new information and 
also solicit informed opinions from both the policymakers and 
the public on issues relating to drug legalization and 
decriminalization. The often high-pitched debate over 
legalization of drugs appears to have intensified during the 
past several years. There appears to be more public support for 
these initiatives than there was several years ago when they 
were first proposed.
    My concern is that the media and other opinion leaders are 
paying more attention to drug legalization because there has 
been in-fact a well-financed and internationally and nationally 
coordinated effort championed by several organizations and 
wealthy backers. Quite frankly, I am not certain of their 
motivation, and I am not certain of their end game.
    Regardless of which seed bed this movement is sprouting 
from, the issue needs to be openly and honestly addressed by 
both government and nongovernmental officials. That is why I 
decided to conduct this hearing and conduct additional hearings 
on this subject. That is why today we are bringing together 
Federal officials with responsibility in this area and a 
sampling of outside policy experts. The notion that dangerous 
drugs might one day be legalized has come from a number of 
sources, including former Surgeon General Joycelyn Elders, 
mayor of Baltimore Kurt Schmoke, the press, and other opinion 
leaders.
    If this debate is going to be, as Justice Brennan once 
said, as all controversial debates should be, open and robust, 
it must at last be joined. Honest debate over these issues, I 
believe, will benefit the American people. Hopefully, we can 
also act to discredit those who promote positions without a 
basis in fact and add credibility to those who have facts on 
their side. The American public should understand the policy 
implications of legalization, decriminalization and harm 
reduction. They need to hear both sides of this debate, that is 
why we begin today, hopefully, in a civil and well-informed 
discussion.
    There are many facets and nuances to this debate. However, 
I would like to take just a few moments to share my personal 
views on several issues.
    As many of you know, I have been highly critical at times 
of this administration's drug policies and budget priorities. 
For a number of years, this administration floundered without 
specific goals or objectives in a coherent drug control policy. 
General McCaffrey has helped to change that direction, but in 
the prior leadership vacuum, substantial ground was lost and 
the war on drugs was nearly closed down. That said, I believe 
this void helped provide momentum to the current drive toward 
legalization and decriminalization.
    The problems associated with drug use are not simple and 
will not respond to simple solutions. I believe that there have 
been victories and successes in the fight against drug 
trafficking and drug use and abuse; however in my own view, we 
can and must do more. The alternative isn't very pretty. In 
fact, the alternative may be consigning a generation to 
addiction and drug dependency in unprecedented numbers. We 
cannot step backward after beginning to move forward.
    The 50 percent drop in drug users, from 15.4 million in 
1979 to a little over 12 million in 1992, and the 75 percent 
drop in cocaine use between a measured peak in 1985 of 5.7 
million to a bottom of 1.4 million in 1992 are what I would 
term successes. As many of you know, these successes were the 
combined result of a strong parents' movement and a strong 
Federal antidrug policy. In New York City, we have seen that 
tough enforcement has reduced crime, murder, and drug abuse.
    In the past few years, we have restarted, I believe, 
effective eradication and source country programs. We have also 
begun an unprecedented education and demand reduction program. 
It is important that before we reverse course, we must 
carefully examine what has worked and what has failed. If we 
can identify effective treatment for those incarcerated or 
those afflicted with drug addiction, nothing should stand in 
our way to provide care to those individuals. However, we 
cannot turn our backs on felonious conduct and issue those who 
traffic and deal in deadly substances a license to destroy 
lives.
    Today's hearing solicits initial comments from this 
administration; and, as I said, we will have a sampling of 
experts on the subject today. This is our first hearing in a 
series of hearings that I hope will provide factual testimony 
on the questions of drug legalization, decriminalization and 
harm reduction.
    Those are my opening comments. As I said, we have three 
panels we will hear from shortly.
    I am pleased that we have been joined by our ranking 
member. I know she may be out of breath in running back, but I 
am delighted to recognize her at this time, the gentlelady and 
ranking member, as I said, Mrs. Mink from Hawaii. You are 
recognized.
    Mrs. Mink. I thank you, Mr. Chairman. I do apologize for 
being late.
    The Democratic Caucus was convened this morning on a very 
important matter: juvenile justice. The majority leadership 
reoriented the debate procedure, as you know, at the last 
minute so we have been trying to sort things out. Half of the 
bill came out of my Committee on Education and the Workforce, 
which has now been pulled, so things are in somewhat of a 
disarray, and I apologize for being late.
    I will insert my remarks at a later point. I would like at 
this time to yield a few minutes to Dennis Kucinich, who has an 
introduction to make.
    Mr. Kucinich. With the permission of the chair, with 
unanimous consent, I would like to introduce----
    Mr. Mica. Without objection.
    Mr. Kucinich. Thank you very much. I would like to 
introduce Kevin Sabbitt from the Community Antidrug Coalition. 
If Kevin could stand. Kevin is one of the many young people 
from across this country who is working on strategies to quell 
the use of drugs in communities. He had some remarks, with the 
permission of the chair, I would like with unanimous consent to 
be included in the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Kucinich. I might mention that Kevin's involvement and 
testimony was called to my attention by the wife of the 
Governor of the State of Ohio, Mrs. Hope Taft, who called me 
and asked me if I would communicate this to the chair. I would 
certainly appreciate your indulgence and the committee's 
indulgence.
    Mr. Mica. We are very pleased for his participation. 
Without objection, his remarks will be made a part of the 
record.
    Mr. Kucinich. Thank you. Mrs. Mink, thank you.
    Mr. Mica. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.001
    
    [GRAPHIC] [TIFF OMITTED] T3346.002
    
    [GRAPHIC] [TIFF OMITTED] T3346.003
    
    [GRAPHIC] [TIFF OMITTED] T3346.004
    
    Mr. Mica. I am pleased now to recognize our ranking member 
on this side, who is the chairman of the International 
Relations Committee, the gentleman from New York, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to thank you for conducting what I consider to be a 
very important hearing today on this controversial issue of the 
legalization of mind-altering drugs. I also want to thank you 
for bringing some excellent witnesses, including General 
McCaffrey and Dr. Leshner and Mr. Marshall, our Deputy 
Administrator of the DEA, Mr. McDonough, Mr. Ehlers, Mr. 
Maginnis, Mr. Boaz and Ira Glasser. I think you have an 
excellent set of witnesses today that should help to focus our 
attention on this very important issue.
    Legalization is virtually a surrender to despair. It cannot 
and should not be any topic of serious discussion in our 
Nation's debate on the challenges of illicit drugs. Hopefully 
by the time this hearing is over, we will make it clear that 
this is certainly not the direction in which any drug policy 
should be headed now, or ever.
    Most importantly, we must not be perceived as sending mixed 
and confusing messages on illicit drug use to our young people. 
Illicit drugs are wrong, they are destructive, they are not 
recreational, they are deadly--nothing more, nothing less.
    We have a firm, moral obligation not to lead our citizens 
into any spiral of despair and substance dependency through the 
legalization of mind-altering substances.
    As Tom Constantine, our DEA Administrator, who is also a 
great cop and proven drug fighter, said so well at our November 
1997, international antidrug conference in Scotland, ``for 
those elites who proposed legalization, let them start in their 
own families and in their own school districts and then we can 
better evaluate this option.''
    Looking down from an ivory tower, it may be easy to throw 
up your hands and say it is time to surrender to the scourge of 
illicit drugs. But let those who offer such an unsophisticated 
solution, which avoids the hard choices and the difficult 
battles, first pass the Constantine home and school test if 
they want credibility in advocating legalization.
    And for those who would despair in our fight against 
illicit drugs, let me state unequivocally that we can and we 
have made progress in fighting drugs in the past. Between 1985 
and 1992, we reduced monthly cocaine usage in our Nation by 
nearly 80 percent, nearly an 80 percent reduction. There aren't 
many Federal programs that can claim that rate of success with 
such a difficult and a challenging problem as illicit drug use.
    We made that kind of remarkable progress through a good 
public relations campaign, through Mrs. Reagan's Just Say No 
theme, and through a balanced, evenhanded supply and demand 
approach. Any balanced strategy in our Nation's drug war must 
include a reduction in both supply and demand and it must be 
simultaneous. By reducing supply, we have to eradicate the 
product at its source, we have to interdict when it gets into 
the mainstream of distribution, and we have to enforce when it 
reaches our shorelines, be able to arrest, convict and put away 
the drug traffickers. And in reducing demand, we have to 
educate our young people about the dangers of drug use, and we 
have to treat and rehabilitate the victims.
    We have to do all of those things simultaneously. You can't 
take funding from one of those elements and give it to another.
    I am looking forward to today's testimony. I hope that we 
may initiate the beginning of the end of this misguided and 
unfortunate debate about legalization. This debate detracts us 
from the important aspects of what we are trying to do, a 
debate that would take us in the wrong direction for both our 
Nation and our young people's future and well-being.
    Mr. Chairman, I want to make certain that we refer in the 
record to DEA Administrator Tom Constantine's paper, as 
delivered in Austria this past January at another important 
international drug conference. DEA Administrator Constantine 
recounts as part of that excellent paper the impact of the de 
facto legalization of illicit drugs in the city of Baltimore. 
He stated that the strategy used in Baltimore was a lost 
strategy.
    Chairman Mica, who participated in that Austrian 
conference, frequently cites the DEA Baltimore heroin figures. 
That startling data indicates that there exists one heroin 
addict for every 17 people in that nearby city.
    Mr. Constantine's paper outlines the extensive devastation 
and adverse impact that heroin has had on the Baltimore 
community when it took a laissez-faire approach to the use of 
illicit drugs. Let no community follow Baltimore's example.
    Mr. Chairman, I ask unanimous consent that Administrator 
Constantine's Vienna paper be included in the record of these 
proceedings.
    Before closing, I would like to commend General McCaffrey 
for the outstanding job he has done in focusing attention on 
the drug war in our Nation and trying to elicit support for 
what our Nation should be doing to eliminate this very critical 
problem in our Nation.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. Without objection, the 
paper that you referred to will be made a part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.005
    
    [GRAPHIC] [TIFF OMITTED] T3346.006
    
    [GRAPHIC] [TIFF OMITTED] T3346.007
    
    [GRAPHIC] [TIFF OMITTED] T3346.008
    
    [GRAPHIC] [TIFF OMITTED] T3346.009
    
    [GRAPHIC] [TIFF OMITTED] T3346.010
    
    [GRAPHIC] [TIFF OMITTED] T3346.011
    
    [GRAPHIC] [TIFF OMITTED] T3346.012
    
    [GRAPHIC] [TIFF OMITTED] T3346.013
    
    [GRAPHIC] [TIFF OMITTED] T3346.014
    
    [GRAPHIC] [TIFF OMITTED] T3346.015
    
    [GRAPHIC] [TIFF OMITTED] T3346.016
    
    [GRAPHIC] [TIFF OMITTED] T3346.017
    
    [GRAPHIC] [TIFF OMITTED] T3346.018
    
    [GRAPHIC] [TIFF OMITTED] T3346.019
    
    [GRAPHIC] [TIFF OMITTED] T3346.020
    
    [GRAPHIC] [TIFF OMITTED] T3346.021
    
    Mr. Mica. I am pleased now to recognize for an opening 
statement the gentleman from Maryland. I was going to say the 
gentleman from Baltimore, but after the comments from the 
gentleman from New York, I thought I should cool it. Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman. I 
certainly am from Baltimore, and I am very proud to be so.
    As I listened to the gentleman from New York, I could not 
help but think about the fact that there are so many people who 
need medical treatment. They need treatment. For a lot of 
people, it is very easy to sit back and look at folks. Well, I 
live in the middle of it. I live in a drug-infested 
neighborhood. I know people who have been trying to get 
treatment for years--for years--and can't get it.
    As a matter of fact, General McCaffrey came to Baltimore 
about 2 years ago and went through one of those neighborhoods 
in east Baltimore and had an opportunity to see young men and 
women who were struggling, taking their own resources, coming 
up with innovative ways to get the funds to treat themselves. 
So I think we have to be very, very careful when someone sits 
at a distance and then tries to put a microscope on any 
community and still complain but don't provide the funds to 
address the problem.
    The problem is very serious. It is one, as I said before, I 
count as a top priority on my list since I live with it. I have 
known the little girls who I have watched grow up from babies 
and now selling their bodies for $5 at 14 years old. I see them 
every day. I know the pain of coming home and seeing my home 
ransacked, my car broken into because people are in so much 
pain they don't even know they are in pain.
    I am glad that we are having this hearing today. I am 
personally against decriminalization of drugs, but I am for 
making sure that people are treated. I am glad that General 
McCaffrey has made the efforts he has made with regard to 
inmates, people going to jail and coming out worse off than 
when they went in. At least we are beginning to try to deal 
with that problem so when they come out they are better off.
    The fact is, sometimes this whole problem reminds me of my 
little girl when she was a little younger--she is 5 now, but 
when she was a little younger, she was about 2 years old, I 
guess, she would come up to me and say, ``daddy, let's play 
hide and go seek,'' and she would put her hand up to her face 
and say, ``daddy, you can't find me.'' But she was standing 
right in front of me.
    What I am trying to say is that so often the solutions to 
the problems are right in front of us, but we don't address 
them for various reasons. And sometimes I think--I think it was 
Martin Luther King, Sr., who said, you cannot lead where you do 
not go, you cannot teach what you do not know. I would ask some 
folks to do what General McCaffrey has done, to walk in my 
neighborhood, to see what happens when children are left out 
and left behind, to see that babies do grow up and are placed 
in difficult circumstances.
    And so, no, decriminalization is not the solution. 
Legalization is not the solution. The solution is that we must 
have a more humane society so that people don't grow up feeling 
that they have to do these things. And, second, if they do 
these things, to make sure that they get appropriate treatment 
so that they can come back to a life that is productive and a 
life that is meaningful.
    I look forward to the testimony, Mr. Chairman, and I want 
to thank you for holding this hearing. I am just so anxious to 
hear what is going to be said, I just don't know what to do.
    With that, I want to thank all of our witnesses for being 
here and thank you for taking your time.
    I would remind our witnesses--I am almost finished, Mr. 
Chairman--I would remind our witnesses that your testimony is 
so important to us. This is the Congress of the United States 
of America, the greatest country in the world, the most 
powerful country in the world; and we so happen--we folks up 
here have been charged with leading this country. Your 
testimony helps us to address the policies that make this 
country the great country that it is. We simply take time out 
to say thank you.
    Mr. Mica. I thank the gentleman.
    I now recognize the gentleman from Arkansas for an opening 
statement, Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I want to welcome General McCaffrey. I look forward to your 
testimony.
    General, I want to express that I have enormous respect for 
you and the work that you have done, the commitment that you 
have made to this endeavor and to your work. I can't think of 
any public official that puts his heart more into the job that 
you are trying to perform than you do, and our country should 
be grateful to you.
    We do have some, I think, differences in emphasis. I have 
read your testimony. I think that when you talk about a 
fallacy, it being a fallacy that we are fighting a war on 
drugs, and that the reality is that it is analogous to the 
fight against cancer, you have some legitimate points, I guess, 
that you don't want to declare war on your citizens and 
whenever someone goes out to make a drug arrest, you don't want 
to treat it like a war. Those points are well-taken; and, 
obviously, there is some merit to that.
    But, to me, as a parent of teenagers, and I have had family 
members that have struggled with drugs, it is a war in a 
family, I guarantee you, and it is a war in our society. You 
document that through your testimony, which is a very strong 
statement as to why we should not legalize marijuana in our 
country. So I guess you can use whatever term--it just doesn't 
make any sense to me to make a big issue out of the contention 
that the terminology of ``war against drugs'' is wrong. This is 
not something I want to live with in America's families.
    Second, and I hope you will address some of these issues, 
because I am not aware of all that you are doing, but this 
legalization of marijuana across the country is of enormous 
concern, the initiatives in the various States. Please explain 
specifically what the administration is doing in each of these 
States to combat these efforts. It would appear to me that the 
media campaign budget is extraordinarily--generous is not the 
right word--but hefty and should be targeted toward these 
States and not just necessarily an antidrug message but a 
specific message that relates to the problems in legalization 
that you have articulated so well in the testimony that I have 
reviewed.
    And also I just think it takes your presence and the 
presence of the Attorney General of the United States in each 
of these States holding news conferences, outlining the 
problems that you have recited and urging people not to be 
swept away with this legalization effort. And so please comment 
on what you are doing, what the administration is doing, and 
what the Attorney General is doing in that regard.
    Then, finally, in looking at the goals of your 1999 
strategy, certainly you can't disagree with those goals, I 
mean, they are very important. The education is critically 
important, obviously the key component of any campaign, 
reducing crime, social cost, the interdiction efforts. It just, 
at least in overall goals, it seems like there is not a strong 
enough law enforcement component. Are these goals different 
from previous years in regard to the law enforcement component 
and the emphasis upon law enforcement? If you could comment on 
that and advise me if there is any change or retreat from the 
hard push in the law enforcement arena.
    With that, I will yield back; and I look forward to your 
testimony, General McCaffrey.
    Mr. Mica. I thank the gentleman.
    We have no further opening statements at this time.
    As you know, General, this is an investigation and 
oversight subcommittee of Congress. We swear in all of our 
witnesses. So if you would stand, sir and raise your right 
hand.
    [Witness sworn.]
    Mr. Mica. Welcome, General. We won't put the time clock on 
you today. You are the only one on the panel. Welcome back. We 
look forward to your testimony. Without further ado, sir, you 
are recognized.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Thank you, Mr. Chairman, to you and 
Congresswoman Mink and all the members of your committee.
    The enormous amount of energy that all of you collectively 
and individually have poured into this. I have watched your 
travels around the country, the two of you on your trip to the 
Andean ridge, and I thank you for your engagement on the issue 
and indeed for your guidance and support over the last several 
years.
    Let me say that some of the witnesses who are here to 
support your hearing, particularly Dr. Alan Leshner, without 
meaning to embarrass him, I consider a national treasure. You 
gave him a half billion dollars last year in research money. 
You have increased his budget by 36 percent in 4 years. He 
knows what he is talking about. That research has been the 
basis of an informed policy on drug abuse in America that has 
guided our efforts over the last several years.
    You also have Donnie Marshall here, representing Tom 
Constantine and the 9,000 men and women of the DEA. Thank God 
for their integrity and for the skill with which they have 
confronted this international and implacable drug criminal 
threat that we face. I look forward to hearing what Donnie 
says. He has a ton of common sense, and the DEA and 
counternarcotics officers who are present understand drug abuse 
at face value.
    Bob Maginnis, from the Family Research Council, has been a 
very important NGO and a voice of common sense; and we thank 
him for his writing and thinking and influence.
    And Jim McDonough, my former head strategic planner, now 
working for Governor Jeb Bush, we look forward to his comments.
    Mr. Chairman, I thank you for allowing me to have the 
opportunity to bring together these witnesses and listen to the 
people that have really formed and guided our own efforts.
    Sue Thaugh is here from the Community Antidrug Coalition of 
America. There are more than 4,000 coalitions around the 
country. Thanks to the Portman-Levin bill, we are now growing 
the number of community coalitions--Johnny Hughes from the 
National Troopers Coalition, Bill McGiveney from DARE. There 
are 26 million American children involved in the biggest drug 
prevention program in the world. There are now 9 million plus 
kids in the international arena. It is spreading throughout 
Latin America. A lot of the teaching of the DARE coordinators 
is going on in Costa Rica.
    With your permission, Mr. Chairman, he has brought some of 
his kids here, and they may sort of provide an underpoint, if I 
could ask them to stand up. How about these DARE kids? Go 
ahead. Stand on up.
    Dr. Linda Wolf Jones, Therapeutic Communities of America, 
is here to again key off Congressman Cummings' point. We are 
not going to solve this problem until we understand that there 
are 4.1 million Americans who are chronically addicted to 
illegal drugs. We will go on to talk about this, if you wish, 
but at the end of the day, we believe we have probably half the 
infrastructure we require to bring effective drug treatment to 
bear on that problem. We thank Dr. Wolf Jones for her 
leadership.
    Wes Huddleston is here, Director of the National Drug Court 
Institute. What a concept. Four years ago, there were a dozen 
drug courts. Today, there are more than 600 either online or 
coming online this year. The first national convention was 5 
years ago. There were less than 300 people there. This year it 
was in Miami. There were more than 3,000 people there from all 
over America.
    Jessica Hulsey is here, the youth member of our Drug Free 
Communities Advisory Board.
    We are very grateful the YMCA has Eden Fisher Derbman here, 
they have tremendous program engagement with young people.
    I thank Christie McCampbell, the president of the 
California Narcotics Officers Association for being here. The 
National Narcotics Officers Association has been an extremely 
influential body in helping form our own thinking.
    Let me also, mention Rob Connelly, Boys and Girls Clubs of 
America, for their tremendous work. They are supported by 
Congress and by many municipal governments in pulling on-line 
literally 1,000 plus boys and girls clubs. This is one of the 
most effective concepts I personally know of in the field of 
drug prevention.
    Let me, if I may, Mr. Chairman, draw attention to the 
statement which Congressman Hutchinson was generous enough to 
refer to. We put an enormous amount of work into this thing.
    I thank you for this hearing which really formed the basis 
of us going to the administration, going to our stakeholders 
and saying, ``Let's form a written response to not just the 
drug legalization community but those who have disguised 
themselves under other terms to advance that argument.'' I 
would hope that this statement, which is cleared by the 
administration, will stand as a position paper to guide our 
future discussions.
    Mr. Mica. Excuse me. I think we would ask unanimous consent 
that statement be inserted as part of the record at this time.
    General McCaffrey. Yes, that would be a useful addition to 
the record.
    Mr. Mica. Without objection, so ordered. Thank you.
    [The prepared statement of General McCaffrey follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.022
    
    [GRAPHIC] [TIFF OMITTED] T3346.023
    
    [GRAPHIC] [TIFF OMITTED] T3346.024
    
    [GRAPHIC] [TIFF OMITTED] T3346.025
    
    [GRAPHIC] [TIFF OMITTED] T3346.026
    
    [GRAPHIC] [TIFF OMITTED] T3346.027
    
    [GRAPHIC] [TIFF OMITTED] T3346.028
    
    [GRAPHIC] [TIFF OMITTED] T3346.029
    
    [GRAPHIC] [TIFF OMITTED] T3346.030
    
    [GRAPHIC] [TIFF OMITTED] T3346.031
    
    [GRAPHIC] [TIFF OMITTED] T3346.032
    
    [GRAPHIC] [TIFF OMITTED] T3346.033
    
    [GRAPHIC] [TIFF OMITTED] T3346.034
    
    [GRAPHIC] [TIFF OMITTED] T3346.035
    
    [GRAPHIC] [TIFF OMITTED] T3346.036
    
    [GRAPHIC] [TIFF OMITTED] T3346.037
    
    [GRAPHIC] [TIFF OMITTED] T3346.038
    
    [GRAPHIC] [TIFF OMITTED] T3346.039
    
    [GRAPHIC] [TIFF OMITTED] T3346.040
    
    [GRAPHIC] [TIFF OMITTED] T3346.041
    
    [GRAPHIC] [TIFF OMITTED] T3346.042
    
    [GRAPHIC] [TIFF OMITTED] T3346.043
    
    [GRAPHIC] [TIFF OMITTED] T3346.044
    
    [GRAPHIC] [TIFF OMITTED] T3346.045
    
    [GRAPHIC] [TIFF OMITTED] T3346.046
    
    [GRAPHIC] [TIFF OMITTED] T3346.047
    
    [GRAPHIC] [TIFF OMITTED] T3346.048
    
    [GRAPHIC] [TIFF OMITTED] T3346.049
    
    [GRAPHIC] [TIFF OMITTED] T3346.050
    
    [GRAPHIC] [TIFF OMITTED] T3346.051
    
    [GRAPHIC] [TIFF OMITTED] T3346.052
    
    [GRAPHIC] [TIFF OMITTED] T3346.053
    
    [GRAPHIC] [TIFF OMITTED] T3346.054
    
    [GRAPHIC] [TIFF OMITTED] T3346.055
    
    [GRAPHIC] [TIFF OMITTED] T3346.056
    
    [GRAPHIC] [TIFF OMITTED] T3346.057
    
    [GRAPHIC] [TIFF OMITTED] T3346.058
    
    [GRAPHIC] [TIFF OMITTED] T3346.059
    
    [GRAPHIC] [TIFF OMITTED] T3346.060
    
    [GRAPHIC] [TIFF OMITTED] T3346.061
    
    [GRAPHIC] [TIFF OMITTED] T3346.062
    
    [GRAPHIC] [TIFF OMITTED] T3346.063
    
    [GRAPHIC] [TIFF OMITTED] T3346.064
    
    [GRAPHIC] [TIFF OMITTED] T3346.065
    
    [GRAPHIC] [TIFF OMITTED] T3346.066
    
    [GRAPHIC] [TIFF OMITTED] T3346.067
    
    [GRAPHIC] [TIFF OMITTED] T3346.068
    
    [GRAPHIC] [TIFF OMITTED] T3346.069
    
    General McCaffrey. Some quick comments if I may, Mr. 
Chairman.
    To what extent is there a drug legalization movement in the 
United States? If you try to overtly move that argument 
forward, it is very difficult to do. There are probably around 
400 groups in America that we can identify, sort of a 
superficial Lexis-Nexis check, that are advancing that 
argument.
    To put that in context, we have brought together 47 
national civic, service, fraternal, veteran's and women's 
organizations in something we call Prevention of Drug Abuse 
Through Service. That represents 100 million people and a 
million chapters. Those are people, American citizens, who have 
stated publicly that we are opposed to drug abuse. There are 
121,000 local Boy Scout units, 4,000 plus community antidrug 
coalitions, 2,300 local YMCA chapters, et cetera. Though I 
would argue, if you look out at America, the 270 million of us, 
there is unanimous opposition to the notion of making these 
drugs more available to our children.
    The second thought I would table for you is we should make 
people stand upon their written record. If you write a book, if 
you write an article, if you give a speech and advance an 
argument in favor of drug legalization, you should not be 
allowed later to move to a disguised position. I have provided 
previously to the committee excerpts from some of the books and 
writings that I think make this point.
    Ethan Nadelmann said, ``personally when I talk about 
legalization, I mean three things. The first is to make drugs 
such as marijuana, cocaine and heroin legal. I propose a mail 
order distribution system based on the right of access.''
    Professor Arnold Trebach out at American University: 
``under the legalization plan I propose here, addicts would be 
able to purchase the heroin and needles they need at reasonable 
prices from a nonmedical drugstore.''
    Now, we have been culling this kind of material out. We 
ought to be civil, we ought to be charitable and have 
democratic debate, but some of these notions are sheer 
buffoonery. They are from an ivory tower. They are not informed 
on the kind of problem that I see at face value, in prisons in 
America, in drug treatment centers, in families and in the 
workplace. I think we need to strip away the disguise and label 
people with the arguments they are actually trying to support.
    I believe the American people support our strategy against 
drugs. According to the 1999 Gallup poll 69 percent firmly 
oppose any legalization of marijuana. The 1998 Family Research 
Council poll, indicated that 82 percent oppose making drugs 
legal like alcohol.
    I think we also have some examples where we can look around 
the world. We can look at the Dutch example. The European 
Monitoring Centre notes that heroin addiction has tripled since 
the Dutch liberalized their policy. Holland is now a synthetic 
drug production center.
    Our own experience in the United States in the 1800's when 
legal opium use was available, we had our own use rates jump 
400 percent.
    I think we also should take into account that drug abuse is 
not just a personal choice. It involves other people. We look 
at child abuse and neglect and other innocent victims. We find 
that substance abuse exacerbates 7 of 10 child abuse and 
neglect cases. We look at workplace accidents. We believe that 
a third of the industrial accidents in America are caused by 
illegal drug use. We look at drunk driving and find the 
enormous correlation between the use of illegal drugs and 
alcohol in fatal accidents on the Nation's highways.
    The bottom line is we are absolutely opposed to the 
legalization of these substances or their de facto legalization 
under the notion of harm reduction. It is really unfortunate 
that they have captured that term. I would like to introduce 
Bridgette Grant, a senior at George Mason University--thanks 
for being here--she is one of our interns and will help me with 
these charts.
    If you look at our National Drug Control Strategy and what 
we are trying to accomplish, goals two and three are, in fact, 
a harm reduction approach. We recognize that 4 million plus 
chronically addicted Americans are killing 14,000 people a year 
and causing $110 billion of damages. Smart law enforcement and 
smart drug treatment have to deal with that huge number of 
Americans, a tiny percentage of the population. Unfortunately 
the harm reduction label has been hijacked by people that in 
many cases are actually talking about the legalization of 
drugs.
    I also have to underscore, our strategy does say you can't 
hope for a magic solution on drug abuse. Clearly, our dominant 
objective is prevention, education aimed at American 
adolescents. We are trying to get kids from the age of 9 
through about 19 where we minimize their exposure to gateway 
drug-taking behavior. That certainly includes alcohol and 
cigarettes. Primarily it is marijuana and huffing inhalants and 
heroin and almost any drug you can name--Ecstasy and MDMA are 
now spreading up and down the eastern seaboard.
    Bridgette, if you will, the next chart.
    A quick chart, what are the consequences? Is this an 
individual choice? Can we buy a libertarian model or should we 
be forced to recognize even though drug abuse in America has 
come down dramatically in the last 15 years, if you look at 
1979, 14 percent of the population was using drugs. In 1992 it 
dropped to 6 percent. We are going to try and take it below 3 
percent. But that has nothing to do with the fact that we have 
4 million Americans who are sicker than ever committing 
enormous amounts of crime and they dominate the population 
behind bars, 1.8 million Americans and growing; and probably 
between 50 and 80 percent of those people have a chronic drug 
or alcohol problem.
    That is the cost to you and I. This is not an individual 
choice. This involves our workplaces, our children, and our 
communities.
    Bridgette, next chart.
    Let me, if I may, underscore this chart. There has been a 
notion of hard drugs and soft drugs. We understand that heroin, 
methamphetamines, and crack cocaine have consequences that are 
more severe than the softer drugs of MDMA, marijuana, et 
cetera.
    I think the strongest voice I listen to inside the 
administration is Donna Shalala, who is essentially a teacher, 
a college professor, a university president. We are adamantly 
opposed to the use of marijuana in America, whether that is on 
the Nation's highways or, more importantly, among our students 
and our families.
    When you look at some of the behavior that Dr. Leshner can 
speak to, where you find high rates of marijuana abuse, you 
find enormous statistical correlations to other behavioral 
problems, one of which is violence. It is not just crashing 
your car or an 18-wheeler. It is also personal aggressive 
behavior.
    We are not suggesting we have demonstrated a causal 
linkage. I am just saying that is there. If your child is 
involved in a lot of drug abuse, including marijuana, it will 
probably also have beer involved. You have problems. Part of it 
is aggressive behavior.
    Next chart, please. You have seen this chart before, but it 
deserves to be restated.
    We believe, and this chart comes out of the University of 
Michigan data, but it underscores a notion that attitudes drive 
behavior. When youth attitudes about drug abuse change, when 
they worsen, when they see it as less threatening, more 
acceptable; they use more drugs. When they turn those attitudes 
around, drug abuse goes down. That is why we are so grateful 
for the bipartisan support we have gotten on this National 
Youth Anti-Drug Media Campaign.
    We believe you have to talk to children, not just over TV, 
the Internet, and the radio. It has to be parents, educators, 
coaches, pediatricians, and local law enforcement.
    We are seeing the initial stages of turning youth attitudes 
around in America. For 5 years, it went in the wrong direction. 
In the last 2 years, we have seen it stabilize and then modest 
but statistically significant reductions in drug abuse in 
America concerning 8th grade, 10th grade, 12th grade, with 
cigarettes, alcohol, marijuana and other drugs. We have 10 
years of hard work ahead of us if we are going to capitalize on 
this beginning effort.
    Next chart. We have been playing around with this chart to 
make a point.
    Take 1991 as a baseline year; 1991 was the year before 
actual youth rates of drug abuse started up. We had a long 
period where it came down from the disaster in the 1970's. 
Attitudes started changing in probably 1990, fear of drug use 
in 1991. In 1992, drug use rates went up. So I took 1991 as a 
baseline year. Those are increases or decreases in a given 
year. The last 2 years, we have the beginning indications that 
when America's communities and families and educators get 
involved, we actually can talk to our children and turn the 
situation around. But I would not even indicate this is the 
beginning of a victory. It just indicates that our hard work 
can pay off.
    Next chart.
    I am not going to go through this in much detail, but it is 
just astonishing what is on the Internet. It is unbelievable. 
When we tried to name one of our initial home pages Project 
Know, K-n-o-w, I had initially asked for Project Teen. When we 
went to that key word on the net, you get masses of child 
pornography. When you fed in drug search words--marijuana, 
heroin, et cetera--you ended up on drug legalization sites. 
They are linked together. It is incredible.
    The High Times home page. They are selling drugs over the 
Internet. They are selling doping materials for young athletes 
over the Internet, and they are providing credibility and an 
argument that these materials don't cause physical harm.
    We are going to try and counter that, but you need to 
understand that it is out there, and it is incredible, the 
material that many parents aren't aware their children see and 
encounter in the computer they have in their room or basement.
    Next chart.
    We are now out there confronting that issue. We have done 
some incredibly good work on this. I have two very 
sophisticated firms, Ogilvy Mather and Fleishman Hillard, that 
are helping guide our media buying campaign, but when it comes 
to the Internet itself, we have provided you all of our linked 
home pages. I just tell you we are up to almost a quarter of a 
million hits on our White House Drug Site. Disney is running 
Freevibe.com. Just since March--many of you were there when we 
opened that--they are pushing a million hits. We are almost up 
to 5 million visits on Project Know; we are up to a quarter of 
a million on the Drug Resource Center, America Online, just 
since the beginning of April.
    We are also influencing all the search engines and 
webpages. If you punch in on Yahoo, Warner Brothers, AOL, et 
cetera, key words, you will end up getting scientifically, 
medically accurate information that is in color, that is 
interactive. If you are a mother, you can go to Drug Help AOL. 
If you are a teen, you can go to Freevibe.com. You can see 
pictures of this material, you can talk to personalities, 
public people, movie stars, about why drug abuse is harmful to 
your future.
    We think we are starting to move ahead, and we welcome your 
own involvement in that.
    Mr. Chairman, if I may, let me just end my formal comments 
there, but I thank you and your committee members for your 
leadership in bringing this issue to the attention of the 
American people.
    Mr. Mica. Thank you, General.
    Mr. Mica. I would like to start off with a couple of 
questions, if I may.
    First of all, General, I have a bibliography here of more 
than 200 scientific studies indicating the extraordinary damage 
that is done to the human body and the brain by marijuana, 
probably from some of the most renowned scientific minds in the 
world. The findings they come up with are absolutely 
uncontestable, that THC and marijuana damage the brain, the 
lungs, the heart, and the reproductive and immune systems. They 
also show that marijuana is linked to increased aggressive and 
violent behavior.
    In view of these findings, why do you believe there is 
still a fiction that is prevalent out there particularly among 
our kids that taking drugs is fine and safe, that use of 
marijuana is not dangerous or harmful?
    General McCaffrey. Dr. Leshner will probably want to talk 
to the medical issues. I am normally trying to be careful on 
how I pose this.
    What we are sure of is that if your 12 year old adolescent 
is using marijuana on weekends, they are probably in a period 
of enormous vulnerability, central nervous system development, 
social development, and educational development. If they get 
involved in that behavior younger, and they do a lot of it, the 
chances of them being in trouble are significantly enhanced.
    You can argue about what the stats are. The statistic I use 
is that at age 12, if you are smoking pot on weekends, you are 
80 times more likely to end up using cocaine than some 12-year-
old who isn't smoking pot. Dr. Leshner in the years to come 
possibly will document that 15 percent of that population in 
the high school years will end up dependent upon marijuana if 
they use a lot of it. That figure is soft.
    Now, to a high school kid, this might sound like pretty 
good odds. To your mother or the coach, it sounds like dreadful 
odds--15 percent chance of being in serious, possibly lifelong, 
trouble. It is a complicated challenge.
    A third of adult Americans have used an illegal drug. It is 
age dependent. There are some demographics tied into it. The 
lowest rates of drug abuse in American society are African 
Americans under the age of 30. But depending on your year, 
group, and college yes/no, the chances are you smoked a joint. 
Thirty million Americans have been exposed to cocaine. They 
have stopped it. They don't want to do it. But now they are 
trying to sort out in their own mind what they tell their kids.
    We have been remiss in not explicitly telling our children 
that, regardless of mother's and my background, in this family 
we are not going to drive drunk, smoke dope, or use inhalants. 
These are behaviors that we have learned are destructive to 
your future. I think the message has been too weak. That is the 
answer, Mr. Chairman.
    Mr. Mica. You have described in the past, when you were 
speaking about medical marijuana, I think the term you used, 
you called it ``a stalking horse for legalization.'' General, 
many of those who are trying to promote legalization have 
started with promoting the medical use of marijuana. Can you 
tell me how your office has tried to deal with that issue?
    Also, we have a problem that we have lost in many of the 
States where this issue is on the ballot. Tell me, you have 
said this is ``the stalking horse for legalization,'' and I 
think you have just defined this as a serious drug problem. 
What has been done by the ONDCP to deal with this situation?
    General McCaffrey. Three years ago, I consulted with the 
people who I think know what they are talking about--Dr. 
Leshner, Dr. Harold Varmus, Dr. Nelba Chavez--the folks who 
have devoted their lives to a study of drug addiction. We came 
to a conclusion that we were getting, to be honest, rolled in 
the public arena by some very clever people who were hiding 
behind medical use of illegal drugs and were actually pushing a 
drug legalization agenda.
    But if there is one thing I know about and respect, it is 
American medicine. I have spent more time in hospitals as a 
patient than most young doctors have worked there. We have 
great trust in American medicine and in the process under the 
NIH and the FDA by which we make medicines available as 
clinically safe and effective. We trust doctors. We give them 
morphine. We give them heart medicines that can kill you.
    So what we did is, we said, let's go out and we hired the 
American Academy of Sciences, gave them $800,000 for a study to 
review what we know and do not know about smoked marijuana. We 
have a document that is done by serious people that we can 
stand behind. That document says smoked marijuana ain't 
medicine. It is a carcinogenic delivery vehicle, it is unknown 
dose rates, it is 400 plus compounds, it is 30 plus 
cannabinoids. It won't be medicine. It has a potential modest 
contribution to some symptom management. It has no curative 
impact at all.
    It also went on to say, why don't you go research more of 
the cannabinoids? There is one right now, THC, available in a 
pharmacy. Maybe others could have benefit, particularly in 
combination with other therapies. From a policy perspective, I 
support such a research approach.
    Finally, it said, you need a rapid onset delivery vehicle. 
We will go ahead and support that notion. That means deep lung 
inhalants, nasal gels, skin patches or suppositories. But what 
we have to do is keep that issue with doctors and scientists 
and not let it become a political issue.
    We have a problem. Five States, as I remember, and possibly 
the District of Columbia through some very clever investment of 
advertising dollars, have now passed some form of medical 
marijuana initiative, and it is State law. We are trying to 
confront that in a prudent manner, to take into account the 
State-Federal sensitivities.
    These drugs are still not certified for medical 
prescription. It is illegal under Federal law to grow, produce 
or sell marijuana, and we will uphold the law.
    Mr. Mica. Two final questions, and I want to give my other 
colleagues ample opportunity for questions.
    First of all, has your agency researched whether the 
Federal Government can preempt efforts to make drugs such as 
marijuana and their medical use illegal in the States? That is 
the first question.
    Second, you spoke to money coming into these referendums. 
We have some documentation that Mr. Soros, George Soros, a 
multimillionaire--incidentally, I invited him to testify today 
and will invite him back because we are interested to find out 
his motivation and what is going on here--he created the 
Lindesmith Center and funded it with $4 million. He has also 
given $6.4 million, we believe, to the Drug Policy Foundation, 
a legal advocacy group for medical marijuana.
    Two questions again. One, can we preempt State efforts? The 
second part of the question: Here is one individual. I am not 
sure what his end game is. Maybe you have some insight as to 
the motivation for his money and where this money is coming 
from to promote these initiatives and pass them? Those are my 
two final questions.
    General McCaffrey. Mr. Chairman, I would ask for your 
permission to give you a written answer on the legal political 
notion of preempting States.
    Let me tell you the answer as I understand it. These 
statutes were deemed to not be in conflict with Federal law; 
and so the up-front answer is, it is still against Federal law 
to grow marijuana, possess it, sell it or write a prescription 
for medical purposes. It is against the law. We will uphold the 
law.
    Having said that, there are 7,000 DEA agents, a couple of 
thousand staff, they are in 40 nations on the face of the 
Earth. Criminal justice is a State responsibility almost across 
the board. We have a problem here. We are going to have to sort 
it out. The lead of solving the problem has to be the people of 
California, Oregon, the State of Washington, Arizona, Hawaii, 
et cetera.
    I would be glad to provide you perhaps a more definitive 
legal argument, but there is no conflict with Federal law, and 
we will enforce Federal law.
    The motivation of people behind these efforts, I think 
there is probably a range of behaviors. Some of them are 
patently personal, using drugs and trying to advance their own 
use. I think that is probably not the motivation for many of 
them. A couple of them have intellectually goofy positions.
    Professor Trebach at American University, and I don't mean 
to be uncharitable, but I don't think he has thought through 
the argument that he is hoping to see a return of opium dens in 
America and to contrast that with the evil of the bar, the 
saloon.
    I think there is a great sadness on the part of many of us 
in America about this small percentage of the population, the 
huge consequences we pay. Congressman Hutchinson talked about, 
if you have a family member that is abusing drugs, is this a 
war?
    One of my best friends and his wife, whom I believe you 
know, a very senior military officer, his 21-year-old baby is 
now sitting in a wheelchair with permanent short-term and long-
term cognitive impairment, with massive muscle loss in the 
right arm and right leg because he overdosed on Mexican black 
tar heroin and was in a coma for 42 days. This has devastated 
the family.
    When we announced our last pulse check in an emergency room 
in a New York City hospital and got these beautiful physicians 
to talk about what they see in drug abuse in America, and it is 
absolutely ugly, I don't think Mr. Soros and some of these 
other people have seen that, and I don't think they appreciate 
the consequences. They are hopeful from an elitist standpoint 
that maybe it is some lower class kind of person that is 
involved in this behavior, not my family, not my community. If 
you just legalized it, it would all go away.
    As we have tried to advance in that paper that Rob Housman 
and Pancho Kinney from my strategic planning shop wrote, 
nothing could be farther from the truth. The problem with drugs 
isn't that they are illegal. They are destructive of the human 
body, of brain function, and of spirituality. That is the 
problem with drugs.
    Mr. Mica. Thank you.
    I would like to yield now to our ranking member, Mrs. Mink.
    Mrs. Mink. I thank you.
    There is hardly a word, General McCaffrey, that you have 
stated today that I don't agree with totally. Unfortunately, 
however, we are faced with this nagging debate about marijuana. 
I don't think there is any argument about any of the other 
drugs with reference to legalization. At least I haven't heard 
it in any of the constituent groups in my own State that are 
talking about legalization. It is primarily concentrated in 
this area of marijuana.
    I think one of the important areas that we have to examine 
is the effect of marijuana on the human brain, bodily functions 
on all the other aspects of being a total person. And until we 
do that, until the scientific research comes up with that 
specific, unequivocal statement about the damage that a person 
can suffer as a result of the use of marijuana, we are going to 
have this continuing debate.
    There is absolutely no doubt that those who use marijuana 
are likely to go on to other drugs, but that is a different 
issue. We can certainly point that out to young people who are 
tempted by marijuana, that this is a dangerous road because it 
leads to other addictions. We can certainly talk about the 
criminal implications that come from the use of marijuana.
    And all of that should militate against a society that 
tolerates the use of marijuana. But until we can get this 
definitive study with respect to the use of marijuana and the 
harm that comes from that in terms of being a fully cognizant, 
social, intelligent human being with total brain capacity, I 
think that we are challenged; and I would like to hear your 
comments about that. Because that is the only element that I 
feel is missing in the debate in which I find myself having to 
endure in many, many places in my own constituency.
    General McCaffrey. I think your comments are right on the 
money. Most people are not foolish enough to talk about why 
they want methamphetamines in a 7-Eleven store near them, 
although there are many that actually are advancing that 
argument. I think that is the argument of the Lindesmith 
Center.
    Having said that, to go directly to your point, I think Dr. 
Leshner and others can talk to the issue of what we know about 
smoked marijuana and its impact on a human being. Not just from 
its impact on brain function, but what we see as the 
consequences of extensive use of marijuana, particularly among 
adolescents. We do know quite a bit about it.
    The other thing I would argue is that, overwhelmingly, 
parents and educators get the point. When you ask them in an 
abstract sense about marijuana, you may get one answer. But 
when you ask about your daughter, your son, your employees, do 
you personally, do you think marijuana smoking is 
inconsequential, the answer is quite different. Americans don't 
support the legalization of marijuana.
    A final notion, if I may, Congresswoman. Two people that 
have helped form my own thinking, one of them is Dr. David 
Smith in the Haight-Ashbury Free Clinic in San Francisco. What 
a beautiful man. What an incredible organization they have put 
together, initially to deal with the wreckage of the drug 
revolution of the 1970's in San Francisco. I mean human 
wreckage. And now it is very well organized, and it is 
continuing.
    If you asked Dr. David Smith with his lifelong 
involvement--past president of the American Society of 
Addictive Medicine--what about pot? Is it OK? He will answer, 
``are you nuts?'' We get 300 kids a month off the streets of 
San Francisco, and their drug problem is pot.
    Now, Dr. Mitch Rosenthal, Phoenix House, one of the 
biggest, best-organized drug treatment centers in the country, 
this is the Cadillac of drug treatment, a lot of it publicly 
funded. Go out to his center in California, the Youth Drug 
Treatment Center, and those kids are in there for marijuana and 
alcohol. It is polydrug abuse, but primarily it is pot.
    I tell people, if you have this shiny young kid, he or she 
is 12, 13, 14, they are playing sports, they are pleasant to be 
around, you admire their friends, and then a year later they 
are acting in a weird, irresponsible manner, their grades are 
dropping, they are not playing sports, they are alienated from 
the family, don't wonder what is going on. The problem is 
drugs, and that means marijuana and beer. That is what you are 
watching in action.
    I am sympathetic to the argument, but I think if you are a 
teacher, if you are a mother, we have to stand against 
marijuana use by youngsters in particular.
    Mrs. Mink. Thank you.
    Mr. Mica. I thank the gentlelady.
    I yield now to the gentleman from Arkansas, Mr. Hutchinson, 
for questions.
    Mr. Hutchinson. I thank the chairman.
    General McCaffrey, I want to go back to the questions I 
raised in my opening comments.
    First of all, in reference to the media campaign fund that 
has been provided by Congress to you, are any of those funds 
targeted in States considering legalization of marijuana? And 
do you see any legal problems with having a specific message in 
those States urging citizens to oppose that legalization 
effort?
    General McCaffrey. That media campaign, Congressman, we are 
enormously proud of it. We are into year two. I think we know 
what we are doing. We have a real professional group running it 
for us now. They do this for a living, Ogilvy Mather. It is no 
longer five of my people at 2 o'clock in the morning. These 
folks are buttressed by Dr. Alan Leshner who is running my 
evaluation component: Is this going to work? Yes or no. Show me 
the data. He has got Westech Corp. following it.
    We have hired other outside critics, a behavioral science 
expert panel, people like those from the Annenberg School of 
Journalism. Partnership for a Drug-Free America and ONDCP have 
put together this program that by the end of the summer we will 
be in 11 foreign languages and English. We will have 102 
different media strategies around this country. So whoever you 
are, in the drug environment in this region, we are talking to 
your children and the adult mentors.
    It isn't much money, surprisingly. It was less than 1 
percent of the Federal counterdrug budget. It was $185 million 
last year. I have negotiated a 108 percent media match. But 
that is modest money compared to alcohol and cigarettes, $2 
billion, and $5 billion, respectively.
    I am getting to your question. I apologize for the context.
    Mr. Hutchinson. I do have some more questions.
    General McCaffrey. The bottom line is, we have that $185 
million targeted on confronting drug use by youngsters and 
their adult mentors' attitudes.
    Mr. Hutchinson. The answer is no?
    General McCaffrey. The answer is absolutely not. We are not 
going after this very important issue nor are we going to try 
and confront underage drinking.
    Mr. Hutchinson. Do you see any legal problem in doing that 
or is that just a judgment call on your part?
    General McCaffrey. I think it is a legal problem, but also 
the funds wouldn't be there to take on a political State issue 
to go after proposition 200 in Arizona or 215 in California.
    Mr. Hutchinson. If there was some specific authorization by 
Congress to allow those funds to be used in that effort, would 
that overcome the legal problem you are concerned about?
    General McCaffrey. I would think it would be harmful to 
this effort.
    Mr. Hutchinson. I asked about the legal problem. I know you 
disagree from a policy standpoint.
    General McCaffrey. Of course, Congress could write the law 
any way they wanted. I would probably argue that we are making 
a tremendous impact on the American people about the 
legalization issue without directly confronting it. We are 
talking about pot smoking and their kids.
    Mr. Hutchinson. You are not using any of the campaign funds 
for targeted States?
    General McCaffrey. We don't go after proposition 200 or the 
D.C. Campaign.
    Mr. Hutchinson. Have you personally been into any of the 
States that are considering these legalization efforts to hold 
news conferences using the influence of your office to oppose 
them?
    General McCaffrey. I have been almost everywhere in this 
country and have directly confronted that issue in op-eds, 
radio interviews, and TV. I have been on 3,000 TV interviews, 
7,000 news articles, and have directly confronted these issues 
with some impact.
    Janet Reno, of course, obviously stands with me, as does 
Dick Riley and Donna Shalala. The four of us are the heart and 
soul of this effort.
    Mr. Hutchinson. I congratulate you on that. I would 
encourage you to continue doing that. I would like to see, as 
these issues heat up, you, Donna Shalala, the Attorney General 
Janet Reno, and the President of the United States going into 
those States and saying this is bad for the country. In my 
judgment that is the kind of leadership we need on these 
issues.
    We certainly see every night on the news the power of this 
Presidency when it comes to media. And you and I can go into 
those States, we can hold news conferences, and we will not 
have the impact as the top official. I hope that you will be 
urging the President, the Vice President, and other officials 
to go in and really make it an initiative to make the message 
clear that legalization of marijuana is not the direction that 
we need to go.
    A final question, on your media campaign, I think you said 
that some of your ads are specifically directed to marijuana, 
is that correct?
    General McCaffrey. Absolutely. In the next generation of 
ads you will see starting in the fall, we have focused in on 
that problem. We had very little material when we started this.
    Mr. Hutchinson. You have some of that focus on marijuana. 
Do you have some of that focus on crank, for example, and other 
drugs?
    General McCaffrey. Yes.
    Mr. Hutchinson. And do you have separate ads for alcohol 
and tobacco?
    General McCaffrey. There are approximaely 20 ads playing 
approximately 7,000 times that are in the matching component we 
have now shown and that have been vetted through the Behavioral 
Science Council and the Advertising Council of America. So 
there is an anti-alcohol youth drinking in the nonpaid 
component.
    I would welcome the chance to provide any of you an 
overview of how we are developing that campaign. It is very 
complicated, and we think it is starting to work.
    Mr. Hutchinson. I very well might take advantage of that. I 
would welcome that opportunity.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentleman.
    I now recognize the gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    General, let me ask you something. We have spent a lot of 
time here on marijuana. Let's talk about cigarettes. I think I 
have heard you talk about how so many of our children become 
involved in drugs and cigarettes. It sort of starts at 
cigarettes. Is that still accurate? Initially?
    General McCaffrey. I think it is probably correct to say 
that cigarette smoking is almost a precursor to marijuana 
smoking. It is not always the case, but generally it is rare to 
see somebody smoking pot or, for that matter, if you go to a 
drug treatment center to find somebody that didn't start 
smoking as an adolescent.
    Mr. Cummings. In answering Mr. Hutchinson's question, you 
said that there was--I forgot your exact words, but there is a 
piece of your ad campaign that goes to cigarettes, is that what 
you said?
    General McCaffrey. No. Some of the matching component is 
authorized to address the cigarette issue. What I have done is, 
I had a meeting with the Attorneys General of the States. They 
have a committee that is trying to put together their cigarette 
policy. I intend to support their work with our research. But 
there will be a different research strategy, a different way 
they go about that issue, since it is a legal product for those 
18 and older. But we will be supporting that huge amount of 
money going to anti-cigarette advertising.
    There is a lot of material out there. California, Florida 
and other States already know a lot about it.
    Mr. Cummings. It just seems to me that if we are going to 
spend this time today talking about marijuana and when we 
consider what you just said, that is, there seems to be a 
correlation in many instances between cigarette smoking and 
marijuana, it just seems to me that would be something that we 
would want to take a look at.
    Again, it goes back to the hide-and-go-seek theory. The 
question is, what are we doing about it? I think we have made 
some great strides with all these settlements. So I take it 
that States like Maryland, are now trying to come up with 
strategies as to how to use that money to prevent our children 
from smoking. You are saying that your office is collaborating 
when asked?
    General McCaffrey. We are going to be supportive of these 
States with their programs. There is a lot of material out 
there they can build on.
    Mr. Cummings. I don't want anybody in this room to be 
mistaken. I think you are doing a great job. I have felt that 
way all along. I think you have a very difficult job, a very 
challenging one.
    We disagree on a few things. I think one of them may be 
this whole thing of methadone. When I talk to people and the 
former drug addicts who are recovering, living productive 
lives, when I talk to them about methadone, these people are 
averaging 12 years of nondrug use. They understand the argument 
that by using methadone a person can continue to be productive, 
and they understand all of that. But they still feel that it is 
like trading one drug for another drug and that the person is 
still addicted. I am just wondering, where are we on that? 
Where are you right now on that issue?
    General McCaffrey. We are fortunate. We have a brilliant 
man, Dr. Wesley Clark, one of the smartest people I have run 
into in government, a lifelong psychiatrist, drug researcher, 
practitioner. He is Secretary Shalala's architect to relook at 
the methadone, LAMM and other therapeutic tools program. What 
we are moving toward is what evidence-based medicine has 
produced before, credentialed the medical drug treatment 
establishment to use it.
    I share your uneasiness. Badly run methadone programs, the 
kind that Mayor Giuliani railed against in New York, are a 
nightmare. You shouldn't have people knock on a door that says 
methadone, walk through and get it. You ought to have heroin 
addicts--there are 810,000 of us Americans who are using 
heroin. Sooner or later you are going to be in despair. We need 
to reach out and put you in treatment, and you ought to be 
diagnosed.
    There ought to be a triage system. We ought to use an array 
of tools which include psychotherapeutic communities, social 
interventions and, in some cases, methadone or LAMM. If you are 
a 35-year-old, male street prostitute, you are HIV positive, 
you have tuberculosis leg sores, you have been unemployed for a 
decade, you are living under a bridge, we have to get you into 
treatment. Part of that treatment program probably ought to 
include a methadone component.
    Now, our purpose ought to be to move you along a path of 
treatment and to end up with you employed, back with your 
family and treating, not just the addiction, but treating your 
other diagnoses: You are malnourished; you are HIV positive.
    So I think methadone and LAMM do have a place in that 
inventory, but it ought to be part of a package of 
interventions.
    Mr. Cummings. Mr. Chairman, I just have one more question.
    One of the things that I have seen in Baltimore, one of the 
reasons why numbers are so high for drug-addicted people, is 
that we have people who started off on heroin many years ago, 
and so they have been living with this thing. I know people who 
have been on heroin for 30 years. There was a time where I 
think people kind of looked at this population and said, well, 
you know, with crack cocaine and cocaine coming along, 
eventually this population would die out. That sounds a bit 
morbid, but that is what they believed. Now, the word is that 
heroin is becoming, in certain places, attractive again, or did 
it ever die down? In other words, there have been some national 
reports, like on national news, that say heroin is cheaper and 
young people are more attracted to it.
    What is happening there? Because I would hate to see us 
move into a point where we have another 30 or 40 years of 
someone on a substance like heroin.
    General McCaffrey. The heroin addicts that have been on it 
for 30 years are very clever people. There are very few stupid 
folks who are addicted. It is such a dangerous life. The 
chances of living beyond 10, 15 years with a severe drug abuse 
problem are modest. Alcohol, heroin, methamphetamine, that is 
sort of the tip of the iceberg, those that can go that long.
    There is more heroin abuse in our society than there was 10 
years ago. These numbers are so soft, I am nervous using them. 
I have a number I can document, under 300,000. Another number 
over 500,000. The number I am using is 810,000. I think that is 
how many Americans are using heroin. I think there is a new 
population using it. There are lots of suburbanites, working 
class males. It is almost a new drug. Instead of 7 percent 
heroin, it is 70 to 90 percent heroin. Mr. Marshall will talk 
about it. It is like China white, stick it up your nose, ingest 
it, smoke it.
    I am wearing a memory bracelet from a young white girl, 
freshman in college, dead on a respirator after 7 days smoking 
pure heroin and crack cocaine. This drug--a young, 21-year-old 
boy that I have known since he was born, Mexican black tar 
heroin.
    The world is awash in it. We are confronting it, but 
Americans, we think, use 3 percent of the world's heroin. The 
difference is we pay $250 to $500 a day for it. We steal 
$60,000 a year in Baltimore to get it. And you can sell it in 
Pakistan for $5 a day. We have a huge problem. If we are not 
careful, we are going to see a resurgence in heroin addiction 
which is very tough to deal with.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I recognize now the gentleman from 
California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Good morning, General. I want to return to a subject you 
were talking about earlier. We had a subcommittee hearing with 
testimony in which there are State initiatives, referendums and 
the like being proposed to legalize different drugs, similar to 
California's where we legalized marijuana for medicinal 
purposes. The question I have, based on the testimony we took 
at this previous hearing, was that we have advertisments 
designed to address demand abatement, knowledge for the 
consumer. Are we putting those advertising efforts into these 
States in direct competition to the prolegalization advertising 
that is going on with these initiatives and referenda?
    General McCaffrey. We are not targeting legislative 
initiatives in the State. No, absolutely not. As a matter of 
fact, I have been very careful--a lot of these State 
authorities are prohibited by law. The Lieutenant Governor of 
Washington, a person whom I admire enormously, was sued by a 
drug legalization group to confront his efforts. He was 
correctly, I think, claiming that in his off-duty time he was 
confronting this State initiative. So we have to be a little 
careful about the political and legal issues.
    But to get to your point, every State in this country--we 
are now in 102 different media markets to confront drug abuse 
and its consequences among adolescents and their adult mentors. 
Yes, we are arguing against drug abuse in America.
    Mr. Ose. Let me make sure I understand, because this is the 
part that was confusing for me. Are you telling me that there 
are legal restrictions as to what the Federal Government can do 
to advertise the medical consequences of drug abuse?
    General McCaffrey. Absolutely not.
    Mr. Ose. Then what is----
    General McCaffrey. Not at all.
    Mr. Ose. In terms of a marketing strategy, if my competitor 
proposes, in a marketplace in which I am in, X and I happen to 
think anti-X----
    General McCaffrey. Oh, medical consequences, excuse me. It 
is the way you are saying it.
    What we can talk about is that there are consequences, 
medical consequences, to abusing drugs. We have no restrictions 
at all on accurately and scientifically portraying why we are 
opposed to the use, never mind the abuse, of these drugs. We 
are doing that.
    What we wouldn't do is go head to head with a referendum in 
a State that tries to do something like say, let's do medical 
marijuana for anemia.
    Mr. Ose. So the restriction deals with the specific 
reference to the initiative, not to----
    General McCaffrey. To some political debate, right, over an 
initiative.
    Mr. Ose. Cite for me a couple of the States--like 
California has adopted, Arizona has adopted.
    General McCaffrey. Washington, Hawaii, possibly the 
District of Columbia, Colorado.
    Mr. Ose. They have adopted it or it is pending?
    General McCaffrey. A bunch of these have passed. The first 
two States are California and Arizona that have passed some 
form of medical legalization of certain kinds of drugs.
    Mr. Ose. Are there any States where an initiative is 
pending for medical legalization----
    General McCaffrey. I have a map that should be in your 
packet that shows you. I maintain a status watch by State of 
drug legalization initiatives, either under the guise of 
medical marijuana or industrial hemp. What we do about it 
depends upon the State and the situation. But we do have a map, 
you should have availability to it, and we try and track where 
we are on this issue.
    I write Governors. I just talked to the Mayors Conference. 
We talk to county executives. We talk to State legislators. We 
have a point of contact in every State by law, NASADAD 
coordinators.
    Mr. Ose. What I am trying to get to is, if there is someone 
in a State advertising a product and the product is something 
that is arguably harmful to the citizenry of the United States, 
why aren't we matching with our own marketing program, in a 
targeted fashion, the information that would contradict or 
counterbalance that argument?
    General McCaffrey. I want to make sure I don't talk by you. 
The best answer I can give you is the drug legalization people 
don't have a fraction of the power that we have now brought to 
bear on this issue.
    I don't know how much money Soros--there are three or four 
people that have funded this whole effort. I doubt it was more 
than $15 million.
    So we are in the marketplace on the Internet, radio, TV, 
billboards, print media. We clearly are presenting a correct 
scientific argument on why you shouldn't use drugs. Fifty 
percent of that energy is at adolescents, but another 50 
percent of it is aimed at adult caregivers. So we are talking 
to America about this problem right now.
    Mr. Ose. Someone just brought me the map. Thank you for 
sending it up here. Recognizing on this map that we have no 
initiatives pending or in a large number of States, is there 
any logic to providing a maintenance-type effort there and 
transferring funds that would otherwise go in those States and 
targeting them at States where--for instance, we have a 
signature petition under way in Florida, and we have 
legislation introduced in five other States here, targeting 
those States for the purpose of either defeating very cleverly, 
the petition drive or the legislation by informing the public?
    General McCaffrey. Let me again be explicit. We are not 
confronting State initiatives. We absolutely are not. If 
Americans want to debate whether heroin should be used as a 
painkiller, they are welcome to do that, to vote on it. Federal 
law is quite clear.
    What this media campaign is doing, it is trying to affect 
youth attitudes to reject the abuse of drugs. Nobody has got a 
drug legalization initiative on the table. Nobody is stupid 
enough to do that. You couldn't get it through anywhere in 
America. You have to go an indirect route of medical pot or 
hemp industrialization. That is a different issue that we ought 
to argue on medical scientific grounds.
    We are talking to America's children and their adult 
mentors about drug abuse, and we are swamping any drug 
legalization message in that effort. Nobody is out there 
competing now like we are. This is a 2-year, 5-year, 10-year 
effort to talk to America's children. It will work. It will 
affect youth attitudes.
    Mr. Ose. I am confident of that. It seems that if whoever 
these individuals are who are funding this, if they take their 
money to Florida and target it on Florida, we ought to send the 
clear and unequivocal message, you go there, we're coming 
there, too; and we're going to make you waste your money 
because we're going to bring the resources of the Federal 
Government and its educational program to bear and put it up on 
the TV opposite your stuff and give people the countervailing 
view.
    General McCaffrey. That is not what we are doing, though. 
We are absolutely not confronting medical drug issues head to 
head. We are not doing that. We are talking to young people 
about why these drugs are harmful to their social, 
intellectual, moral development.
    I am normally not too hard to follow. We are not 
confronting political initiatives by State. The legal authority 
isn't there. That is not what I am doing with this money. We 
are going after youth attitudes and adult caregivers. But we 
are not shifting money around chasing George Soros's $15 
million. We are talking to America's kids, and they are using 
drugs in every one of these States.
    This is not an urban problem, a minority problem. This is 
America's problem.
    We are in every State in the Union doing that. We are 
trying to target the message by ethnic group, by age, by what 
drugs this group of kids see. The message is different in 
Boise, ID, than it is in Newark, NJ. Meth is in Boise; it isn't 
in Newark. If you live in Los Angeles, you will hear Spanish on 
the air a lot. If you are in San Francisco, we are going to be 
in the Chinese language on radios. So we are going after the 
target audience with a very powerful, correct message: Don't 
use drugs.
    Mr. Mica. I thank the gentleman.
    I would now like to recognize the gentleman from New York, 
Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. I thank you 
for holding this hearing. I think this is a very important 
debate that should take place. I am happy that you are doing 
it.
    It is also good to see you, Mr. Director, and to commend 
you on the outstanding job that you are doing with limited 
resources. I want you to know that we appreciate that as well.
    My question basically, the first one, is why aren't we 
looking more at antagonizers? The point is that something that 
we could use to sort of help a person stay away from drugs when 
they are off, why aren't we concentrating more on that?
    General McCaffrey. On what?
    Mr. Towns. Antagonizers. In other words, like cyclazocine, 
a medication that would be used to sort of help a person go 
through the crisis.
    General McCaffrey. Yes, I see.
    Mr. Congressman, by the way, let me thank you for the 
opportunity to listen to you and talk to your faith leadership 
community. That was a tremendously important day to me. I 
benefited a lot from hearing their ideas.
    You raise a good point. Dr. Leshner ought to talk to it.
    We are putting a significant amount of money into research 
efforts dealing with new medications. Columbia University is 
doing some spectacular work, Johns Hopkins. There are some for-
profit corporations. We will try and give the drug treatment 
community the same tools to deal with things like cocaine 
addiction. There is nothing there right now to assess.
    Alan Leshner has several very promising lines of research 
going. We do believe that LAMM, methadone, buprenorphine and 
other medications should be available as an antidote to some of 
these drugs. I think you are quite correct. It is another tool 
that we ought to give our drug treatment community.
    Mr. Towns. How do you feel about the debate that is taking 
place around legalization? Does it endanger the gains we have 
made in reducing drug use?
    General McCaffrey. I think it is a harmful background 
message. On the other hand, it is a democracy. We have to 
address these ideas.
    Four years ago, Senator Hatch and Senator Biden told me, 
stay away from the legalization group. Don't give legitimacy to 
their argument. They don't have any hold over the American 
people.
    I think they are so clever, so devious that I welcome this 
hearing and the chance to confront this issue publicly.
    Having said that, it is a terrible problem. Congressman Ose 
was quite correct. If you are a young person in California, in 
Arizona, you are now hearing that smoking pot has some curative 
power over diseases, and you wonder, if it is medicine, how can 
it be bad for me at age 12?
    That is a conflicting message. We think it is harmful. We 
are going to have to deal with it, in open debate, in a 
democratic society.
    Mr. Towns. Do you think that the reason we get involved in 
this debate so frequently is the fact that there are not enough 
slots available for rehabilitation in terms of a person who 
walked in this room right now and said, I want to be placed on 
a program today, I am ready to give up drugs, I am ready to 
give up drugs now?
    I don't know what I would do, and I am a Member of the U.S. 
Congress and have been a Member for 17 years. I don't know what 
I would be able to do with that person if he or she walked in 
here right now and said, I want a program today. So I think 
that maybe the reason we keep debating this so frequently is 
because of the lack of slots available for rehabilitation.
    General McCaffrey. I don't argue your point. I have to tell 
you, though, the U.S. Congress in 4 years has increased drug 
treatment funding by 26 percent. Donna Shalala now is $3 
billion plus in her prevention/treatment funding. You have 
given us the tools; you are moving us in the right direction in 
the appropriations process. We have 300,000 more treatment 
slots today than we had 4 years ago. We now have programs. 
Janet Reno is pushing to break the cycle between drugs and 
crime.
    If you are behind bars, if you have a drug abuse problem, 
we have to bring effective drug treatment to bear on that 
population or we will never break free of it.
    You did give us the money to get the drug court program up 
and running, so we can get on the front end of this system and 
put these nonviolent offenders into mandated treatment and lock 
them up for 3 days or 21 days to keep them on track. I think 
you are giving us the tools, and over time it will pay off.
    Mr. Towns. I see my time has expired. Let me just say, I 
commend you on the work you are doing with the faith community. 
I think that is so important. I think the tie-in of the faith 
community with the rehabilitation is just so important, because 
they can play a very important role in making certain that 
young people in particular follow through on their treatment. 
Thank you so very, very much for that.
    Mr. Chairman, thank you again for holding this hearing.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.070
    
    Mr. Mica. I now recognize our vice chairman, the gentleman 
from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, it has been a number of years since we have 
had a comprehensive hearing on the drug legalization issue; and 
I commend you for calling us together today.
    Given the fact that much has happened in terms of research 
and writing on issues involving legalization of drugs, so-
called medicinal use of marijuana, addiction and so forth since 
the last hearings on this topic, I would like to ask unanimous 
consent to introduce into the record a bibliography of 
marijuana literature, studies.
    Mr. Mica. Without objection, so ordered.
    Mr. Barr. The book entitled Marijuana and Medicine, edited 
by Gabriel Nahas, Kenneth Sudan, David Harvey, Stig Agurwell.
    Mr. Mica. Are you asking for the entire volume?
    Mr. Barr. Yes, Mr. Chairman.
    Mr. Mica. Without objection, so ordered.
    [Note.--The information referred to may be found in 
subcommittee files.]
    Mr. Barr. We do have some additional studies that we would 
also like to have submitted for the record, Mr. Chairman.
    Mr. Mica. Without objection, so ordered.
    Mr. Barr. Thank you.
    [Note.--The information referred to may be found in 
subcommittee files.]
    Mr. Barr. General McCaffrey, back in the spring of this 
year, as you know, the Iowa Institute of Medicine published a 
study. While it did not argue for marijuana legalization or the 
ready availability of so-called medicinal use of marijuana, it 
did keep the issue alive and move us ever so slightly down that 
road.
    You were quoted in the Washington Post as saying you, 
``thoroughly endorse the study'' and called it, and this again 
is, ``a significant contribution to discussing the issue from a 
scientific and medical viewpoint.'' And that you would not, and 
this is not a quote, but it is attributed to you, that you 
would not oppose limited studies of smoked marijuana until a 
less harmful way of inhaling the substance's active ingredients 
is found.
    It is that particular notion, attributed to you, that I 
would like to have your reaction to. Do you, in fact, not 
oppose limited studies of smoked marijuana until a less harmful 
way of inhaling the substance's active ingredients is found?
    General McCaffrey. It is true. Indeed, we now have under 
way for about a year--Dr. Leshner can talk to it more 
knowledgeably than I can--we already are doing studies of 
smoked marijuana as medicine. We have ongoing, I think there 
are two more that have passed peer group review.
    I think this study is a pretty good piece of work. This is 
the executive summary. I will make sure that the committee gets 
a copy of it.
    These are serious people. They said up front and, Mr. 
Congressman, I don't believe you were here when we responded to 
this in an earlier time, smoked marijuana isn't medicine. That 
is what this study says. It is carcinogenic, it is a dangerous 
drug, it is an unknown dose rate, it is 400 plus compounds, it 
is 30 plus cannabinoids. Smoked marijuana isn't medicine. That 
is what that study says.
    It also says----
    Mr. Barr. That being the case, General, why would you not 
oppose further studies of smoked marijuana? That being the 
case.
    General McCaffrey. It goes on to say that you ought to do 
further research on the potentially modest contributions to 
symptom management of cannabinoid-based research; and to avoid 
the problem with this carcinogenic delivery vehicle, you ought 
to develop a new rapid onset vehicle. So that is about 80 
percent of what this says.
    It also suggests, in the interim, with a population that is 
terminally ill, with 6 months or less to live, that something 
could be learned from controlled studies of a population who 
have not responded to any other available therapeutic measure; 
and we could collect data as we do under other NIH guidelines 
for, for example, chemotherapy drugs that haven't been yet 
proven to be effective.
    That is really sort of a modest exception. We have funded 
one such study, and I think there are a couple of more we will 
fund.
    Mr. Barr. The problem--we have talked about this before--I 
think it is absolutely, utterly inconsistent for the taxpayers 
to be funding such studies. When a company proposing to seek 
approval for and then market a drug seeks to do so, the 
government doesn't pay them to conduct the studies. They absorb 
the cost of that because they are the ones that want to market 
that product.
    Here we have just the opposite. We have the Federal 
Government paying for it with taxpayer dollars, paying for 
studies that lead us in the direction of medicinal use of 
marijuana.
    That is what I don't understand, why the Federal 
Government--why you or anybody else in the Federal Government 
should be advocating, and in fact, carrying out the use of 
taxpayer dollars to fund studies directed toward the possible 
so-called medicinal use of marijuana? If someone wants to study 
that, why not make them pay for it? Why should the taxpayers 
pay for it?
    General McCaffrey. I think largely we are going to do that.
    Mr. Barr. No, you are not.
    General McCaffrey. If you will allow me to answer.
    Mr. Barr. This other study cost $900 million of taxpayer 
money.
    General McCaffrey. If you will allow me to answer the 
question, Congressman, I think the principal contribution that 
NIH makes is to provide medical grade marijuana for these 
studies. I think a lot of these sort of modest proposals are 
actually funded by a San Francisco-based research group. But 
the bottom line is, this is the same tool that is used on 
chemotherapy as a waiver for certain products.
    I agree with you. We don't agree with smoked marijuana, and 
this study doesn't, either. It says smoked pot isn't medicine. 
But some of the cannabinoids in smoked marijuana may----
    Mr. Barr. If smoked pot is not medicine, why are we using 
taxpayer dollars to continue to study it?
    General McCaffrey. I have provided you with the answer. You 
don't agree. I respect your viewpoint. That is where we are.
    Mr. Barr. Let us move on to something else.
    If, in fact, marijuana, the active ingredient in it, tetra-
hydrocannabinol, THC, is in fact a Schedule I substance, that 
means the drug has a high potential for abuse. Do you agree 
with that?
    General McCaffrey. Sure. You get stoned if you use it.
    Mr. Barr. That it has no currently accepted medicinal use 
in treatment in the United States? I presume you agree with 
that.
    General McCaffrey. THC does. Marinol is available in 
pharmacies with a doctor's prescription right now.
    Mr. Barr. Do you advocate removing that to a lesser 
schedule of controlled substances?
    General McCaffrey. There is a practical matter that doctors 
don't like using drugs under that restriction. I don't think 
THC competes very well with other available drugs. Certainly 
nobody in his right mind, according to this study, would use 
THC for glaucoma management. It would be bad medical practice. 
So THC itself has some modest potential. It has sort of passed 
by history. Better drugs are available.
    This study is saying, how about the other 30 some odd 
cannabinoids? Do they have any benefit? That is really where 
they are urging us to go.
    Mr. Barr. But you are not advocating in any way, shape or 
form at this time that marijuana be removed as a Schedule I 
controlled substance?
    General McCaffrey. Absolutely not. We are adamantly opposed 
to making marijuana more available to America's children and 
working people.
    Mr. Barr. If I could, Mr. Chairman, ask one further 
question; and I know we need to go vote. I know we have had 
some discussion here today of Mr. Soros and others funding the 
marijuana legalization movement. Aside from what a number of us 
would like to see, and that is a more activist or proactivist 
role by our Department of Justice in rebutting and fighting 
these efforts, is any consideration being given to possible 
prosecution under perhaps the racketeering title of chapter 96 
of title 18?
    General McCaffrey. Mr. Barr, in terms of the initiative by 
State, you mean, these medical marijuana initiatives?
    Mr. Barr. Well, they are engaged in medical marijuana 
initiatives as well as funding other studies and activities 
oriented toward circumventing our drug laws.
    General McCaffrey. I don't know. That is a new one on me.
    My view would be, it is a legitimate topic in a democracy 
to debate whether or not these psychoactive drugs should be 
more available in your community. If you want to propose that 
idea, you ought to be able to make your argument. I think it is 
a silly argument, it is dangerous, it is currently against the 
law for well-thought-out reasons, but I welcome the chance to 
confront that issue in open debate. I am positive American 
families and local leadership are not going in that route, not 
when the idea is aired in public as we are now doing.
    Mr. Barr. You are not aware of any effort or even looking 
into the possibility of prosecuting that as possible 
racketeering?
    General McCaffrey. I don't know. There is a bit of me that 
says it is a possibly chilling implication on the right to free 
speech.
    Mr. Barr. It might have a chilling effect on the drug 
legalization movement, which might not be bad.
    General McCaffrey. I think we are going to win that. I have 
enormous faith in the judgment of the American people. I think 
this kind of argument in public, if you give them the facts, 
the American people will do the right thing. They are already 
against legalization. You can't get by the common sense of 
parents, pediatricians, local law enforcement. Nobody really 
has a grassroots movement on this effort. It is not there.
    Mr. Mica. I thank the gentleman.
    I would like to yield now to Mr. Souder.
    Mr. Souder. I kind of hate to rain on the general consensus 
of enthusiasm for free and open debate. I am one who is not 
particularly happy that we are having a hearing called the pros 
and cons of drug legalization.
    I know the chairman is very committed and has spent his 
whole career fighting illegal narcotics, but the plain truth of 
the matter is, while we live in a democracy, we do not have 
hearings called the pros and cons of rape, we do not have 
hearings called the pros and cons of child abuse, we do not 
have hearings called the pros and cons of racism, we do not 
have hearings called the pros and cons of gangs.
    The thrust of this being that somehow this is a libertarian 
argument, that somehow somebody goes and smokes pot, that it is 
a victimless crime, is just not true. Those who are advocating 
the legalization of marijuana are responsible for blood in my 
district, in my neighborhood, families and my community. I 
don't believe they are any less guilty than those who publicly, 
if we hauled a bunch of rapists in here and said, hey, why do 
you do it--thousands of people do it, but we don't invite them 
up here to talk about why they favor that position. Or there 
are millions of Americans who are racists, but we don't openly 
say, explain why you're a racist to us. I don't think it is 
right.
    I understand we are trying to be open minded here and that 
this hearing, with all due respect, has mostly people who share 
my hard-line view. But, at the same time, I don't believe that 
there should be views of the pros of illegal activity that is 
taking the lives of thousands and thousands of Americans and to 
give them any kind of credibility that this is a democratic 
debate.
    I understand what General McCaffrey is arguing that, in 
fact, like racism at different points in American history--and 
in Indiana we had the Ku Klux Klan that took over the State, I 
don't think that was particularly helpful to democracy. I 
understand that some of these things, once it gets to a high 
level in the democracy, that there is a debate that occurs; and 
if we don't counter it, we have to do that. I do have an 
uncomfortability to this.
    On a more calmed-down subject--I have just been kind of 
wound up since I heard about the hearing. I, too, have concerns 
about George Soros. Clearly he and his closest allies have 
funded predominantly every one of these referendums and many of 
the things that I have fought so hard. We are about to embark--
and I appreciate all your work in many different areas and 
particularly in the media campaign we are doing, much of what 
we are doing. We are going to fight what he is doing. Have you 
ever attempted to just sit down with him and talk with him and 
say, can you divert some of this money to trying to actually do 
a no use?
    General McCaffrey. I have not talked to George Soros, Peter 
Lewis or John Spurling. In California, for the medical rights 
legalization campaign, they put essentially $1.3 million into 
it. Maybe I should.
    I actually have enormous sympathy and resonance with what 
you just said. I want you to understand; don't think I've got 
an open mind. I am not--after 3\1/2\ years of going to drug 
treatment centers around America and listening to 14-year-old 
girls who are addicted to heroin and listening to their parents 
talk about it and just having come yesterday from New Orleans, 
from a Baptist church-based drug treatment center, I am not 
open minded about drug abuse in America. I think it is a crime.
    It is why 1.5 million Americans got arrested. It is the 
reason why half that 1.8 million people are behind bars. It is 
more people dead each year than in the Vietnam War that 
shattered my generation. I think it is crazy, and I think most 
Americans feel the same way.
    We have to put it out in public. We have to rediscover why 
we are opposed to a drugged, dazed life-style for our children, 
our fellow workers and our families.
    And we are going to do that. I think it is moving in the 
right direction, thanks to the kind of support this Congress 
has given this program, and you in particular.
    Mr. Souder. Thank you very much.
    I want to reiterate, too, that in the chairman's district, 
we heard from a young boy and his dad who had started into 
marijuana and the difficulties of that family and how that 
led--that type of thing led a lot to the heroin epidemic in 
Orlando, in Arizona.
    We heard from a young spouse whose husband would come home, 
smoke marijuana and mix it with alcohol and beat her. We have 
heard many moving testimonies. I hope some of those we can pull 
back out and put into the record with this hearing, too.
    Thank you.
    Mr. Mica. I thank the gentleman.
    Our time has expired. We have a vote, just about 5 minutes 
left in that.
    I think we have gotten all the questions in that we can 
now, General. We are going to submit additional questions to 
you. We are looking for some responses to some of the questions 
that have already been posed that you said you would respond to 
in writing. We thank you for your participation and cooperation 
and your efforts in this great mission. There being no further 
business at this time, we will excuse you.
    We will recess for one-half hour, until approximately 
12:40, so people can get a quick meal. I would like all the 
witnesses on the next panel to be here at 12:40, we will start 
promptly at that time.
    The subcommittee is in recess.
    [Whereupon, at 12:10 p.m., the subcommittee recessed, to 
reconvene at 12:40 p.m., the same day.]
    Mr. Mica. I would like to call the subcommittee back to 
order. Since we have two panels, I would like to proceed. We 
will be joined by other Members shortly.
    Our second panel, by way of introduction, is Dr. Alan 
Leshner, Director of the National Institute on Drug Abuse. Our 
second witness is Mr. Donnie Marshall, who is the Deputy 
Administrator of our Drug Enforcement Administration.
    Gentleman, as you may know, this is an investigation and 
oversight subcommittee of Congress. We do swear in our 
witnesses. So if you would please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Mica. I would like to again welcome both of our 
panelists. If you have lengthy statements or additional 
information you would like to submit as part of the record, we 
would be glad to do that by unanimous consent request.
    I will recognize now our first panelist, Dr. Alan Leshner, 
Director of the National Institute on Drug Abuse. You are 
recognized, sir.

  STATEMENTS OF ALAN LESHNER, DIRECTOR, NATIONAL INSTITUTE ON 
  DRUG ABUSE; AND DONNIE MARSHALL, DEPUTY ADMINISTRATOR, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Dr. Leshner. Thank you very much, Mr. Chairman. I want to 
thank you and the other committee members for inviting me to 
participate in this very important hearing and to speak a bit 
about the science of drug abuse and addiction.
    My full statement, which will be submitted for the record, 
speaks extensively about some of the advances that we have 
made. I hope everyone will have an opportunity to read it.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Dr. Leshner. Thank you, sir.
    Let me make some introductory comments. Scientific advances 
have been coming at an extraordinary rate and have virtually 
revolutionized our fundamental understanding of drug abuse and 
addiction and what to do about them.
    I would say that of particular importance has been an 
increased understanding of the very significant effects that 
drug use has on the user's brain and, as a result, on his or 
her behavior. Many of those effects on the brain persist long 
after the individual stops using drugs and, therefore, their 
consequences can be extremely long-lasting and extremely 
serious.
    One significant consequence, of course, is addiction, the 
literal compulsion to use drugs that interferes with all other 
aspects of life. Science has taught us that addiction is a 
devastating illness that results from the prolonged effects of 
drugs on the brain. However, I would also point out that the 
effects of drugs on the brain are not limited to addiction. 
They can result in other long-lasting behavioral abnormalities 
like memory deficits and psychotic-like states with some drugs.
    Of course, drug abuse and addiction have tremendous 
negative consequences that go way beyond the health of the 
individual, they have consequences for the health and social 
well-being of the public as well. Since my written testimony 
highlights the very diverse array of things that science has 
been teaching us, I will only use one or two examples here to 
make an introductory point.
    As one example, recent scientific advances have taught us 
much about the motivations or the reasons that people use 
drugs; and, of course, there is no single reason that people 
use these substances. Understanding what motivates an 
individual to use drugs is extremely important in designing 
both prevention and treatment programs. We need to know why 
people are using drugs if we are to influence their decision to 
use.
    Research suggests that there are at least two distinct 
categories of users. One subset of people appear to use drugs 
simply to have a novel or sensational experience. They take 
them simply to produce the positive experience of modifying 
their mood, their perception or their emotional state.
    But there is also another large group of people who take 
drugs for a very different reason. Although they are also 
trying to modify their mood, their perception, their emotional 
state, this group is using drugs in an attempt to help them 
cope with their problems. These individuals are, in effect, 
self-medicating. They are using drugs as if they were anti-
anxiety or anti-depressant medications and, of course, over 
time drug use has the opposite effect. Drug use exaggerates 
rather than corrects underlying psychological, emotional or 
situational problems.
    Whatever the motivation for initial drug use, though, drugs 
produce their effects on mood, perception and emotion by 
modifying brain function; and those changes in brain function 
have dramatic consequences both acutely in the short term and 
over time in the long term.
    It is significant that we now know in tremendous detail, 
the mechanisms of action in the brain of every major drug of 
abuse. Among the important things we have learned, by the way, 
is that even though each drug has its own idiosyncratic or 
individual mechanism of affecting the brain, they all share 
some common effects and we are coming to understand these 
common effects as a common essence of addiction.
    The implication of all of this work is that addiction 
actually comes about because prolonged drug use changes the 
brain. I would like to use just one poster to demonstrate one 
of these important differences in brain function caused by 
prolonged drug use, but I would like you to know that we have 
identified similar kinds of changes for many other drugs as 
well.
    What you are seeing here on my right is the brain's ability 
to use a critical neurochemical called dopamine. The ability to 
use dopamine is critical to normal cognitive functioning and to 
the normal experience of pleasure, among other things, so 
interfering with dopamine function has significant negative 
behavioral consequences.
    What this poster is showing you is the very long-lasting 
effects on the brain that methamphetamine in particular can 
have. So the scan on the left is that of a nondrug user. The 
next one is of a chronic methamphetamine user who was drug free 
for about 3 years when this image was taken. So this is a 
persistent effect of methamphetamine, basically to destroy the 
brain's ability to use this chemical substance.
    The third scan is of a chronic methcathinone addict who was 
also drug free for about 3 years, and the last image is of the 
brain of an individual newly diagnosed with Parkinson's 
disease. What you are seeing here is that, when compared with 
the control on the left, there is a significant loss in the 
brain's ability to transport dopamine back into brain cells.
    As I just mentioned, dopamine function is critical to 
emotional regulation. It is involved in the normal experience 
of pleasure and, of course, is involved in controlling motor 
function. Therefore, this long-lasting impairment in dopamine 
function might account for some of the very bizarre behavioral 
dysfunctions that persist for so long after long-term 
methamphetamine use.
    We believe that this kind of scientific evidence emphasizes 
dramatically the significant dangers in drug use; and, again, 
significant brain changes have been observed after individuals 
use any drug--marijuana, cocaine, heroin, amphetamines, 
nicotine; and no one is immune from the effects of drugs on the 
brain and the body.
    Studies such as these have taught us that drug use is an 
equal opportunity destroyer. That is why we say that there is 
no such thing as recreational drug use. Drug use is never good 
for you. It is not like playing ping-pong, and it is not like 
playing tennis. It is therefore as a scientist and an official 
concerned with the public health that I applaud your holding 
this hearing and your highlighting these kinds of health 
consequences of drug use. I thank you for the opportunity to 
participate.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Dr. Leshner follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.071
    
    [GRAPHIC] [TIFF OMITTED] T3346.072
    
    [GRAPHIC] [TIFF OMITTED] T3346.073
    
    [GRAPHIC] [TIFF OMITTED] T3346.074
    
    [GRAPHIC] [TIFF OMITTED] T3346.075
    
    [GRAPHIC] [TIFF OMITTED] T3346.076
    
    [GRAPHIC] [TIFF OMITTED] T3346.077
    
    [GRAPHIC] [TIFF OMITTED] T3346.078
    
    [GRAPHIC] [TIFF OMITTED] T3346.079
    
    Mr. Mica. We will withhold questions until we have heard 
from our second panelist, who is Mr. Donnie Marshall, Deputy 
Administrator of our Drug Enforcement Agency.
    Welcome, and you are recognized, sir.
    Mr. Marshall. Mr. Chairman, members of the subcommittee, 
thank you very much. It is an honor to appear here.
    I have submitted a written statement that I would like to 
have placed in the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Marshall. I would also like to say, Mr. Chairman, first 
of all, that I want to express my thanks to the subcommittee, 
the chairman and the members for your support of drug law 
enforcement, the DEA in particular.
    I would like to recognize the presence of members of the 
law enforcement community here today--the National Troopers 
Coalition, the National Narcotic Officers Association Coalition 
and members of several State narcotic officers associations--
and recognize their tireless work in the efforts to protect our 
citizens and particularly our youth from drugs and drug 
trafficking.
    What I would like to do today--I am not a scientist. It is 
an honor to appear here with a distinguished scientist such as 
Alan Leshner. I would like to talk to you really as a 
professional law enforcement person but also as a parent and a 
community volunteer. What I would like to discuss is what I 
think would happen--based on my best professional opinion, what 
would happen if drugs were legalized and then outline why I 
think a policy of drug enforcement and prevention does work.
    I know that a lot of the current debate has really been 
over the legalization of marijuana, of medical marijuana. I 
suspect, though, that legalization of medical marijuana is 
really the first tactical maneuver in a strategy that some hope 
will result ultimately in the legalization of marijuana and all 
drugs.
    I think the practical outcome of legalizing any drug would 
simply be to increase the amount of drugs available and, in 
turn, increase drug use, abuse and all of the crime and 
violence that go along with that. I really can't imagine 
anybody arguing that legalizing drugs would reduce the amount 
of drug abuse that we already have.
    Although drug abuse is down from its high mark in the 
1970's, we still have entirely too much drug abuse and too much 
drug availability in this country. In 1962, there were only 4 
million Americans who had ever tried an illegal drug. In 1997, 
roughly 77 million Americans have tried drugs.
    This escalation I think, along with the permissiveness and 
the greater availability of drugs--I think that the escalation 
really drives a central point that I would like to make and 
that is that supply, in my best professional judgment, drives 
demand.
    What legalization could mean for drug consumption in the 
United States really can be seen in the marijuana 
liberalization experiment in Holland, that has already been 
referred to, that began in 1976. Holland has now acquired a 
reputation as the drug capital of Europe.
    Another illustration I think of supply driving demand is 
the recent surge in heroin abuse in this country. Starting in 
the early 1990's, traffickers from Colombia realized that there 
were tremendous profits to be made in heroin trafficking; and 
they began to produce sizable amounts of high-purity heroin. By 
developing these high-purity heroin levels, they attracted many 
new potential users that might not have otherwise been inclined 
to use the needle because they can use this high-purity heroin 
through an inhalant method of usage.
    In order to develop a consumer market for this high-purity 
heroin, they used aggressive marketing strategies. They began 
to use brand names. They began to market their heroin with 
cocaine. They began actually to require cocaine traffickers to 
move heroin as a condition of accepting their cocaine product.
    These examples really are not just my feelings from a law 
enforcement perspective. There are others who support this line 
of reasoning, such as Dr. Herbert Kleber, who is one of the 
leading authorities on drug addiction.
    In a 1994 article in the New England Journal of Medicine, 
Dr. Kleber presented clinical data to support the premise that 
drug use would increase with legalization. He stated in this 
article, and I quote: Cocaine is a much more addictive drug 
than alcohol. If cocaine were legally available as alcohol and 
nicotine are now, the number of abusers might be nine times 
higher than the current number.
    I believe that there is also a close relationship between 
drugs and crime, and this relationship can be borne out by 
statistics. Invariably, a majority of the individuals who were 
arrested for violent crime in recent years have tested positive 
for the presence of drugs at the time of their arrest.
    Further, there is a misconception that most drug-related 
crimes involve people who are looking for money to buy drugs. 
Most drug-related crimes are actually committed by people who 
are under the influence of mind-altering drugs; and with 
increased availability of drugs, more people would be abusing 
drugs. Therefore, I believe more people would be committing 
those crimes, and I think the crime rate would actually go up 
rather than down.
    To illustrate this, I would show a 1994 study by the Bureau 
of Justice statistics that compared Federal and State prison 
inmates in 1991. This study found that 18 percent of the 
Federal inmates who were incarcerated for homicide had 
committed that offense under the influence of drugs, whereas 
only 2.7 percent of those people had committed the offense to 
obtain money for drugs.
    There has been example after example that illustrate the 
effects of increased availability of drugs. We have heard a 
couple of those examples today, particularly Baltimore. We 
could debate the causes and the solutions to the Baltimore 
example, but we really can't debate the tragedy that is 
involved with the Baltimore example.
    In New York, in response to the drug and crime problem, a 
strong law enforcement response was mounted. This has been 
effective in addressing the upward trend of violent crime. In 
New York, the homicide rate in 1990 had risen to the highest 
level ever, 2,262. By 1998, as a result of the law enforcement 
response, that homicide rate dropped to 663, a 70 percent 
reduction in just 8 years. What that really means in human 
terms is had the murder rate stayed at the 1990 level, by 1998 
there would have been 1,629 more people dead than had actually 
died. I believe it is fair to say that those 1,629 human beings 
owe their lives to the law enforcement response in New York.
    Proponents of drug legalization often point to the 
liberalization experiments in Europe to show that other nations 
have successfully controlled drugs by providing drugs and areas 
where they can be legally used. My question would be that if 
those experiments have been so successful, why have there been 
184 cities in 30 European countries who adopted the European 
Cities Against Drugs resolution, commonly known as the 
Stockholm resolution, which rejects the liberalization 
approach?
    If you really want to discover, though, what legalization 
might mean to society, I suggest you talk to a clergyman, a 
junior high school teacher, a high school coach, a scout leader 
or a parent. I would ask you, and I bet I know the answer, how 
many parents or teachers have ever come into your office to 
say, Congressman, the thing our kids really need is easier 
availability to illegal drugs? I bet you have never had a 
parent come in and say that.
    Drug addiction and its tragedy, affect entire families. It 
is a tragedy for everybody involved. It wouldn't matter one bit 
to those families and those victims whether those drugs were 
legal or illegal. The human misery would be just the same. The 
only difference is there would be more of it.
    Finally, the point I would like to make, that drug 
legalization would be a law enforcement nightmare. I bet there 
are very few people in the country who would propose making 
drugs legal to a 12-year-old child. That reluctance points up a 
major flaw in the legalization proposal. Drugs will always be 
denied to some sector of our population. So there will always 
be some form of black market and some need for drug enforcement 
and prevention programs.
    I know that there are those who would make the case that 
drug addiction hurts no one but the user, but if that lie 
really becomes part of the conventional wisdom, there will be a 
lot of pressure to legalize all drug use. If that were done, I 
believe we could reverse that tide only when we see the harmful 
effects over the years of widespread drug abuse. By then, I 
believe it would be too late to reverse that tide. I believe 
that this is no time to undermine our efforts to stem drug 
abuse.
    I would offer that from 1979 to 1994 the number of drug 
users in America dropped almost by half. I believe that two 
things significantly contributed to that drop--a strong program 
of public education and a strict program of law enforcement. 
Drug laws and prevention programs can work if we have the 
national resolve to enforce them.
    As a father and someone who has had a lot of involvement 
with kids and Boy Scouts and Little League, and as a 30-year 
civil servant in drug enforcement, I can tell you that there 
are a lot of young people out there that are looking for help. 
Sometimes helping those people means saying no, it means 
setting limits, and it means having the courage to back that 
up.
    I would like to tell you about one of those young people 
who I have helped over the course of my career. During the 
early 1970's when I was a young drug agent in Austin, TX, we 
arrested a young man, I will call him John, on drug charges. 
John had a young pregnant wife at the time. They were 
devastated by his arrest. But after he had served his sentence, 
he and his wife came to my office in Austin looking for me. I 
was a little bit apprehensive about meeting with them at first, 
but I went ahead and met with them.
    They told me that they had come in so that I could see 
their new baby who had been born while John was in jail. They 
also outlined a second reason. Both of these people agreed that 
their experience with drugs and John's arrest had been one of 
the most horrible experiences that had ever happened to them. 
But that arrest was probably what saved them.
    John explained to me that he had started using drugs 
because they were readily available in Austin, TX, in the early 
1970's and because he had seen widespread drug use among his 
peers. He quit playing sports. He ignored warnings from his 
parents, from his teachers. Finally, he dropped out of school 
altogether.
    I had no idea that night when I arrested him what the long-
term impact would be and that I would have a positive influence 
on that young man's life. I suspect that this young man was a 
pretty typical person, one who used drugs because they were 
readily available and because they were socially acceptable.
    I believe that as a society, we have to help our young 
people and we have to keep them from taking that first step 
into the world of drugs that will ruin their careers, destroy 
marriages and leave them in a cycle of drug dependency. If we 
don't have the courage to say no to drug abuse, I believe we 
will find that drugs will ruin millions of lives and ultimately 
could destroy the society that we have built over the last 200 
years.
    Drug-abuse-related crime, personal degeneration and social 
decay, all of that goes with it, those things are not 
inevitable. They are not inevitable. Too many people in this 
country, I believe, seem resigned to this growing rate of drug 
abuse; and too many people seem ready to give up. But our 
experience with drugs shows that strong law enforcement and 
prevention program policies can and do work if we have the 
courage, the strength and the persistence to stay the course.
    At DEA, our mission, quite simply, is to disrupt the major 
trafficking organizations and to fight drug trafficking in 
order to make drug abuse expensive, unpleasant, risky and 
disreputable. If the drug users themselves and the traffickers 
aren't worried about their own health, the health of others or 
the welfare of people who are affected by their products, then 
they should at least have to worry about the likelihood of 
getting caught and going to prison.
    Mr. Chairman, thank you very much for the opportunity to 
appear. I will be happy to try to answer any questions you or 
your committee may have.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.080
    
    [GRAPHIC] [TIFF OMITTED] T3346.081
    
    [GRAPHIC] [TIFF OMITTED] T3346.082
    
    [GRAPHIC] [TIFF OMITTED] T3346.083
    
    [GRAPHIC] [TIFF OMITTED] T3346.084
    
    [GRAPHIC] [TIFF OMITTED] T3346.085
    
    [GRAPHIC] [TIFF OMITTED] T3346.086
    
    [GRAPHIC] [TIFF OMITTED] T3346.087
    
    [GRAPHIC] [TIFF OMITTED] T3346.088
    
    [GRAPHIC] [TIFF OMITTED] T3346.089
    
    [GRAPHIC] [TIFF OMITTED] T3346.090
    
    [GRAPHIC] [TIFF OMITTED] T3346.091
    
    [GRAPHIC] [TIFF OMITTED] T3346.092
    
    [GRAPHIC] [TIFF OMITTED] T3346.093
    
    [GRAPHIC] [TIFF OMITTED] T3346.094
    
    [GRAPHIC] [TIFF OMITTED] T3346.095
    
    [GRAPHIC] [TIFF OMITTED] T3346.096
    
    [GRAPHIC] [TIFF OMITTED] T3346.097
    
    [GRAPHIC] [TIFF OMITTED] T3346.098
    
    [GRAPHIC] [TIFF OMITTED] T3346.099
    
    Mr. Mica. I do have some questions. Let me start first with 
Dr. Leshner.
    Doctor, there have been questions raised about the need for 
additional studies of the effect of marijuana. First of all, 
the effect of marijuana and the marijuana that we see out there 
now I think--is a little bit different than in the 1970's and 
maybe even the 1980's--what would be, in general, the damage to 
an individual?
    The second part of that marijuana question would be, are 
there additional studies that need to be conducted or is there 
sufficient scientific, documented, factual evidence that there 
is, or is not medical benefit for the use of marijuana?
    Can you address both of those parts?
    Dr. Leshner. The situation with the marijuana that is 
available on the street is that if you were to look at the 
average concentration of marijuana that is seized and analyzed, 
what you find is that in the last decade or so it has been 
relatively stable, on average, and that it is a bit higher, 1 
or 2 percentage points of concentration higher than it had been 
in the 1970's.
    What has changed and what I think is a point of concern for 
many people is that the diversity of forms and concentrations 
of marijuana has increased tremendously. So although the 
average may not be that much different, you now have 
tremendously potent marijuana and marijuana-like products that 
are available that might not have been available earlier.
    As to the second question about the purported medical uses 
of marijuana, both the National Institutes of Health and, as 
General McCaffrey said this morning, the Institute of Medicine 
of the National Academy of Sciences have looked at this 
question in detail. Let me try and be precise in reporting what 
they have said. That is, there is not a body of scientific 
literature to suggest that marijuana is, in fact, a medicine.
    However, having said that, both groups suggested that there 
might be ultimate use for some of the components of marijuana, 
for example, THC, and that research should be done in order to 
answer that question.
    One of the issues that confront public health officials is 
that there is a lot of anecdote, intuition and common sense 
that appears to be driving medical practice in some parts of 
this country; and it is our obligation in the scientific 
community to try to provide a scientific answer to that. It is 
for that reason that these groups recommended that we enable 
research into the medical uses of marijuana.
    We do have some ongoing studies that we are supporting 
looking at the potential use of marijuana for the treatment of 
AIDS wasting, for the treatment of cancer chemotherapy for 
those people who do not respond to existing medications, and 
for a potential use in analgesia.
    Mr. Mica. Do you feel that you have sufficient resources 
this year to complete those studies?
    Dr. Leshner. We will complete those studies.
    I need to say that for the National Institutes of Health we 
don't see this as a particularly high priority area, that is, 
as it goes through the peer review process, the majority of 
these studies have not received very high priority scores. That 
is why additional studies have not been funded. We therefore 
have provided a mechanism whereby bona fide research can be 
conducted by other entities. It would have to be judged to be 
genuine research through the Food and Drug Administration and 
NIH. Therefore, we might supply marijuana on a reimbursable 
basis.
    Mr. Mica. Do you plan in the next fiscal year beginning in 
October of this year to fund additional studies?
    Dr. Leshner. We have not received additional proposals for 
support from the National Institutes of Health, and we are not 
actively soliciting such studies. If they come in the door, we 
will evaluate them. If they receive sufficient priority and 
merit, then we would consider funding them.
    Again, we don't have any of those proposals before us that 
I am aware of at the moment. Maybe another institute does. 
Therefore, I think it is not very likely that we will fund many 
additional studies in the coming fiscal year.
    Mr. Mica. Mr. Marshall, some of the prolegalization folks 
are taking to the airwaves and supporting various referendum 
initiatives. They are even publicizing in paid advertisements, 
this is a paid, multipage advertisement, to change drug control 
strategy and policy.
    One of the things they recommend on the last page is 
effective drug control budget. They want to slice law 
enforcement by 50 percent. Do you think that is an effective 
strategy? What would it do if we sliced law enforcement by 50 
percent?
    Mr. Marshall. Mr. Chairman, no, I don't think that is an 
effective strategy. As I have mentioned in my comments, I 
believe that a combination of drug prevention programs and law 
enforcement really works.
    I heard this morning either yourself, Mr. Chairman, or 
Congressman Gilman refer to some decreases in the amount of 
cocaine use in this country. I would offer, that law 
enforcement was a part of that reduction. Over the last 6 to 7 
to 8 years, we have very effectively wiped out the Medellin 
Colombia cocaine cartel. We have continued our enforcement 
efforts against their successors, the Cali cartel. We really 
have that group in tremendous disarray right now.
    I would submit that law enforcement success is a part of 
the reason that we have seen that reduction in the cocaine 
abuse rate. So law enforcement does work. I think it would 
devastate the total effort if we reduced our law enforcement 
programs.
    Obviously, I think prevention and education are the long-
term solutions to this problem; but, in the meantime, we have a 
lot of vicious, violent criminals that are preying on our 
citizens through drug trafficking; and those criminals need to 
be dealt with. The only way to do that is through law 
enforcement.
    Mr. Mica. Two quick points in conclusion.
    I think this Baltimore example which Tom Constantine, the 
Director/Administrator, had prepared shows that liberalization 
can be effective in population reduction, which took place in 
Baltimore. There can be some, I guess lessening in crime, 
although I don't think it has been very significant in 
Baltimore. But liberalization leads to addiction.
    Now, this number we have here is from 1950, 300 heroin 
addicts in Baltimore, to 38,985. The gentleman from Baltimore, 
Mr. Cummings, has told me it is closer to 60,000. That would 
mean about 10 percent of the population of Baltimore. Do you 
think this is the way we should go?
    I mean, your statistics point that liberalization has some 
effect, crime is down slightly in Baltimore, but we have, I 
would say, more than a few more addicts. Does liberalization 
lead to addiction?
    Mr. Marshall. Mr. Chairman, I do not believe the 
liberalization approach is the way that we should go. I have 
already used the New York example, which I believe has resulted 
in less violence in that city. I would also use as an example a 
1998 study by the Justice Department, I believe it is the ADAM 
report, that shows that arrestees for violent crimes tested 
positive for drugs at the following rates: 74 percent of 
arrestees for violent crimes in Atlanta tested positive for 
illegal drugs, 49 percent in Miami, 60 percent in Oklahoma 
City. I have given you examples of the homicides that were 
committed under the influence of drugs. I believe there is 
clear, clear evidence that drug use is accompanied by crime and 
violence, and I absolutely do not believe that liberalization 
is the right approach.
    Mr. Mica. One final question. The Internet now has become a 
source for market activity. Our staff produced this little 
printout that shows price, drug price report, prices of Ecstasy 
and LSD and marijuana. I guess this information can be made 
public legally, although I am told additionally you can buy 
drugs now over the Internet, illegal drugs. Is the DEA taking 
any steps to go after folks that are dealing in this? And is it 
illegal to market and sell drugs in this fashion?
    Mr. Marshall. What you have referred to there in terms of 
the prices and basically steering people toward sources, I 
would be hard-pressed to say that that is illegal. You get into 
freedom of speech issues and that sort of stuff. But as far as 
the selling of drugs over the Internet, obviously that is just 
as illegal as selling drugs in any other forum.
    We have heard those same reports. We are in the early 
stages of evaluating and assessing that. We will be looking at 
that over the course of the near future.
    Mr. Mica. Thank you.
    I will yield now to the ranking member, Mrs. Mink.
    Mrs. Mink. Thank you very much.
    Mr. Marshall, following on the chairman's question about 
the use of the Internet to entice people to try drugs and 
indicate that it is widely available and where it could be 
purchased, is there any effort at the DEA to look at this as a 
special problem and, if so, what are you doing about it?
    Mr. Marshall. We are actually investigating the reports 
that we have heard of the sale of drugs over the Internet. 
Quite honestly, we are in the early stages of that, and we do 
not have a handle on that. I would like to respond to that at a 
later date after we have had a chance to completely look into 
it.
    Mrs. Mink. But it would seem to me that it would be 
important for the DEA to have a cyberspace cop section that 
would be looking at all of this and keeping on top of it and 
making a search to see who is doing all of this and whether, in 
fact, sales are taking place.
    Mr. Marshall. We have requested in our 2001 budget funding 
for a computer forensics program. What you are suggesting would 
become a part of that computer forensics program. We have a 
limited capability in that area right now, but we hope to 
increase that over the next couple of years through the budget 
process.
    Mrs. Mink. Currently we are discussing Internet sales of 
guns, Internet sales of wine and beer and hard liquor. So I 
think this suggests a new area to begin some very serious 
studies and suggestions for legal efforts on the part of the 
Federal Government to intercept the growth of this particular 
industry.
    I am very distressed about it. I have a bill myself that 
bans the Internet sale of guns. It would seem to me that we 
could easily expand it to this if there is any gap in the law 
that prevents you from getting into this field at all.
    Mr. Marshall. I agree totally with everything you have 
said.
    I would point to a particular issue with law enforcement, 
and it is going to become more of an issue as Internet commerce 
grows, and that is the issue of encryption. We are sort of at a 
crossroads right now. We have a need to preserve law 
enforcement's legitimate court-ordered, court-authorized 
capability to intercept both telephone communications, fax 
communications and Internet communications that involve 
criminal activities. We are, frankly, in some danger of losing 
that. That is an issue that the law enforcement community has 
had a lot of dialog with Congress and industry on. It is an 
issue which is very important to law enforcement.
    Mrs. Mink. The statistics that you brought forth about the 
number of people in prison today who have a drug use connection 
is very startling. Could you tell the committee how many major 
drug traffickers are in prison today?
    Mr. Marshall. I would have to get that actual information 
as to how many are in prison.
    I can tell you this. The Drug Enforcement Administration 
and our local law enforcement partners who are working with us 
through formalized task forces arrested some 33,000 drug 
traffickers in the most recent fiscal year, 1999. I could not 
tell you how many of those are actually in prison, but we do 
target the major traffickers, the major command and control 
figures, the communications managers, the money launderers, 
those kinds of people.
    Among those 33,000 that we have arrested, we believe that 
they are, for the most part, major drug criminals. If you would 
like, I will try to get you those statistics.
    Mrs. Mink. I would appreciate having that for the record, 
Mr. Chairman, when you are able to assemble it.
    Now, if you were able to arrest and convict those 33,000 
drug traffickers, what percentage of the drug traffic in 
America would that then represent?
    Mr. Marshall. That is a very difficult, if not impossible, 
question to really answer. The reason it is difficult to answer 
is that when you look at drug production in the aggregate, you 
have to consider a number of things. You have to consider that 
there is a demand for drugs at a certain level in the United 
States. There are numbers on this. I don't have them with me.
    If you assume a certain level of demand, we know that the 
traffickers have an actual production level of drugs that is in 
excess of that demand. So you would think that would be a 
simple equation, you bring that down below the demand, you 
impact availability of drugs.
    But what we also have to consider is that somewhere above 
the actual production is production capability. The traffickers 
have this built-in capability to account for loss and spoilage 
and law enforcement seizures and that sort of stuff. So what 
you have to do is really impact the production capability, not 
the actual production, before you can impact the demand level. 
And because that production capability so far exceeds the 
demand level, it is really hard to say--it is probably 
impossible to say what percentage those 33,000 arrested 
represent.
    Mrs. Mink. What you are really saying is, even if you put 
all of them in jail, there will still be traffickers to replace 
them that will be out there to sell whatever else is being 
produced?
    Mr. Marshall. As long as there is widespread drug use. That 
is where the prevention side of the equation comes in.
    Mrs. Mink. That is the reason for my question, is that when 
we are dealing with the subject of youthful potential users, 
say, of marijuana, for instance, the whole issue that I am 
confronted with when I talk to teenagers about this is that 
they would say, but it's so easy to get, it's down on that 
street corner or over at this shopping center or wherever. So I 
always confront the question of what can we do as a society to 
stop this easy access, easy availability? And so I go back to 
the trafficking and how this thing moves through our society. 
Unless we can come to grips with that issue, it is tough on the 
other aspect, of keeping our kids away from it.
    Mr. Marshall. Here is what we can do, in my best 
professional judgment. It really has to be a two-pronged 
attack. We have to do the prevention and the demand reduction 
side of the equation as the ultimate long-term solution. But in 
the meantime, as I mentioned, we have these major narcotics 
traffickers. We have the violence, we have the crime that is 
associated with drug use, and we have to go after those 
criminals. We have to punish those criminals.
    What we do in the DEA and I think most law enforcement 
agencies, we try to target the most violent of those criminals. 
We try to target the ones who are moving the largest quantities 
of drugs. And, frankly, law enforcement resources are limited 
across this country. We can never arrest our way out of the 
problem. I don't think any law enforcement professional would 
say that we could. But it is a part of the equation that we 
have to address because of the crime and the violence.
    Mrs. Mink. Moving to the prevention end and addressing it 
only to the teenager, the student in school, what is the most 
effective thing that we can do to prevent our young people from 
making that first mistake, in trying marijuana or some other 
drug? What is the most effective thing that we can do here in 
the Congress or in the relevant agencies to which this problem 
is assigned?
    Maybe Dr. Leshner can answer that.
    Dr. Leshner. A great deal of research has been done on the 
prevention of drug use; and, sadly, there is no simple solution 
to the problem, of course. But we do know that comprehensive 
programs that involve multiple parts of the community that are 
all sending the same message and that are sending those 
messages repeatedly are effective in preventing drug use.
    General McCaffrey showed some very impressive graphs about 
changes in drug attitudes and changes in drug use rates. We 
have begun to see a change in attitudes, to see the beginning 
of a change in use rates. Some of that, we believe, is a result 
of very sophisticated prevention programming that gets 
initiated very early. We have to get kids before they are in 
middle school, and then we have to give them boosters, just 
like any other vaccination program. And so this programming is 
never simple, and it does have to be comprehensive.
    One of the things that has happened in this country is the 
evolution of antidrug coalitions around the country. A major 
goal that they have had, and that I think they have done an 
outstanding job of, is having integrated approaches that bring 
in not just the schools, not just the parents, not just the 
churches, but to mobilize an entire community in a single 
strategy. As far as we can tell from the scientific research 
that has been done, it is an effective strategy.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    I now recognize the gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    First of all, Mr. Marshall, as always, thank you and the 
men and women of the DEA for the outstanding job that you do. I 
and my constituents deeply appreciate it.
    Put yourself, if you would for a moment, hypothetically, in 
the position of a State prosecutor in a State in which there 
are laws against pedophilia and rape. Would you take kindly to 
somebody who comes out with a study and says that pedophilia is 
OK; therefore, I'm going to go out there and spend huge sums of 
money trying to make it legal and encourage people to engage in 
it, or rape?
    Mr. Marshall. No, sir.
    Mr. Barr. Would you have any hesitancy in taking offense at 
that, notwithstanding their claims that this is simply an 
exercise of first amendment free speech?
    Mr. Marshall. I would take great offense, and I think it 
would be a ridiculous argument.
    Mr. Barr. Do you see that much of a distinction between 
those arguments and the arguments of the advocates of legalized 
drug usage?
    Mr. Marshall. Being a professional 30-year law enforcement 
person, Congressman, I have to confess that I do not see much 
difference in it.
    Mr. Barr. Thank you.
    One of the things that I look at, for example, is 
consistency, and I think that is very important as a 
professional law enforcement agent. Recently, it has come to 
our attention that the U.S. Department of Defense is finalizing 
regulations to allow for the use of peyote on military bases by 
military personnel for so-called religious purposes. Is it your 
understanding that peyote remains a Schedule I controlled 
substance under the laws of the United States of America?
    Mr. Marshall. Congressman, I believe that it is. However, I 
believe there may be some religious exemptions for Native 
Americans. I am not aware of the issue with the Department of 
Defense. But I believe it does remain a Schedule I. If I could 
verify that and get back to you.
    Mr. Barr. Because, it is in the criminal code. If in fact, 
the military allows this and if, thereafter, somebody in DEA 
were to come to you and say, I believe as part of my religious 
practice and my Native American heritage that I should be 
allowed to smoke peyote, would you see that as inconsistent 
with their duty as a sworn law enforcement officer with 
jurisdiction to enforce the controlled substances laws of the 
United States?
    Mr. Marshall. I'm sorry, are you talking about military, 
sir, or law enforcement?
    Mr. Barr. No, if there were a DEA agent who came to you and 
said, I believe that as part of my religious practice, what I 
deem a religious practice, I'm going to start smoking peyote. I 
understand that it is now allowed in the military. Would that 
to you be consistent with or inconsistent with their sworn duty 
as a law enforcement officer with jurisdiction over enforcing 
our Federal drug laws?
    Mr. Marshall. Congressman, I would be very, very troubled 
by that. However, I think I would have to look at the religious 
exemption and the origins of that law to make a final decision. 
But I would be very, very troubled with that.
    Mr. Barr. I would hope so, and I would certainly think so.
    Dr. Leshner, I referred earlier to this volume, Marijuana 
and Medicine, that you may or may not be familiar with. We have 
inserted it into the record. There is quite a lengthy 
discussion about a lot of the harmful effects of marijuana 
usage, including several chapters here on its very serious 
detrimental effect on reproduction, human reproductivity, and 
in particular its effect on--and they have some very 
interesting slides, similar to the scientific slides that you 
presented here--on spermatozoa and the abnormalities that 
result from particularly extended marijuana usage. Are you 
familiar with those studies?
    Dr. Leshner. I am somewhat familiar with them. I am not 
sure I am familiar with all of the studies that have been done, 
but a great deal of work has, of course, been done on the 
metabolic consequences of marijuana use.
    Mr. Barr. Are you familiar enough to give us your opinion 
on whether or not there are detrimental effects on human 
reproductivity by the extended use of marijuana?
    Dr. Leshner. I think it is not clear, sir. There is a 
substantial body of literature in animal subjects that suggests 
that Delta-9 THC can decrease pituitary prolactin and can, in 
fact, interfere with cycling in female rodents. I think some 
studies have been done in humans that confirm that kind of 
interpretation. But, as a scientist, I have to say that I am 
not sure all of that research has actually been done.
    Mr. Barr. I would recommend you, if you could, take a look 
at some of the research in here. I am certainly not a medical 
doctor or a scientist, but they present some compelling--both 
textual material as well as some graphs and pictures showing 
that there indeed seems to be a very clear link.
    Could you just very briefly explain--I noticed the chart 
that you have up here on methamphetamines. We have been 
focusing particularly this morning on marijuana, maybe to the 
detriment of some of these other drugs. Could you--and you may 
have already done this. If you have, I apologize. But by the 
same token I think that this bears repeating.
    Could you just briefly explain for me and for anybody who 
might be listening or read the record of this case what that 
depiction of the four--they are not photographs but brain scans 
regarding methamphetamine use represents?
    Dr. Leshner. They are--and if you will indulge me, given 
the comments earlier this morning about Ecstasy, I would also 
like to take just a minute and tell you about the other poster 
as well, which I did mention in my oral statement. The measure 
here--bright colors are more, dull colors are less--is the 
ability to use a substance in the brain called dopamine. 
Dopamine is necessary for normal cognitive functioning and the 
normal experience of pleasure. It is a very important 
neurochemical substance.
    What you see on the left is the ability to bind dopamine in 
a control, in this case a normal individual. The second scan is 
the brain of the methamphetamine abuser 3 years after that 
individual stopped using methamphetamine. The third is a 
methcathinone addict 3 years later. The fourth is a newly 
diagnosed Parkinson's disease patient. As you know, Parkinson's 
is a dopamine abnormality as well, although it affects a 
different part of the brain.
    What is significant here is that you are seeing a very 
long-lasting effect of drug use that persists long after the 
individual has stopped using the drugs. What is important about 
the particular brain change is that it could account for some 
of the mood alterations and certainly the psychotic-like 
behavior that persists after methamphetamine use long after the 
individual stops using it.
    The other chart, which actually you may have seen a related 
study reported in the press just yesterday, is the first 
demonstration in humans--this is the first demonstration in 
humans on methamphetamine, by the way--the first demonstration 
in humans of the persistent effects of Ecstasy use. MDMA is 
Ecstasy. What you are seeing here on the top is a control 
individual, a normal individual. The measure here is the 
ability to bind another neurochemical called serotonin. 
Seratonin is critical to normal experiences of mood. As you may 
know, antidepressants can modify serotonin binding.
    So there is a normal individual on top. The bottom is an 
Ecstasy user. In this case it is 3 weeks after that individual 
has stopped using Ecstasy. What you are seeing here is a 
persistent decrease in the ability of the brain to bind this 
very important neuro-chemical substance.
    The study published yesterday actually showed in primates--
I am not sure how you would do this in humans--but showed in 
primates a virtually identical effect 7 years after the 
primates were given MDMA. So that the point that I have been 
making is that drug use has an effect not only acutely, not 
only in the chronic use condition, but that it has persistent 
effects that last long after the individual stops using drugs.
    Mr. Barr. Would the same hold for extended marijuana usage?
    Dr. Leshner. We don't know in detail.
    We know in great detail--and the question was asked earlier 
this morning, and I would be pleased to submit information on 
that for the record--we know in great detail the mechanisms by 
which marijuana exerts its acute effects in the brain, its 
short-term effects. We do know that in long-term marijuana 
users there are persistent behavioral effects that persist 48 
to 72 hours after the individual stops using marijuana. But, as 
far as I know, no studies have been done analogous to this that 
are looking so far out after marijuana use.
    Mr. Barr. Thank you, Dr. Leshner. Thank you, Mr. Marshall.
    Mr. Mica. I would like to thank both of you. We have 
additional questions which we would like to submit to you for 
the record. I would also like to leave the record open for at 
least 2 weeks for you to submit additional information.
    Someone commented that if we could get these charts to 
every parent in America, we probably would have a lot less drug 
use, when people could see the actual effects on their body and 
on their brains.
    Dr. Leshner. We are trying, sir. We are trying to do 
exactly that.
    Mr. Mica. It is very revealing. Quite shocking.
    I would also be interested if you can supply us with any 
similar information on the effects of marijuana, if you do come 
across that. I think that would be interesting to have. Also, 
these other drugs we will put in as part of the record.
    Dr. Leshner. We will provide you with information on that.
    Mr. Mica. I would like to thank both of you. We will submit 
additional questions.
    I would like to call our third panel at this time and 
excuse the second panel.
    Our third panel today consists of Mr. James McDonough, the 
director of the Office of Drug Control Policy of the State of 
Florida; Mr. Scott Ehlers, the senior policy analyst at the 
Drug Policy Foundation; Mr. Robert L. Maginnis, a senior 
director of the Family Research Council; Mr. David Boaz, 
executive vice president of the Cato Institute; and Mr. Ira 
Glasser, the executive director of the American Civil Liberties 
Union.
    I am pleased that all of you have joined us today. As I 
indicated before, our subcommittee is an investigative and 
oversight panel of Congress. We do swear in our witnesses. If 
you wouldn't mind standing and raising your right hands.
    [Witnesses sworn.]
    Mr. Mica. I thank the witnesses. They have all answered in 
the affirmative.
    I will also point out, most of you are new to the panel, we 
do ask that any lengthy statements or additional information 
you would like to submit to the record, we do so upon request, 
and that we try to limit our oral presentations to 5 minutes. 
You will see a little light there. We try to be a bit flexible.
    With those comments in mind, I would like to first 
recognize and welcome to our subcommittee Mr. James McDonough, 
the director of the Office of Drug Control Policy created by 
the new Governor of the State of Florida. Mr. McDonough, 
welcome, and you are recognized, sir.

STATEMENTS OF JAMES MCDONOUGH, DIRECTOR, OFFICE OF DRUG CONTROL 
POLICY, STATE OF FLORIDA; SCOTT EHLERS, SENIOR POLICY ANALYST, 
 DRUG POLICY FOUNDATION; ROBERT L. MAGINNIS, SENIOR DIRECTOR, 
FAMILY RESEARCH COUNCIL; DAVID BOAZ, EXECUTIVE VICE PRESIDENT, 
 CATO INSTITUTE; AND IRA GLASSER, EXECUTIVE DIRECTOR, AMERICAN 
                     CIVIL LIBERTIES UNION

    Mr. McDonough. Thank you very much, Mr. Chairman. It is an 
honor to be here.
    I would like to submit my statement for the record and save 
you the time not going through it.
    Mr. Mica. Without objection, it will be made part of the 
record.
    Mr. McDonough. I just wanted to say a few things about my 
observations of drug use in the United States and particularly 
in the State of Florida where I now, as you have pointed out, 
have been tasked to coordinate all drug efforts, to bring down 
that abuse rate. Prior to that time I worked here in Washington 
in the National Drug Control Office to see what I could do to 
help the national concerns about drug abuse.
    I will tell you that Florida has a bad problem with drugs. 
It has enough of a problem right now that I feel any 
legalization of drugs would only exacerbate drug abuse further. 
I note that we have by my account some 8 percent of our people 
in Florida currently using drugs. This does not fare well 
compared to the national average, about 6 percent.
    I have looked further. The last existing surveys in Florida 
which date to 1995, show me that we are about 25 percent above 
the national average with our youth use. So we have a problem 
across the board, and we have a particular problem with youths.
    I think one of the reasons why we have such a problem is 
the vast supply of drugs coming through the State. I have taken 
a look at that, over the first 90 days that I have been in 
office down there, by going around the State. What I see, quite 
frankly, is shocking. In this past year, we note that the 
heroin death rate in Florida has gone up 51 percent in only 1 
year. This is just an enormous rise in the statistics in only 1 
year. It makes one shudder as to how it is going to look over 
the long term.
    The cocaine-related deaths in the State are also up a 
horrific extent. We are talking about in the last 6 years, a 65 
percent increase in the cocaine-related death rate. This now 
means that with over 1,100 deaths a year, that statistic 
exceeds the murder rate in Florida.
    Having said that, indications are that a big part of this 
is related to the amount of drugs flowing through the State. I 
have a note that last year, Customs reported that some 60 to 65 
percent of the cocaine it seized in total, nationally, was 
seized in Florida. I am trying to point out that there are 
several factors for the abnormal rate of drug use in the State. 
But one of the factors I am certain is the supply of drugs.
    I might add that I have spent most of my initial time in 
the State going around the various areas meeting with the civic 
leaders, the local leaders, the media, and a significant 
portion of the time getting into the treatment centers to see 
what the people who are addicted to drugs have to say. It is 
remarkably revealing to me, something I also saw when I worked 
at the national level.
    When you go into a treatment center where you are seeing 
people in their 20's, 30's or 40's, by the way some in their 
teens who have really suffered a lot in their lives and brought 
a lot of suffering on other people, who have committed the 
majority of the crimes in the State, there is a couple of 
messages that they give you.
    The first message is, and I don't endorse this message, but 
the first thing they tend to tell you as a group is, ``I'm a 
wreck. I have hurt a lot of people in my life. I'm a failure.''
    The next thing they tell you--they don't really tell you, 
they ask you, they ask you for help. They say, unless you get 
me the treatment, I'm a goner. I don't want to die. Please, 
please, we need help, or I need help.
    When I ask them what got them started on drugs, it 
invariably goes back to their youth. Usually, it is their early 
youth. They tell me, yeah, I smoked; yeah, I drank; marijuana 
was my initial drug. They tell me they started this at 12, 13, 
14.
    When I ask them, well, would it have been any different if 
these drugs were legal, they say, ``Absolutely not. The last 
thing we need is the legalization of marijuana. It is marijuana 
that got me here.'' Probably that phrase is the one I hear most 
often. I will tell you I have yet to hear from any addict 
talking to me saying, you know, if only drugs had been legal, I 
wouldn't be in the shape I am today.
    I might add, on a much more graphic note, when I listen to 
parents, I have no parent of a child that has suffered from the 
abuse of drugs, died from an overdose or caused untold grief on 
the family say, ``if only the drugs had been legal, my child 
would not have been caught up in this.''
    So my observation is, the last thing Florida needs, and I 
would extrapolate that, the last thing the country needs, is 
the legalization of illicit drugs. Thank you.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. McDonough follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.100
    
    [GRAPHIC] [TIFF OMITTED] T3346.101
    
    [GRAPHIC] [TIFF OMITTED] T3346.102
    
    [GRAPHIC] [TIFF OMITTED] T3346.103
    
    [GRAPHIC] [TIFF OMITTED] T3346.104
    
    [GRAPHIC] [TIFF OMITTED] T3346.105
    
    [GRAPHIC] [TIFF OMITTED] T3346.106
    
    [GRAPHIC] [TIFF OMITTED] T3346.107
    
    [GRAPHIC] [TIFF OMITTED] T3346.108
    
    [GRAPHIC] [TIFF OMITTED] T3346.109
    
    [GRAPHIC] [TIFF OMITTED] T3346.110
    
    [GRAPHIC] [TIFF OMITTED] T3346.111
    
    Mr. Mica. We will withhold questions.
    I would like to recognize next Mr. Ira Glasser, the 
executive director of the American Civil Liberties Union.
    You are recognized, sir. Welcome.
    Mr. Glasser. Thank you.
    I ask to have my testimony which I have delivered to the 
committee be submitted for the record, and then I will 
summarize.
    Mr. Mica. Without objection, that entire statement will be 
made a part of the record.
    Mr. Glasser. Thank you.
    Let me speak to the three named topics of this hearing, to 
harm reduction, to criminalization and to legalization. These 
terms are thrown around a lot by a lot of different people. It 
is not always clear what they mean. So I want you to be clear 
what I mean.
    There are two kinds of harms associated with drugs. One set 
is caused by the drugs themselves. That is mostly what we have 
been talking about today. It is important to say, and we have 
not heard much of that today, that those harms vary widely, 
depending on the particular drug, depending on its potency, 
depending on its purity, depending on its dosage, depending on 
the circumstances and the frequency of its use.
    There is no such thing as harms from drugs; there are only 
harms from particular drugs used in particular ways, in 
particular frequencies at particular dosages.
    We have also not heard, but I think it is important when 
you are making policy, distinctions between use and abuse. We 
have heard just now, for example, that no parent would say, 
``If only drugs were legal,'' if they had a child who overdosed 
from drugs. I am the parent of four children who grew up in the 
middle of Manhattan. I agree with that. I would be very 
distraught if one of my kids had died from an overdose of 
drugs.
    But I tell you what I would say as a parent and what I have 
heard many parents say when their kids are not drug abusers but 
maybe smoked a marijuana joint when they were 16 in the same 
way as they may have tried a beer. Both of them are illegal at 
the age of 16. But these kids were under control, they used it 
moderately once in a while, they did well in school, they did 
well in sports, and they grew up to be stable, productive kids. 
Those parents were not real happy about the law.
    When my 15-year-old came to me, 20 years ago now, and said, 
``I'm smoking marijuana, what should I do about it?'' I talked 
to him as I would have if he told me he was drinking beer. And 
then I told him one other thing. I said, you have two 
additional dangers from marijuana that you don't have from 
beer. One of them is you can get arrested for it, and the other 
is you don't know what you're getting on the street because 
it's totally unregulated. And it is only for those two reasons 
and not for any other reasons, not for any pharmacological 
reasons, that I was more concerned about his use of marijuana 
than I was about his use of beer.
    Kids can be destroyed in a lot of ways. Frankly, I don't 
need the government's help in raising my children; and I don't 
want the government's intervention, particularly with the 
police power of the State.
    I had real concerns about my kids drinking too much. But 
that had nothing to do with legality or illegality. It had to 
do with teaching children the responsible use of dangerous 
substances.
    And it is critical when you are making policy to make 
distinctions, I think, between use and abuse. There are 70 
million people, most of them adults, in this country who have 
admitted to using marijuana; and virtually all of them have 
done so while maintaining productive and stable lives. Most of 
them you wouldn't even know they had smoked marijuana.
    It used to be said, 15 years ago, that every family had 
somebody gay in their family, only they didn't know it. That is 
true of marijuana use today. We hear the stories of the abuse, 
but we don't hear the stories of the use, we don't hear the 
stories of controlled use, of moderate use, of long-term use, 
within lives that are otherwise stable and productive.
    One of the questions we have to ask ourselves is, do we 
want to make those people criminals out of the concern for 
people who are abusing drugs? Those are very important 
differences.
    The second kind of harm is the harm associated with the law 
itself. Our laws, which are criminal prohibition laws for the 
most part, create problems, just as they did during alcohol 
prohibition, that the drugs themselves do not cause. Al Capone 
did not shoot people because he was drunk, and most drug 
dealers are not shooting people because they are high. There 
are many studies which show that. It makes sense. Everybody 
knows that Al Capone didn't shoot people because he was drunk. 
He was settling commercial disputes with weapons in the streets 
because that is what prohibition requires you to do because you 
can't settle disputes through the law.
    The random, escalating violence in our streets is not 
caused by the drugs. It is certainly not caused by marijuana, 
which if anything makes people less aggressive. It is caused by 
making commercial transactions which we cannot prevent be 
settled outside the law with violence in a way that endangers 
all sorts of people, including innocent bystanders.
    Now, criminalization and legalization. Criminalization 
means the attempt by society to control the availability of 
drugs in order to deal with drug abuse; to control the 
availability through criminal prohibitions with heavy penalties 
by interdiction and by deterring commercial transactions. That 
is what criminal prohibition is. That is what criminalization 
is.
    We ought to be assessing whether criminal prohibition 
works, not on the basis of moral fervor about drug use and 
certainly not on the basis of a concern about drug abuse which 
criminalizes drug users who have no problem. We ought to be 
assessing whether, in fact, it reduces drug availability, 
whether, in fact, it deters commercial transactions and whether 
perhaps it doesn't create harms that didn't exist there before.
    Legalization refers to an alternative system. I want to say 
this very carefully. Legalization refers to an alternative 
system of controlling the availability and safety of drugs. It 
means that you have regulations of various kinds instead of 
criminal prohibition.
    You cannot regulate what you are trying to prohibit 
because, by definition, when you prohibit, you are putting it 
outside the law. Regulations can range from medical 
prescriptions for things like Prozac and valium, and it can 
range from more restrictive kinds of medical prescriptions like 
the use of morphine over a 2-week period for pain relief in a 
hospital setting; and it can be regulations that are milder 
like those used for alcohol and tobacco.
    We would never say that, because there are 15 million 
alcoholics in this country, we should make criminals out of 
people who drink a bottle of wine at night with dinner or have 
a scotch after work. We would never say that, and this country 
would never accept it. And we would not even say, even to those 
15 million who are alcoholics, that the way to deter you from 
being alcoholics and ruining your lives and the lives of the 
people around you is to put you in jail and arrest you. We 
don't say it with alcohol, we don't say it with tobacco, so why 
do we say it with marijuana, for example? It has to be that 
there is something much worse about marijuana use than there is 
about alcohol use and tobacco use.
    Part of the task, if you are going to really be objective 
and impartial about this, is to find out what exactly that is. 
And the science that we bring to bear on that has to be a 
science that is contested, that is peer reviewed and that is 
not the product of political conclusions drawn first with the 
scientific evidence marshaled to support it.
    There are books you have introduced today. There are other 
books you ought to be introducing. I can tell you what some of 
them are. I have read them all.
    As a nonscientist, I can tell you when you read them all, 
you find that the science is a lot more unsettled than we have 
heard here today and that, in fact, marijuana may be one of the 
mildest drugs and the least dangerous drugs and the least 
capable of abuse of all the drugs we are talking about, 
including those that are legal. So the question about why do 
you want to criminalize even heavy use users and, above all, 
why we want to criminalize productive users who are using it 
the way you use alcohol, is a heavy burden for a free society 
to bear. It is a burden I suggest you ought to take seriously.
    One final point. The enforcement of drug laws in this 
country has become an engine for the restoration of Jim Crow 
justice. We have to talk about race when we are talking about 
the enforcement of drug laws. Maybe this is not inevitable and 
maybe it is not an inevitable consequence of prohibition, but 
the racially disparate sentences between crack cocaine and 
powdered cocaine, the racially disparate arrests for the same 
offense, the racial profiling that goes on in drug interdiction 
on our highways of which we have heard so much of recently, the 
racial profiling in sentencing, the disproportionate number of 
black and Latino people who are in prison for the same offenses 
in the face of everybody telling us that most drug users and 
most drug addicts are white. As long ago as the early 1980's, 
William Bennett, one of General McCaffrey's predecessors, said 
80 percent of the drug addicts and drug users are white males 
in their 20's in the suburbs, but that isn't who we are 
arresting and that isn't who we are sending to jail and that 
isn't who we are pulling over in their cars.
    The racial consequences of this experiment in criminal 
prohibition are stunning in this country and have also led to 
the disenfranchisement, the post-felony disenfranchisement of 
14 percent of African American men. One in three men between 20 
and 29, African American men, are now under the jurisdiction of 
the criminal justice system, most of them for nonviolent 
arrests, most of them for possession.
    Thirteen percent of all monthly drug users are African 
American, according to Federal Government statistics--but 34 
percent of those arrested are African-American, 55 percent of 
those convicted are African-American, 74 percent of those 
imprisoned are African-American. That is a scandal that has to 
be part of the burden you bear when you look at the 
consequences of criminalization.
    Thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Glasser follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.112
    
    [GRAPHIC] [TIFF OMITTED] T3346.113
    
    [GRAPHIC] [TIFF OMITTED] T3346.114
    
    [GRAPHIC] [TIFF OMITTED] T3346.115
    
    [GRAPHIC] [TIFF OMITTED] T3346.116
    
    [GRAPHIC] [TIFF OMITTED] T3346.117
    
    [GRAPHIC] [TIFF OMITTED] T3346.118
    
    [GRAPHIC] [TIFF OMITTED] T3346.119
    
    Mr. Mica. I would like to recognize next Mr. Scott Ehlers, 
senior policy analyst with the Drug Policy Foundation.
    Mr. Ehlers. Thank you. I have a full statement that I would 
like to introduce into the record.
    Mr. Mica. Without objection, that will be made part of the 
record. Thank you.
    Mr. Ehlers. Thank you.
    Chairman Mica, Representative Mink and other distinguished 
members of the subcommittee, once again my name is Scott 
Ehlers, senior policy analyst for the Drug Policy Foundation.
    Thank you for inviting me to testify about our Nation's 
drug policies. I am proud to say that the Drug Policy 
Foundation has been on the forefront of reform since 1986.
    I am sorry to say that over the last two decades, the drug 
war's strain on the justice system has gone up significantly. 
Drug arrests are up from 580,000 in 1980 to nearly 1.6 million 
in 1997. The number of drug offenders in prison is 22 times 
larger today than in 1980. We are creating, in the words of 
General Barry McCaffrey, a ``drug gulag.''
    One of those prisoners is Dorothy Gaines, a mother of three 
from Mobile, AL. Dorothy calls me every week to tell me how she 
misses her children and how she would be willing to wear an 
ankle bracelet for the rest of her life if she could just go 
home. Dorothy is serving 19 years in Federal prison on a crack 
cocaine conspiracy charge. No evidence of drugs were ever found 
in her home. She has no previous arrests. She is an upstanding, 
church-going citizen. There is so little evidence that the 
State court threw the case out. But the Federal prosecutor took 
it anyway.
    She was convicted merely on the testimony of drug dealers 
who lied so they could get a reduced sentence. The kingpin is 
going to get out of prison 8 years before Dorothy because she 
didn't know anyone to snitch on.
    But it is not only Dorothy serving time. So is her son 
Phillip who wrote the trial judge to strike a deal: ``Dear 
Judge, would you help my mom? I don't have anyone to take care 
of me and my sisters. My birthday is coming up in October, and 
I need my mom to be here. I will cut your grass, I will wash 
your car every day. Just don't send my mom off. Please, please, 
don't send her off.''
    Other families are being torn apart just like Dorothy's, 
many of whom are in this book, ``Shattered Lives,'' which I am 
sending to each of you. And if there have been other books 
entered into the record, I am wondering if this is a 
possibility as well.
    Mr. Mica. Without objection, it will be noted and made part 
of the record.
    Mr. Ehlers. Thank you.
    [Note.--The information referred to may be found in 
subcommittee files.]
    Mr. Ehlers. Have the mass incarcerations made drugs less 
available? Cocaine is half as expensive today as in 1981, and 
heroin is five times as pure. In 1975, 87 percent of high 
school seniors said it was easy to get marijuana. Today, that 
figure is 90.4 percent. Clearly, our Nation's current drug 
strategy is not achieving its intended goals.
    We think there is a better way, based on the following 
principles and reforms.
    No. 1, drug use and addiction should be treated as public 
health issues, not criminal justice problems. With the threat 
of criminal sanctions gone, many more people with substance 
abuse problems would seek medical assistance rather than hiding 
out of fear of arrest.
    No. 2, prevention should address the root causes of drug 
use and abuse. Community development, job training programs, 
and afterschool programs should receive more support.
    No. 3, drug policy should be based on science and research, 
not ideology. Research shows that treatment is more cost 
effective than prison. Marijuana is an effective medicine, and 
syringe exchange reduces the spread of HIV.
    No. 4, drug policy should be based on a respect for the 
Constitution, civil liberties and property rights. 
Unfortunately, Representatives Barr and Cummings aren't here. I 
was going to thank them for cosponsoring the Civil Asset 
Forfeiture Reform Act, which we are supporting, that would 
protect property owners.
    No. 5, Federal drug policy should respect democracy and 
States' rights. The Federal Government should respect State 
initiatives that have supported drug policy reforms.
    No. 6, mandatory minimums should be repealed, drug 
sentences reduced and alternatives to incarceration 
implemented. Congress should support Representative Waters in 
passing her H.R. 1681 which would repeal mandatory minimums for 
drug offenses. We also support General McCaffrey's call to 
reduce drug prisoners by 250,000.
    No. 7, the regulation and control of currently illicit 
drugs must be included as one of the drug policy options that 
is discussed. What would these regulations look like? Would the 
government, doctors, or special drugstores dispense the drugs? 
Would all currently illicit drugs be sold in the regulated 
market or are some unacceptably dangerous? Would drugs be 
regulated over 1 year or 20 years? All of these questions have 
to be answered by the American public.
    Why must regulation be considered? Because prohibition and 
the resulting black market enrich criminals and terrorists 
around the world, encourages the recruitment of youth to sell 
drugs, provides youth with easier access to drugs, corrupts 
government officials, and undermines the rule of law.
    We must also acknowledge the potential benefits of 
regulating the drug market, including taking the profit out of 
the hands of criminals and putting it into government coffers 
for expanding prevention and treatment efforts.
    In conclusion, there are a wide variety of drug policy 
innovations that would save tax dollars, protect children and 
improve public health, but we must first realize that police 
and prisons are not the solution to our social problems. As a 
free society, we should seriously consider all the options to 
determine the best drug policy for our country.
    Thank you again for giving me this opportunity.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.120
    
    [GRAPHIC] [TIFF OMITTED] T3346.121
    
    [GRAPHIC] [TIFF OMITTED] T3346.122
    
    [GRAPHIC] [TIFF OMITTED] T3346.123
    
    [GRAPHIC] [TIFF OMITTED] T3346.124
    
    [GRAPHIC] [TIFF OMITTED] T3346.125
    
    [GRAPHIC] [TIFF OMITTED] T3346.126
    
    [GRAPHIC] [TIFF OMITTED] T3346.127
    
    [GRAPHIC] [TIFF OMITTED] T3346.128
    
    [GRAPHIC] [TIFF OMITTED] T3346.129
    
    [GRAPHIC] [TIFF OMITTED] T3346.130
    
    [GRAPHIC] [TIFF OMITTED] T3346.131
    
    [GRAPHIC] [TIFF OMITTED] T3346.132
    
    [GRAPHIC] [TIFF OMITTED] T3346.133
    
    [GRAPHIC] [TIFF OMITTED] T3346.134
    
    [GRAPHIC] [TIFF OMITTED] T3346.135
    
    [GRAPHIC] [TIFF OMITTED] T3346.136
    
    [GRAPHIC] [TIFF OMITTED] T3346.137
    
    [GRAPHIC] [TIFF OMITTED] T3346.138
    
    [GRAPHIC] [TIFF OMITTED] T3346.139
    
    [GRAPHIC] [TIFF OMITTED] T3346.140
    
    Mr. Mica. I would like to recognize Mr. Robert Maginnis, 
senior director of the Family Research Council.
    You are recognized. Welcome, sir.
    Mr. Maginnis. Thank you, Mr. Chairman, members of the 
committee.
    Sir, I would ask to have my testimony submitted for the 
record. I also have five exhibits, actually No.'s 1 through 5 
and No. 7, that I would like to show as I go through my 
testimony, if I may.
    Mr. Mica. Thank you. Without objection, we will make that 
part of the record, and we would be glad to show your displays 
here.
    Mr. Maginnis. Legalizers will promote myths, and we will 
probably hear some today. The truth is that drug legalization, 
as the DEA indicated, will lead to more crime and violence, 
significantly higher social costs and ruin millions of lives 
from addiction and use. These tragic results promise severe 
consequences for the nonusing public as well.
    I also want to dismiss the spin given to the so-called 
quasi-legalization, ``successes'' like those in the Netherlands 
and Switzerland.
    There are five slides here I would like to show to indicate 
I visited these countries numerous times and have seen their 
drug problems. I have discussed their bankrupt policies with 
government officials, drug treatment specialists, addicts and 
their families.
    Now, they took these, the first five, if you can just run 
through those, please, they took a very public embarrassment to 
Switzerland, and these are only in Switzerland and not the 
Netherlands today, and they put this underground, basically. 
They hid it in shooting galleries, they hid it in heroin 
giveaway clinics, they hid it across the country. It still 
exists. It is just that it is not in a big forum right in the 
middle of Platzpitz Park in downtown Zurich or in Bern or some 
other countries, but they continue to have a real problem.
    I think it is interesting and worthwhile, noting that slide 
No. 7, if she would show that. You can't quite read this, but, 
basically, it is an advertisement, a giant billboard in one of 
the Swiss cities that says, Bill Clinton smoked pot, and he 
didn't become a junkie. The message is clear. They are taking 
our cultural, our political icons in this country and using it 
to promote their liberal drug policy. Very disturbing.
    Unfortunately, I have seen much the same in my two visits 
here recently in the Netherlands.
    I will continue with my statement, sir.
    Unfortunately, in this country, I see a growing tolerance 
for liberal drug policies such as medical use of marijuana and 
free needles for junkies. These radical ideas are seldom about 
compassion but mostly part of the legalization slippery slope. 
The recent Institute of Medicine report makes mincemeat of 
smoked pot as medicine, and recent peer reviewed medical 
journal studies show the hollow ground under needle pushers.
    Two ideas are key. First, drug intolerance does work; and, 
second, Americans and especially those harmed by drug use 
understand that legalization is a deadly path.
    Our military's experience shows that drug intolerance does 
work. In 1980, 37 percent of our service members reported using 
drugs. Some units were nearly incapable of doing their mission 
because of drug and alcohol abuse. Today, illegal use in the 
military stands at 2.7 percent. That is a victory for our 
country.
    Now, the armed forces won the drug use war by enforcing 
tough rules. Drug use came to mean either immediate discharge 
or a single chance at treatment. Frequent and random drug 
testing radically cut casual use as well.
    I was an Army company commander in Europe during the early 
1980's when the military cracked down on drug use. As a 
commander, I supervised testing, ordered soldiers to treatment 
and disciplined or discharged others. We cleaned the ranks. 
Today's military remains just as tough on drugs and is much 
better as a result.
    The military's tough antidrug program offers valuable 
lessons for American society. First, aggressive use of testing 
ought to be employed where legal. Second, promotion of 
intolerance with stiff sanctions must become the rule. Third, 
treatment with the threat of sanctions like today's drug courts 
works. And, most importantly, parents, friends and local 
leaders must stay involved.
    Americans approve of tough drug laws and oppose 
legalization.
    I would point out our survey that we do every year. We 
found that when told about the high potency of modern 
marijuana, 7 of 10 voters oppose legalization. Nearly two-
thirds of voters believe that legalizing cocaine and heroin 
would increase violent crime.
    Legalization would radically increase use, which would 
impact the innocent as well. Users are known to terrorize their 
families and neighbors with violent acts or to steal from them. 
Too often, where children are involved with a drug-using adult, 
abuse and neglect are common. Welfare recipients on drugs stay 
on the public dole much longer. In some cities like Baltimore, 
most felony suspects test positive for illicit drugs.
    The bankrupt notion that this country would legalize drugs 
is especially disconcerting to the average citizen who doesn't 
want to make drugs easier for kids to get. This strongly held 
view is supported by a May 1999 Gallup public opinion survey 
that found that 9 of every 10 Americans believe increased 
violence is linked with drug and alcohol use by school age 
children.
    In conclusion, I urge you to reject the mythology of 
legalizers. The use of drugs like marijuana, cocaine, 
methamphetamine and heroin cause widespread damage and death. 
Making these substances legal would pave this country's path to 
social catastrophe. Thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Maginnis follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.141
    
    [GRAPHIC] [TIFF OMITTED] T3346.142
    
    [GRAPHIC] [TIFF OMITTED] T3346.143
    
    [GRAPHIC] [TIFF OMITTED] T3346.144
    
    [GRAPHIC] [TIFF OMITTED] T3346.145
    
    [GRAPHIC] [TIFF OMITTED] T3346.146
    
    [GRAPHIC] [TIFF OMITTED] T3346.147
    
    [GRAPHIC] [TIFF OMITTED] T3346.148
    
    [GRAPHIC] [TIFF OMITTED] T3346.149
    
    [GRAPHIC] [TIFF OMITTED] T3346.150
    
    [GRAPHIC] [TIFF OMITTED] T3346.151
    
    [GRAPHIC] [TIFF OMITTED] T3346.152
    
    [GRAPHIC] [TIFF OMITTED] T3346.153
    
    [GRAPHIC] [TIFF OMITTED] T3346.154
    
    [GRAPHIC] [TIFF OMITTED] T3346.155
    
    [GRAPHIC] [TIFF OMITTED] T3346.156
    
    [GRAPHIC] [TIFF OMITTED] T3346.157
    
    [GRAPHIC] [TIFF OMITTED] T3346.158
    
    [GRAPHIC] [TIFF OMITTED] T3346.159
    
    [GRAPHIC] [TIFF OMITTED] T3346.160
    
    Mr. Mica. Now very patiently waiting is Mr. David Boaz, 
executive vice president of Cato.
    Thank you for being our last panelist. You are recognized, 
sir.
    Mr. Boaz. Mr. Chairman, distinguished members of the 
subcommittee, thank you for inviting me to testify before you 
today on the successes and failures of our current policy and 
possible alternatives.
    I, too, have a complete statement that I would like to 
submit for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Boaz. Ours is a Federal republic. The Federal 
Government has only the powers granted to it by the 
Constitution. The United States has a tradition of individual 
liberty, vigorous civil society and limited government. Just 
because a problem is identified does not mean that the 
government ought to undertake to solve it, and just because a 
problem is found in more than one State does not mean that it 
is a proper subject for Federal policy.
    Perhaps no area more clearly demonstrates the bad 
consequences of not following such a policy than our experience 
with drug prohibition. The long Federal experiment with 
prohibition of marijuana, cocaine, heroin and other drugs has 
given us unprecedented crime, corruption and incarceration, 
combined with a manifest failure to stop the use of drugs or to 
reduce their availability to children.
    In the 1920's, Congress experimented with the prohibition 
of alcohol. In 1933, Congress recognized that prohibition had 
failed to stop drinking and had increased prison populations 
and violent crime. By the end of 1933, national prohibition was 
history, although in accordance with our Federal system, many 
States continued to outlaw or severely restrict the sale of 
liquor.
    Today, Congress must confront a similarly failed 
prohibition policy. Futile attempts to enforce prohibition have 
been pursued even more vigorously in the 1980's and the 1990's 
than they were in the 1920's. The Federal Government spent $16 
billion on drug control in 1998 and has approved a budget of 
$17.9 billion for 1999. State and local governments spend 
another $15 billion or more every year.
    These mind-boggling amounts have had some effect, as you 
have heard earlier today. Total drug arrests are now more than 
1.5 million a year. Over 80 percent of the increase in the 
Federal prison population has been due to drug convictions. 
Drug offenders now constitute 60 percent of all Federal 
prisoners.
    Yet, as was the case during prohibition, all the arrests 
and incarcerations have not stopped the use and abuse of drugs, 
or the drug trade, or the crime associated with black market 
transactions. Cocaine and heroin supplies are up. The more our 
Customs agents interdict, the more smugglers import. And, of 
course, while crime rates have fallen in the past few years, 
today's crime rates look good only by the standards of the 
recent past. They remain much higher than the levels of the 
1950's.
    As for discouraging young people from using drugs, a theme 
that has come up many times today, the massive Federal effort 
has been largely a dud. Despite these soaring expenditures, 
about half the students in the United States in 1995 tried an 
illegal drug before they graduated from high school. Every year 
for the past 20 years, at least 82 percent of high school 
seniors have said they found marijuana fairly easy or very easy 
to obtain. During that same period, according to Federal 
statistics of dubious reliability, teenage marijuana use fell 
dramatically and then rose significantly, suggesting that 
cultural factors have more effect than the legal war on drugs.
    I would remind you that all of the terrible and heart-
rending stories that we have heard today in this room have 
happened under a policy of prohibition, under a policy of 1.5 
million arrests a year. I would suggest that is not a sign of 
success.
    The manifest failure of drug prohibition explains why more 
and more people--from Baltimore mayor Kurt Schmoke to William 
F. Buckley, Jr., to former Secretary of State George Shultz--
have argued that drug prohibition actually causes more crime 
and other harms than it prevents.
    We care a lot about family values these days. We have heard 
a lot about families today. But the drug laws often break up 
families. Too many parents have been separated from their 
children because they were convicted of marijuana possession or 
some other nonviolent offense.
    Will Foster used marijuana to control the pain and swelling 
associated with his crippling rheumatoid arthritis. He was 
arrested, convicted of marijuana cultivation and sentenced to 
93 years in prison, later generously reduced to 20 years in 
prison. Are his three children better off with a father who 
uses marijuana medicinally or a father in jail for 20 years?
    And going to jail for drug offenses isn't just for men 
anymore. More than two-thirds of the 150,000 women behind bars 
have children.
    One of them is Brenda Pearson, a heroin addict who managed 
to maintain a job at a securities firm in New York. She 
supplied heroin to another addict, and a Michigan prosecutor 
had her extradited, prosecuted and sentenced to 50 to 200 
years. We can only hope that her elderly children will remember 
her when she gets out.
    Drug prohibition leads to civil liberties abuses. People 
who compare the success of the military to the success we might 
have in a free society suggest that a military model is 
appropriate for a free society. In trying to win this 
unwinnable war, we have already suffered under wiretapping, 
entrapment, property seizures and other abuses of Americans' 
traditional liberties. As we deliberate the costs and benefits 
of drug policy, we should keep those problems in mind.
    Students of American history will someday ponder the 
question of how today's elected officials could readily admit 
to the mistaken policy of alcohol prohibition in the 1920's but 
continue the policy of prohibition of other drugs.
    Intellectual history teaches us that people have a strong 
incentive to maintain their faith in old paradigms even as the 
facts become increasingly difficult to explain within that 
paradigm. But when a paradigm has manifestly failed, we need to 
think creatively and develop a new paradigm.
    The paradigm of prohibition has failed. I urge Members of 
Congress and all Americans to have the courage to let go of the 
old paradigm, to think outside the box, and to develop a new 
model for dealing with the very real risks of drug and alcohol 
abuse. I believe that if this committee and the 106th Congress 
will subject the Federal drug laws to that kind of new 
thinking, it will recognize that the drug war is not the answer 
to the very real problems associated with drug use.
    Thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Boaz follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.161
    
    [GRAPHIC] [TIFF OMITTED] T3346.162
    
    [GRAPHIC] [TIFF OMITTED] T3346.163
    
    [GRAPHIC] [TIFF OMITTED] T3346.164
    
    [GRAPHIC] [TIFF OMITTED] T3346.165
    
    [GRAPHIC] [TIFF OMITTED] T3346.166
    
    [GRAPHIC] [TIFF OMITTED] T3346.167
    
    [GRAPHIC] [TIFF OMITTED] T3346.168
    
    [GRAPHIC] [TIFF OMITTED] T3346.169
    
    [GRAPHIC] [TIFF OMITTED] T3346.170
    
    [GRAPHIC] [TIFF OMITTED] T3346.171
    
    [GRAPHIC] [TIFF OMITTED] T3346.172
    
    [GRAPHIC] [TIFF OMITTED] T3346.173
    
    [GRAPHIC] [TIFF OMITTED] T3346.174
    
    [GRAPHIC] [TIFF OMITTED] T3346.175
    
    Mr. Mica. I would like to recognize first for the purpose 
of questions Mr. Barr, the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Glasser, I just have a couple of quick questions for 
you.
    I would like to say that I really appreciate the work of 
the ACLU in a lot of different areas--privacy rights, asset 
forfeiture--and I know, Mr. Ehlers, you mentioned that earlier. 
I appreciate your reference to that. It isn't that we disagree 
on every issue. There are a lot of issues that we do agree on 
and that we work for, and I appreciate very much the work that 
the ACLU does in those and many other areas as well.
    We do have, I think, a fundamental policy difference on 
drugs. There were a couple of terms that you used--I note you 
were very careful about defining certain terms, but a couple of 
terms you used, Mr. Glasser, I wanted to ask your definition 
of. What is drug abuse as opposed to drug use?
    Mr. Glasser. Think of the difference between an alcoholic 
who is always in a stupor and gets up in the morning and drinks 
a quart of vodka every day and those of us who go home at night 
and share a bottle of wine at dinner or have a scotch or two, 
even if we do it every night, and go in to work and lead 
productive and stable lives. That is the difference between use 
and abuse.
    Mr. Barr. So it would be the difference between----
    Mr. Glasser. Compulsive dysfunctional use, a heavy use of a 
substance as opposed to occasional, moderate, responsible use.
    Mr. Barr. In terms of alcohol usage, we draw such a 
distinction, for example, in not making it necessarily illegal 
in every instance to convict somebody for driving after they 
have had a drink of alcohol. However, we try, and I think we 
have succeeded in large part over the years, in developing a 
somewhat sound scientific basis for measuring whether or not 
somebody's faculties and facilities to react and act to stimuli 
around them, for example, in driving a car, where to react 
improperly poses a danger to them and more importantly to other 
people, and we draw a distinction. We say it is not illegal 
unless it can be shown reasonably. We do draw some lines.
    Mr. Glasser. And it is not illegal if they are not in a 
car. It is not illegal if they are home.
    Mr. Barr. I am just using the example of driving a car, 
where you inherently would pose a danger to other people.
    Is it your view, then, that mind-altering drugs can be used 
in certain amounts without significantly impairing a person's 
ability to act and react to the world around them in a safe 
manner?
    Mr. Glasser. First of all, I would apply exactly the same 
standard to marijuana or any other drug that we apply to 
alcohol in terms of driving a car. If you are impaired for any 
reason while you are driving a car, you should not be driving a 
car and you should be subject to sanctions for doing it.
    But that is a different question than whether or not you 
are impaired at home with two friends while you are sitting 
around and having a little party on a Saturday night. There you 
can get drunk, can't you? And as long as you don't go out and 
drive a car and put someone else in danger, the government has 
no authority to intervene in your life with its police power 
and put you in jail.
    That is the same standard that I am talking about. When we 
come across the person who cannot control the use of alcohol 
and whose life is in a shambles, we still do not consider it a 
criminal problem. We don't exactly always know how to solve it, 
and the tale of Darryl Strawberry and millions of other people 
whose names are not as well known teaches us that this is not 
an easy problem to solve, but we know that, with respect to 
alcohol, we don't do it with prison, and we don't do it with 
cops. That is what I am saying.
    Mr. Barr. Thank you.
    One other term that you used was a productive user. I am 
not quite sure what you mean.
    Mr. Glasser. I mean a person who is productive. I mean 
that----
    Mr. Barr. Who is productive yet also uses drugs? Not that 
using drugs makes you productive.
    Mr. Glasser. I mean the CEO of a major company who is on 
the cover of Fortune magazine and the only reason he may not be 
admitting that he smokes marijuana the way you and I drink red 
wine is because it is stupid to admit to a crime.
    Mr. Barr. You are not outing somebody, are you? You are not 
outing a CEO?
    Mr. Glasser. That is why I haven't used any names.
    But that is what I mean by productive. I mean, when you 
have 70 million people who have admitted to using marijuana, 
you almost can conclude inevitably that most of those people 
are people you would like your kids to grow up to be like and 
that they are using marijuana in no way different than you use 
wine.
    Mr. Barr. We probably disagree on that as well.
    Mr. Glasser. But then we have to find out why we disagree.
    Mr. Barr. But you are, I am sure, being a very learned and 
very, very well read gentleman, you are aware of the studies 
that have been done over the years, not just recently but going 
back many years, about the cost to the productivity of 
individuals, corporations and companies, large and small, with 
regard to drug usage?
    Mr. Glasser. Actually, Mr. Barr, I think those studies are 
less conclusive with respect to the conclusion you draw than 
you think. The ACLU is about to put out a study on the utility 
of urine testing in employment settings and the relationship of 
drug use off the job to productivity, to absences. You would be 
surprised.
    Mr. Barr. I will agree with you to the extent that some of 
the figures that I see from some of these studies, they are 
sort of like this Y2K issue, we had some witnesses come in on 
that and they said it would cost a trillion dollars.
    To some extent, I don't want to argue over the exact 
magnitude of it, but in talking even anecdotally with employers 
of small businesses, for example, they are very forthcoming in 
indicating the dropoff in productivity, the danger posed to 
other people when people try and use machinery and so forth. So 
there are costs.
    Mr. Glasser. How do they know this?
    Mr. Barr. I suspect that any good employer can tell if an 
employee is dozing off on the job because of drug usage. 
Sometimes you can smell it. Sometimes it is because of drug 
tests.
    Mr. Glasser. What about if they use marijuana on a Saturday 
night and then it was Wednesday? What then?
    Mr. Barr. I suppose if one could establish that you can 
absolutely discretely say, OK, drug usage on day 1 will have no 
effect whatsoever on day 2, 3, 4, 50, 100 or 125, your position 
might have some merit.
    Mr. Glasser. And so isn't that worth finding out?
    Mr. Barr. I think to a large extent we probably have found 
out an awful lot. Maybe not so conclusively that every 
scientist and every doctor is willing to say with 
definitiveness, yes, this is exactly how it is. We have some 
studies up here that some scientists and doctors agree on. 
Others say there is certainly room for more study.
    But, from a practical standpoint, I think a lot of 
employers would take exception to saying that people that use 
marijuana and then come into the job are productive 
individuals. There are some costs.
    Mr. McDonough, with regard to the comparison as many draw, 
or the distinction, as many draw between alcohol usage up to 
the point where it does not demonstrably, measurably, 
significantly interfere with a person's ability to react and 
act to stimuli around them, do you think that alcohol usage is 
the same as the usage of mind-altering drugs? In other words, 
those on the Federal Schedule of Controlled Substances?
    Mr. McDonough. Well, I think not. I would like to just take 
a few minutes to say why I think that.
    I have heard some figures bandied about rather freely. I 
would like to just recap them. The fact that 70 some million 
people in America used to use drugs is true. I think it is good 
that drugs are illegal because over 60 million of them have 
stopped using drugs, which I think is a very good outcome. The 
casual use of drugs as a benign event, nonthreatening, I will 
tell you, sir, with 120,000 dead in the decade of the 1990's 
alone, I don't think so. I actually do think there is a 
debilitation with a significant portion of drug users that 
leads, in fact, to death and a lot of room before death, not 
just to the people that suffer from it but their families as 
well, as well as our neighborhoods.
    In this regard, of the casual, do it in your home, it is 
not a problem, I would ask that we take a look at the children 
who end up in foster homes. The statistics that I have reviewed 
several times show me that some 60 to 70 percent of the 
children in the United States in foster homes are there because 
within the nuclear family you had the instance of substance 
abuse. So the idea that it is a harmless, benign pastime, I 
just can't agree with.
    That gets us into the analogy of Prohibition, which has 
been mentioned at this table three times. I have heard it 
often. It would have you think that Al Capone was the product 
of Prohibition. With that came Tommy guns and with that came 
murder rates.
    I will tell you that in the United States I have looked at 
the statistics and would like to submit them for the record. 
Between 1900 and 1915 the murder rate in the United States per 
100,000 went up 800 percent. It is true that during the period 
of Prohibition, there was a marginal increase in the murder 
rate, another 12 percent above that 800 percent. But I would 
tell you today that the murder rate is below what it was both 
before Prohibition and after Prohibition. So to draw the 
analogy that Prohibition causes Tommy guns and Al Capone and 
murder and we see that repeated with drugs just doesn't seem to 
wash.
    In regard to prisons, I would just like to make this 
statement. I do believe we can do an awful lot in this country 
with drug courts and coerced abstinence, meaning treatment for 
those in the criminal justice system, but I have to say it is 
an absolute myth that we have filled our prisons with the 
casual smoker of a harmless bong. I did take a look at 
Florida's prison statistics before I came here. I would like to 
submit that for the record. I would tell you of the 65,000 plus 
in prison in late 1997, there were 14 people there, that is 14, 
not 1,400, there for the primary offense of the possession of 
marijuana. In every one of those cases, it was at a degree, at 
a level that made you believe that they, in fact, were 
trafficking in marijuana.
    So I will tell you that without any hesitation, 
statistically I can report that there is no one in the Florida 
prison with only one conviction of a marijuana possession 
offense. Of the 14, all of them had prior records; and some had 
other serious crimes along with that.
    So when Mr. Maginnis talks about this series of myths, I 
think he is exactly right. Not that we can't do better with our 
laws in getting treatment, prevention and cutting supply, I 
think we should do that, but to surrender, that it is hopeless, 
that it is an abomination to abuse the rights of the individual 
to continue as we are, I think is a far overblown case. Drugs 
are serious, drugs do alter the mind. Dr. Leshner demonstrated 
that.
    Mr. Barr. Is that why they call them mind-altering drugs?
    Mr. McDonough. That is why they call it that. It is a mess. 
I think making them legal actually makes the mess worse.
    One final thing, I listened to the story about talking to 
children about the use of drugs. When I was at the national 
level, we would survey again and again the 80 percent of our 
children that don't use drugs.
    By the way, that dispels a myth right there. Eighty percent 
of our children between the ages of 12 and 17 don't use drugs. 
At the worst of it, a senior in high school, about 25 percent 
are current drug users. But to come to the point when you ask 
the 80 percent why don't you use drugs, the overwhelming answer 
is, ``My mother and my father told me not to.'' It is as simple 
as that.
    Mr. Barr. Do you find a corresponding statistic on the 
other side that there is a disturbing correlation between 
brothers, sisters, parents that use drugs and that is given as 
a reason those teenagers in the 20 percent give for their use 
of drugs?
    Mr. McDonough. That is exactly right. I have done that as 
well. I have gone to them and that 20 percent. I put it this 
way: ``Have your parents ever talked to you about using 
drugs?'' The overwhelming answer is no. The other thing I ask, 
which is a very touchy one, ``is there drug use in your 
family?'' A significant portion say yes. What they see is what 
they do.
    Mr. Barr. That comports with my experience as a U.S. 
Attorney in dealing with this issue and communities in the 
northern district of Georgia.
    Mr. Ehlers, I would like to discuss very briefly the 
concept of harm reduction which seems sort of a domestic 
version I suppose of our Kosovo policy to some extent. Because 
if you say that, well, we are going to let people use drugs so 
that we reduce the harm, there is--and I know that no matter 
how strong and how well-researched a medical study or a 
scientific study there is, some people just won't believe it, 
but there are, in fact, very, very sound scientific studies, 
some of which we have already introduced into the record today, 
that indicate that just marijuana, to say nothing of the other 
much more serious drugs, marijuana usage does have direct, 
serious negative effects on the human immune system, the 
autoimmune system. It can hasten the onset of AIDS in HIV 
patients.
    We also know from studies that marijuana severely damages 
various human organs over time. We have seen with regard to 
some substances the effect on the brain. Another study was 
referred to earlier with regard to the detrimental effect of 
prolonged marijuana usage on the human reproductive system, 
particularly in males. We know certainly about the effects, 
well-documented, on the heart and the lungs of marijuana usage.
    Dozens of studies show also that there is a psychiatric 
component to both drug usage as well as withdrawal from drug 
usage. Withdrawal from marijuana, for example, can create--does 
create a propensity toward violent or aggressive behavior.
    If, in fact, one says that, well, we look at drugs as harm 
reduction; we let people use drugs because to not do drugs 
would somehow create more harm; in light of these studies, 
particularly those that show that marijuana does damage to the 
immune systems of HIV and AIDS patients at a rate at least 
twice as fast as those who do not use marijuana, how can you 
really advocate the use of marijuana for HIV and AIDS patients 
and say that this is harm reduction if in fact it demonstrably 
and by scientific evidence hastens the onset of AIDS and 
hastens death in these patients?
    Mr. Ehlers. I haven't seen that research that you are 
talking about. All I do know is I have met HIV and AIDS 
patients who get relief from using medical marijuana. They are 
all over the place, whether it be in California or here in DC. 
The HIV/AIDS community has been some of the biggest advocates 
on behalf of medical marijuana. It helps their wasting 
syndrome.
    If you are taking lots of pills in order to try to combat 
your illness, then you need something to help keep those pills 
down. You need something to help you eat. And so time and 
again, we have seen AIDS patients who have used medical 
marijuana to stimulate appetite and to end their nausea and 
that helps them live.
    Mr. Barr. But if you, in fact, read these studies and were, 
in fact, convinced that there is some merit to it that shows 
that, aside from those other results of marijuana usage, we 
will leave that aside for the moment, if it could be shown, as 
I believe it has been, that the use of marijuana does have very 
serious detrimental, long-term--insofar as you can speak of 
long term in somebody with terminal AIDS--results, would you 
still maintain that it is a benefit to give them marijuana even 
though it may hasten the onset of their death?
    Mr. Ehlers. You would have to weigh the evidence against 
using marijuana as a means to increase weight, to end nausea. 
You would have to weigh that evidence against any potential 
increase in the spread of the HIV virus.
    Like I said, I haven't seen that evidence. The HIV patients 
who use medical marijuana right now say it really benefits 
them, so I have to take their word for it.
    Mr. Barr. With regard to the increased propensity for 
violence by marijuana users and other drug users, both during 
the use of the drugs and, as has been shown in studies, in 
withdrawal, would this also be something that, if you saw these 
studies and they seemed to be scientifically based, would cause 
you to rethink in any way your advocacy of marijuana in terms 
of so-called harm reduction?
    Mr. Ehlers. If I saw that evidence. But I noted when you 
said that, I have some quotes from the Institute of Medicine 
report. What they have to say is, ``a distinctive marijuana THC 
withdrawal syndrome has been identified, but it is mild and 
subtle compared to the profound physical syndrome of alcohol or 
heroin withdrawal. Compared to most other drugs, dependence 
among marijuana users is relatively rare.''
    So the Institute of Medicine didn't find it. I don't know 
where that evidence would come from.
    Mr. Barr. In that case, drawing the analogy, should 
alcoholics be given free alcohol? Would that be considered harm 
reduction?
    Mr. Ehlers. No. Because alcoholics, they can't function 
properly on the use of alcohol.
    Mr. Barr. Heavy marijuana users can?
    Mr. Ehlers. That is not what I am advocating.
    Mr. Barr. So you are not advocating marijuana usage?
    Mr. Ehlers. No.
    Mr. Barr. Are you opposed to marijuana usage?
    Mr. Ehlers. No.
    Mr. Barr. Is there some middle ground there that I am 
missing?
    Mr. Ehlers. Yes, there is. I don't think marijuana smokers 
should be imprisoned. That is what it comes down to. I don't 
think they should use, but I don't think they should be 
imprisoned, either.
    Mr. Barr. So your basis is really not so much a harm 
reduction or medical but more, as Mr. Glasser's is, more of a 
legal--or Mr. Boaz's is basically a legal one. These are not 
the sort of things the government should be regulating?
    Mr. Ehlers. Ultimately, I don't think the government should 
be involved in arresting nonviolent marijuana users if they are 
adults.
    Mr. Barr. With regard to, I noticed in your testimony on 
page 3----
    Mr. Ehlers. The full testimony?
    Mr. Barr. Yes, your paper here. On page 3, you say, other 
maintenance therapies should be explored, including the use 
of--I can't pronounce that, but it does go on, I can pronounce 
heroin maintenance--based on the successful programs in England 
and Switzerland.
    How do you define successful programs in England and 
Switzerland? How do you gauge? How do you determine their 
success?
    Because, like Dr. Maginnis, I have been over there. 
Granted, my perspective in going over there was probably 
different from yours, but I have seen, at least to some extent, 
the methadone clinics over there. I have gone to the shooting 
galleries they have in Switzerland. I have seen mothers go into 
these, leave their babies out on the streets for hours on end, 
with nobody watching them because it is more important for them 
to go in and shoot up at a shooting gallery at government 
expense than it is to pay attention to what is happening with 
their children.
    I don't measure that--I don't say, hey, that's a successful 
program. We ought to emulate it. How do you measure the success 
of the programs in England and Switzerland on heroin 
maintenance?
    Mr. Ehlers. I measure success by the reduction of crime in 
Switzerland. They found a 60 percent reduction in crime among 
people who were in the program.
    There is also an increase----
    Mr. Barr. Heroin use would be a form of crime prevention?
    Mr. Ehlers. It wasn't about crime as far as the crime of 
possessing heroin. It was the crime of going out to steal in 
order to support a habit. So, yes, it is used as a crime 
prevention program, as is methadone maintenance in a way. It 
also increased employment, decreased homelessness, stabilized 
people's lives, brought people into treatment. A lot of people 
weren't interested in heroin maintenance after they tried it. 
They wanted to go into treatment.
    Mr. Barr. That is not my experience when I was over there 
just a couple of years ago talking with some of the doctors at 
the government-run clinics. They said, for example, that they 
would find that once people got into the program and were able 
to come by several times a day and get their drugs from the 
government, they would lose their interest in maintaining a 
job; they would lose their interest in their family; and the 
most important thing every day was getting by the clinic at a 
certain time so they could get shot up.
    Here again, I am not quite sure whether that is a success 
or whether you would measure success simply because that person 
is no longer committing crimes. He or she doesn't have to. They 
can just come to the clinic and get their drugs.
    It seems almost a circular argument that, hey, this is a 
successful program because we're giving them what they want so 
they don't have to go out and take it from somebody else, but I 
am not quite sure that it has an effect, as you say, on 
unemployment, other than perhaps increasing it because they 
feel they don't have to or can't maintain a job because they 
are constantly going over to the clinic.
    Mr. Ehlers. I just can tell you what I saw in the research. 
The research showed that there was an increase in employment, a 
decrease in unemployment. There is a stabilization of lives.
    I can give you the research if you would like. I have it.
    Mr. Boaz. Congressman, could I add one sentence in response 
to that?
    As a nonheroin user, I would consider a program successful 
if it reduced the amount of crime that I and my family had to 
be subjected to as we walk through a city like Washington, DC, 
or Zurich. It would be better if people cured their heroin 
addiction, but it is certainly a success for the rest of 
society if crime went down 60 percent.
    Mr. Barr. With regard to one other question that I posed 
earlier, Mr. Ehlers, to an earlier panelist with regard to 
studies documented in the Marijuana and Medicine book that we 
have introduced into the record here that show demonstrably a 
very negative effect on human reproductivity. If you see this 
study and you conclude, as I think is pretty obvious, that it 
does have an effect on the abnormal development and production 
of spermatozoa in humans, would that be something that would be 
a success if we say it is OK for people to smoke marijuana and 
use other drugs, notwithstanding the possible effect or very 
likely effect it would have on birth defects and so forth? 
Would this also be harm reduction?
    Mr. Ehlers. I don't think it is OK to smoke marijuana. That 
is not really the point.
    One, I think there is a lot of conflicting evidence on the 
health effects of marijuana. I think Ira mentioned earlier 
another book that we would like to introduce into the record, 
``Marijuana Myths, Marijuana Facts.'' That looks at all the 
scientific research, and overall it shows that the negative 
health effects of marijuana are fairly benign. I don't think 
the research is there.
    Mr. Barr. I would respectfully say you are somewhat 
selective in research.
    On page 4 of your paper, you have as a footnote No. 8 to 
the following statement: ``The Institute of Medicine found 
marijuana to be an effective medicine.'' But if you look, as 
you have properly done, at the quote in your footnote No. 8, it 
simply says that the accumulated data indicates a potential 
therapeutic value for cannabinoid drugs. I don't think that is 
quite the same thing as saying it is an effective medicine. 
Would you agree with that? That you might have overstated the 
case a little bit?
    Mr. Ehlers. I should have used a better quote like from the 
principal investigator, Dr. John Bentsen, who said, ``we 
concluded there are some limited circumstances in which we 
recommend smoking marijuana for medical uses.''
    Mr. Barr. With regard to the Drug Policy Foundation, is the 
money that you all receive from George Soros received directly 
from him or does it come through other conduits?
    Mr. Ehlers. We receive a grant from the Open Society 
Institute to run our grant program.
    Mr. Barr. So it doesn't come directly from Mr. Soros? It 
comes from the Open Society Foundation of his?
    Mr. Ehlers. That is a foundation that he established, yes.
    Mr. Barr. How much do you receive? Is there a set amount 
that you receive each year or does it vary?
    Mr. Ehlers. This year the grant program received $1.75 
million.
    Mr. Barr. Is that consistent with prior years or has it 
gone up or down?
    Mr. Ehlers. Yes, I think that is fair. I am not exactly 
sure, but I think that is about the same as what has happened 
in the past.
    Mr. Barr. Before I turn back to the chairman, Mr. Maginnis, 
as you have indicated, I know you have done extensive research 
and travel to Switzerland and the Netherlands and some of the 
other countries where they have gone further down the road 
toward legalization than we have at this point. Would you care 
to take just a couple of minutes--and I appreciate the 
chairman's indulgence--but just take a couple of minutes in 
response, to reflect on some of the other material we have gone 
over here in the last several minutes on the concept of harm 
reduction and whether or not the programs whereby citizens of 
Switzerland, for example, are allowed on a regular basis, 
several times each day, to go shoot up with drugs, whether this 
is indeed a benefit and a harm reduction.
    Mr. Maginnis. Yes, sir, I have visited Switzerland six 
times in the last 3 years specifically to look at the drug 
issue. It is interesting with regard to what the Swiss 
Government has been doing that even the Dutch Government, who 
is known for its drug policy, has been very critical of the 
outcome of the Swiss experiment.
    The World Health Organization just a couple of months ago 
really condemned the outcome. They said, this is not science. 
They didn't use the word quackery, but if in fact you read 
their study, they come to that conclusion.
    And the INCB, the International Narcotics Control Board, 
just in May released a finding that this study or this 
experiment by Switzerland is misleading; it doesn't accomplish 
what it set out to do. And it set out to supposedly show that 
you could reduce harm, that you could help return people to 
effective lifestyles, healthy lifestyles and so forth by giving 
them heroin. Of course, that changed radically as they went 
through. They added people and so forth.
    Now, with regard to crime, I interviewed the doctor who ran 
one of the clinics in Zurich, and they had an official from 
Bern, and he put together this so-called crime part. They used 
data that they picked up from the Bern Police Department on 40 
of their addicts. Then, unfortunately they extrapolated those 
facts across the entire experiment, and they have really--it 
has been distorted in the press, the real facts, about the 
crime reduction.
    When you begin to ask addicts--and I did, I put together a 
video with the assistance of the Swiss that oppose this. And it 
is interesting, when we interviewed addicts coming out after 
having received their heroin shots, many just openly 
acknowledge, yeah, we take cocaine on the side. Where do you 
get the money for that? They didn't really want to tell us. We 
came to the conclusion after watching and discussing this with 
them, quite frankly, they were probably engaging in illegal 
activity to get their additional money.
    A lot of what you hear about crime is more anecdotal than 
factual. Employment, the government gives them jobs--
meaningless jobs for the most part. They are not putting 
together BMWs and Mercedes over there, not these heroin 
addicts. For the most part, they are sitting around waiting for 
their next heroin shot, as you indicated, Congressman.
    There are very few people, very few in this 3-year 
experiment that ever went on to meaningful treatment. In fact, 
they are closing treatment facilities in Switzerland because 
they can't get enough of these heroin addicts. Because they are 
getting free dope from the government, they are not going to 
the treatment. So they are closing them down.
    And as far as the overall effect, as I showed you in that 
slide, there is a great tolerance in that country. It is a 
great country, but the fact is that their drug policy--and they 
have already gone through two constitutional referendums. They 
are probably going to have another one before long, those 
constitutional referendums. First, the people were confused, 
quite frankly, the government was supporting their heroin 
maintenance program. And the second one, of course, they came 
out and said, no, we are not going to legalize drugs.
    They are not really sure where they are going, but I can 
tell you from talking to many teachers and public officials 
that the effect is having a significant impact on the kids. The 
kids are using marijuana at much higher rates than they ever 
have before, and it continues to go up. Their view of heroin is 
not what it was 20 years ago. It is much more tolerant.
    I have seen the same thing in Holland. General McCaffrey 
went to Holland last summer. There was quite a lot of media 
play in that. He was very critical and rightfully so. Their 
figures that were posted by Interpol aren't quite squaring with 
what they want to accept by their country.
    I can remember--and I will stop with this. At Rotterdam, I 
went into the basement of a church where I talked with a heroin 
and a cocaine dealer, and I saw his dealings there. They were 
allowed to operate there, and anybody can come in and buy 
heroin. Anybody can use it right there.
    I watched this guy ``chasing the dragon'' which is 
basically sniffing this stuff, heroin, up into his nose. Then 
they go off, and they meander through the streets. They are not 
very coherent, and they are going to significantly increase 
certainly the public loitering problem. But they have really 
pulled down that beautiful part of the city into a terrible 
scourge on what otherwise is a pretty productive community.
    Mr. Barr. Is Mr. Soros involved also in channeling money to 
the Vienna foundation which supports these sorts of movements?
    Mr. Maginnis. I understand Mr. Soros has contributed to 
some organizations that promote liberal drug laws in 
Switzerland. As far as the Netherlands, I can't say 
specifically on that.
    Mr. Barr. Are you familiar, Mr. Ehlers, whether the figure, 
as I understand it, of $20 million that Mr. Soros has put into 
the Vienna foundation to further the legalization and expand 
the legalization effort is accurate or not?
    Mr. Ehlers. I don't know anything about that foundation or 
whether they have gotten any money.
    Mr. Barr. Thank you.
    Mr. Mica. Thank you.
    Mr. Boaz, you seemed to like the Baltimore model sort of 
addiction as an alternative. Is that something that you 
support? You said that crime went down and you cited Mayor 
Schmoke, I guess it is, as someone who you said we should go to 
a more liberal policy.
    Mr. Boaz. I did cite Mayor Schmoke, yes.
    Mr. Mica. Do you think that is a good model? He has 
instituted that.
    Mr. Boaz. No, I am not particularly excited about the 
Baltimore model. I cited Mayor Schmoke as somebody who has come 
to realize----
    Mr. Mica. Would you say it would bring crime down?
    Mr. Boaz. My policy would, yes. If we eliminated the 
criminal penalties for the use and sale of these drugs, it 
would significantly reduce crime. People would be able to buy 
other mind-altering drugs in the same sorts of stores where 
they buy alcohol today, and they would not have to commit 
crimes in order to get those drugs, and the dealers would not 
have to shoot each other when they have a dispute.
    Mr. Mica. In Baltimore, they have adopted some of that 
policy under his leadership. Through 1996, we saw almost 40,000 
people as heroin addicts. Mr. Cummings, who sits right over 
here, told me that the figure is closer to 60,000. That is 10 
percent of the population.
    Mr. Boaz. I find that implausible, Mr. Chairman.
    Mr. Mica. He told me 60,000. He cited it in hearings, that 
he estimates in Baltimore. This is 2 years old and an official 
record given to me by the DEA. That would be about 10 percent 
of the population. Now, if we took that great model and we 
applied it on the United States, we have about 260 million, we 
would have 26 million heroin addicts as an alternative. How is 
that sounding?
    Mr. Boaz. Mr. Chairman, nobody seriously believes that. If 
you had mandatory heroin use in the United States you couldn't 
get 26 million addicts.
    If I could just make one suggestion----
    Mr. Mica. This model seems to indicate that one city that 
has tried a liberalized policy has an incredible percentage of 
people that have become addicts. And I venture to say--I don't 
have the statistics here on the decrease in crime, but it 
certainly doesn't mirror New York, and it doesn't mirror the 
Nation as a whole. There has to be some cost to 39,000 people 
as heroin addicts. Wouldn't you say there is some cost 
involved?
    Mr. Boaz. There would be, if there were 39,000 heroin 
addicts.
    Mr. Chairman, I have not----
    Mr. Mica. The information given to me by the DEA----
    Mr. Boaz. I understand that. I have not studied the 
Baltimore situation.
    I would suggest the first problem with that chart is that 
you show 1950 and 1996. A lot of change has happened between 
1950 and 1996. A fair chart would at least show how many heroin 
addicts there were in Baltimore when Kurt Schmoke was elected 
mayor and then whether there has been a change; and then if you 
can show that it doubled, and you have plausible figures, we 
have something to discuss.
    But the change from 1950 to 1996 cannot be attributed to 
any single policy.
    Mr. Mica. You say there are not 39,000----
    Mr. Boaz. I am skeptical of that number, but I admit I have 
not studied Baltimore.
    Mr. Mica. Again, Mr. Cummings tells me the figure is much 
higher. He just lives there, and that is his neighborhood, so 
he probably wouldn't know.
    I have heard repeated comments that we have first-time 
marijuana users, just users of marijuana, behind bars. Mr. 
McDonough, you testified that there were 14 folks in the State 
of Florida.
    Mr. McDonough. That is correct. In 1997.
    Mr. Mica. In 1997. Some of those had other records.
    Mr. McDonough. In every case they had some other records.
    Mr. Mica. Mr. Glasser, are you from New York?
    Mr. Glasser. I am. But I don't know how many heroin addicts 
there are.
    Mr. Mica. This is an interesting study of incarceration 
that was just published in April that really debunks the theory 
that first-time drug users or simple even first-time felons 
involved with use of illegal drug substances are incarcerated. 
It was completed by the State of New York--Director of Criminal 
Justice completed in April 1999.
    I would like to submit this for the record and just read 
maybe one or two sentences from it. It is pretty comprehensive. 
Let me just read the conclusion:

    this report provides an accurate and objective insight into 
the manner in which the New York State criminal justice system 
adjudicates persons charged with drug offenses. Contrary to 
images portrayed by the Rockefeller drug law reform advocates, 
drug offenders serving time in our State prison system today 
are committed to prison because of their repeated criminal 
behavior, leaving judges with few options short of prison.

    This is a very detailed report, basically mirroring what 
they said in Florida.
    Mr. Glasser. Is that violent behavior or is that repeated 
criminal behavior? The repeated arrests, say, for a small 
amount of personal marijuana?
    Mr. Mica. Again, it is documented.
    Mr. Glasser. What is documented?
    Mr. Mica. These are felony convictions.
    Mr. Glasser. I understand that. But the felony convictions 
can be violent or they can be for possession of a small----
    Mr. Mica. Possession is not, as I understand it, a felony 
of marijuana.
    Mr. Glasser. It can be. It depends on the amount.
    Mr. Mica. Yes, and the amount.
    Mr. Glasser. All I can tell you is that the U.S. Department 
of Justice in 1993 produced a report, which I got from the U.S. 
Government Printing Office in 1994, which, on page 3 of that 
report, says that nearly 17 percent of the total Federal prison 
population were drug offenders with no prior criminal----
    Mr. Mica. Could you repeat the percent again?
    Mr. Glasser. Seventeen percent of the total Federal prison 
population were drug offenders with no prior criminal history. 
Eighty-four percent of the increase in State and Federal prison 
admissions since 1980 were accounted for by nonviolent 
offenders, which generally means possession or buying or 
selling. And in 1995, only 13 percent of all State prisoners 
were violent offenders. What you are dealing with here is the 
major proportion of the increase that has raised our prison 
population up to 1.8 million is for nonviolent drug offenses. 
If we were getting the kingpins and the violent people, we 
wouldn't have any more drug market. You guys are not doing it.
    Mr. Mica. This report, it just happens to deal with facts 
and recent facts, disputes that.
    Mr. Glasser. What about these facts?
    Mr. Mica. Without objection, this report will be made part 
of the record, and I would be glad to insert that statement 
from 1993.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.176
    
    [GRAPHIC] [TIFF OMITTED] T3346.177
    
    [GRAPHIC] [TIFF OMITTED] T3346.178
    
    [GRAPHIC] [TIFF OMITTED] T3346.179
    
    [GRAPHIC] [TIFF OMITTED] T3346.180
    
    [GRAPHIC] [TIFF OMITTED] T3346.181
    
    [GRAPHIC] [TIFF OMITTED] T3346.182
    
    [GRAPHIC] [TIFF OMITTED] T3346.183
    
    [GRAPHIC] [TIFF OMITTED] T3346.184
    
    [GRAPHIC] [TIFF OMITTED] T3346.185
    
    [GRAPHIC] [TIFF OMITTED] T3346.186
    
    [GRAPHIC] [TIFF OMITTED] T3346.187
    
    [GRAPHIC] [TIFF OMITTED] T3346.188
    
    [GRAPHIC] [TIFF OMITTED] T3346.189
    
    [GRAPHIC] [TIFF OMITTED] T3346.190
    
    [GRAPHIC] [TIFF OMITTED] T3346.191
    
    [GRAPHIC] [TIFF OMITTED] T3346.192
    
    [GRAPHIC] [TIFF OMITTED] T3346.193
    
    [GRAPHIC] [TIFF OMITTED] T3346.194
    
    [GRAPHIC] [TIFF OMITTED] T3346.195
    
    [GRAPHIC] [TIFF OMITTED] T3346.196
    
    [GRAPHIC] [TIFF OMITTED] T3346.197
    
    [GRAPHIC] [TIFF OMITTED] T3346.198
    
    [GRAPHIC] [TIFF OMITTED] T3346.199
    
    [GRAPHIC] [TIFF OMITTED] T3346.200
    
    Mr. Mica. This is a pretty comprehensive study of the New 
York prison population. I think we have heard the same thing 
from Mr. McDonough. There is a myth here.
    Mr. Boaz, you look like you want to respond. But I want to 
ask you a question.
    Mr. Mica. Do you--I think you indicated--and I want to be 
sure about this for the record--want to go beyond marijuana, 
that any type of substance, what is it, category one--Schedule 
1, be decriminalized, no criminal penalty for possession?
    Mr. Boaz. Right. I wanted to say I don't think there is 
necessarily a conflict between the facts you read and the facts 
Mr. Glasser read. The report from New York says that most of 
the prisoners in New York have had prior criminal records. The 
report Mr. Glasser read said a large portion had not had a 
violent conviction.
    So the issue comes down to, should people who sell drugs be 
in jail?
    Mr. Mica. That leads to my next question. These people 
dealing in quantities, are traffickers. Possession versus 
trafficking and sales. How far did you want to go on 
decriminalization? There is no penalty, as I understand your 
position. How about trafficking?
    Mr. Boaz. I would like to see drugs sold in licensed, 
regulated stores, not on street corners and not on playgrounds. 
You don't see very many liquor dealers offering liquor on 
school yards and playgrounds. You see people selling drugs 
there because it is a completely unregulated, unlicensed, 
illegal business. So I would like to see the business treated 
like alcohol, yes.
    Mr. Mica. OK, so if people were dealing in the manufacture 
and production and trafficking in an illegal, nonregulated 
fashion, for example, producing moonshine you get arrested, and 
you want the same for illegal drugs?
    Mr. Boaz. I grew up in Kentucky and we had a lot of 
bootlegging and moonshining, and my father used to be one of 
those who tried to take people in, so, yes----
    Mr. Mica. I am trying to develop a model. We talked about 
Baltimore. Now, let's see how you want to distribute and what 
types of stuff. You don't think we as a Congress or legislative 
body have any responsibility in controlling substances. And we 
have methamphetamine. You want that in the same category, even 
with the medical factual information shown in the chart?
    Mr. Boaz. I am not necessarily certain that there couldn't 
be some drug that was so dangerous, so mind altering but----
    Mr. Mica. Heroin?
    Mr. Boaz. I would not put heroin in that category. I would 
rather have marijuana, cocaine and heroin produced by Philip 
Morris and distributed by licensed liquor stores, than to have 
it manufactured and distributed by the Cali cartel and 
distributed on street corners. Yes, that is right.
    Mr. Mica. And meth is out of the category?
    Mr. Boaz. I think meth is a good example of something that 
we have seen throughout prohibition in the 1920's and 1990's, 
which is the creation of stronger drugs. When you have these 
huge profits available in an illegal business, as opposed to a 
legal business, you get an incentive to try to supply more and 
more powerful, smaller and smaller kinds of drugs.
    I don't think you would see drugs like crack and meth if we 
had a legal drug market. If we had licensed, regulated stores 
where you could get marijuana and cocaine, you would not see 
these other kinds of drugs being produced.
    Mr. Mica. Mr. Ehlers, I would like to hear about your 
model. Possession across the board?
    Mr. Ehlers. Yes, I would say right now that is considered a 
decriminalization model. Adults wouldn't be prosecuted only for 
the possession of----
    Mr. Mica. Marijuana, heroin, cocaine. Are you in the Boaz 
model?
    Mr. Ehlers. What we are attempting to do is treat drug use 
and drug abuse as a health problem. The problem is if you 
criminalize it, if you tell people they are going to get 
arrested for being a drug user. You are going to push people 
away from help.
    So that right now I think you have a situation where people 
are afraid to go in for treatment. Actually, there is no 
treatment available; but if it were available, they are afraid 
of criminal sanctions.
    I think there is another--also the problem of heroin 
overdoses among youth where you have kids who are afraid they 
are going to be arrested and then not helping their friends get 
to the hospital because they don't want to get into trouble.
    Mr. Mica. I am trying to get to the model you would like to 
see. We are a legislative body; we pass the laws for 
determining what is legal and illegal, what is criminal and 
not. The model is pretty clear, marijuana, yes. How about 
heroin and cocaine?
    Mr. Ehlers. What I would like you to do now is, I have a 
full list in my testimony. I listed all those things that 
should be done now, namely, the repeal of mandatory minimums, 
much more treatment available, much more prevention available, 
the reform of civil asset forfeiture, restoration of civil 
liberties, all of those things can be done here and now. That 
is what I want.
    Mr. Mica. What about cocaine and heroin, sales, 
legalization, regulation as described by Mr. Boaz? We operate 
basically on--actually, this Congress operates on the will of 
the people.
    Mr. Ehlers. Right.
    Mr. Mica. Believe it or not it does. When the people make 
up their mind they want such and such----
    Mr. Ehlers. I think the people should be offered--frankly, 
we talk about a lot of different potential models, and we don't 
advocate on behalf of any of those various models that would 
come under regulation. Right now one thing that I think could 
be tried--both of the fellow witnesses have said it hasn't 
worked--I think there is evidence to support the possibility of 
heroin maintenance. That is something that could be tried. 
Medical marijuana, that is something that should be available.
    Mr. Mica. Do you like the Baltimore model for heroin?
    Mr. Ehlers. No. I am just not sure what the Baltimore model 
is.
    Mr. Mica. Liberalization and----
    Mr. Ehlers. The only thing that I was aware of that Kurt 
Schmoke was doing in Baltimore, was that he was expanding 
needle exchange programs which I have seen studies that 
indicate it works, and he has gotten a lot of addicts into 
treatment, and he is expanding treatment.
    I don't know what is he is doing on arrest policy. I do 
know there has been a heroin use problem long before Kurt 
Schmoke came on board. So it is not something we can blame on 
Kurt. There is a long history here. He came into a situation.
    Mr. Mica. What about continuing the regulation of 
criminalization of trafficking in heroin and cocaine, and 
methamphetamines?
    Mr. Ehlers. I think we need to discuss the possibility of 
regulation, mainly the problems of prohibition and the black 
market which have been discussed before. A regulated market 
would do good things in the sense that we would no longer have 
criminals getting large amounts of money from the trade. We 
would no longer have destabilization of governments in other 
countries, undermining the rule of law, the huge prison system 
we have now. There is also tax revenue, to talk about and using 
that for prevention and treatment. That is a possibility. It is 
not something we are advocating right here and now.
    Mr. Mica. Thank you.
    I have tried to be open and fair in this process. In fact, 
I think we are three to one on this panel. The government also 
stated its position prior to this, the head of the drug policy 
office and two others. But we conducted this hearing, as I said 
in the beginning, to have an open and civil discussion. There 
is obviously a difference of opinion.
    I intend to have additional hearings to the point of 
decriminalization looking at the Phoenix, AZ model, talking 
about medical use of marijuana. Some points have come out in 
this hearing that we need to look at, what is going on as far 
as promotion of these different positions; the new element 
raised here today about marketing on the Internet. The Internet 
didn't exist just a few years ago, and we have a whole new 
scope and range of activities. So that is the purpose of the 
hearing, to open the discussion. I don't know that we will 
reach any conclusions, and you can see there is a great 
diversity of opinion among you and, I am sure, the people in 
the audience and the members of this panel.
    I did want to give Mr. McDonough some time to respond. He 
did want to respond. If you would do that at this time.
    Mr. McDonough. Thank you, Mr. Chairman. I just wanted to 
make a comment on the notion put before you that the fact that 
drugs are against the law deters people from getting treatment. 
Having spent a number of years looking at drug courts, the 
prison system and addicts, it is sad to say but what I find is 
an addict almost never volunteers for treatment. It is only 
when they are under great duress that you see them come 
forward. This is for the rich as well as the poor. Usually with 
the rich it is we know when the spouse has said that is enough, 
we can't tolerate this anymore or the business is about to fail 
or the profession is about to fail, they will quietly go and 
get treatment.
    The vast majority that come for treatment come for it 
within the criminal justice system. That is to say, the law 
picks them up after they committed about 20 crimes--and that is 
what the law enforcement professionals tell me what happens--
and if they are given the option of going to drug court in lieu 
of prison, they will accept drug treatment.
    Now, interesting to note, the success rates on that in 
bringing down addiction and recidivism rates are very, very 
good. To be specific, in Florida, I have studied the data. 
Since 1994 we have seen seven or eightfold improvement.
    That is to say, you have seven or eight times as much 
success in bringing the recidivism rates down when you have 
coercion of the criminal justice system overhanging the 
treatment. That is not an undignified process for the offender, 
now the client. The client appears before the drug court judge, 
has to go to treatment, has to take his drug or her drug test 
on a monthly basis, often more often than that, and has to 
successfully get through the program every month for 12 months. 
After 12 months, they graduate. The ideal is they are free of 
drugs, employed, and no longer have a criminal activity habit.
    That is what we are seeing in successes. I will tell you my 
experience--the statistics I have looked at it is not the 
criminal justice system that deters people from getting 
treatment. Actually, it seems to be an impetus to treatment. A 
very good one. So I would like to dispel that myth.
    Mr. Mica. Thank you. To be totally fair, the only one I 
don't think I have asked a question of or given a chance to 
respond is Mr. Maginnis. Did you want to comment, sir?
    Mr. Maginnis. Mr. Mica, I have a chart and I won't have to 
use it, but 70 percent of Americans oppose cocaine and heroin 
legalization because they believe, as the DEA indicated, it 
would lead to more violent crime in America. That is one of a 
number of reasons, but if you look at the Chinese opium use at 
the turn of the century, 100 million Chinese started using 
opium.
    If you consider what Dr. Herb Kleeber quoted earlier by the 
DEA and saying how addictive cocaine is, can you imagine if 
Madison Avenue was to market cocaine and heroin as they have 
cigarettes in this country? We produce 600 billion cigarettes a 
year; we market all over the world. We would certainly produce 
a purer heroin and cocaine and package it with flavors, with 
everything else and it would be pretty widely available but the 
social consequences--the chart the drug czar showed you--would 
have 110 billion social consequences that would go up 
logarithmically if we did this.
    So it is a deadly pathway. If we want catastrophe for this 
country, go forward.
    Otherwise, I think we should listen to the sanguine and 
very common sense approach that the American people keep 
telling us that drugs are--this is the wrong direction. We need 
to turn off the spigots and hold these people pushing 
legalization accountable for what they are doing whether it's 
in California, Arizona, or up in Washington State. In fact, 
they are confusing our kids; they are contributing to more drug 
use and more of the problems that we have in this country, not 
helping.
    Mr. Mica. Thank you. Mr. Barr, do you have any final 
questions?
    Mr. Barr. Thank you, Mr. Chairman.
    We had asked, Mr. Chairman, I believe, Mr. Soros to come 
here today and testify. I am sorry he didn't. Perhaps he will 
in the near future. But we know, Mr. Chairman, that those 
associated with the Drug Policy Foundation, Arnold Trebach, its 
founder, is a legalizer advocate. We know Richard Dennis on the 
Drug Policy Foundation Board of Directors likewise is an 
advocate for legalization of all drugs, including heroin.
    Ethan Nadelmann with the Lindesmith Center and Soros 
conduits, organizations to which he channels money for 
legalization efforts, is also an avowed legalizer. So that 
really is, Mr. Chairman, what we are talking about here. We are 
talking about the funding of an effort in this country similar 
to what we have seen overseas to legalize mind-altering drugs.
    People can come up with all sorts of eloquent reasons why 
that isn't really what they are saying and they really don't 
want people to use drugs and see these awful things happen to 
them, but that is what we are talking about here. We are 
talking about legalizing drugs and saying it's OK for people in 
the United States of America to rely on mind-altering drugs to 
get by in their daily lives.
    I don't know whether any panelists would relish the thought 
of going into an operating room and having the doctor they see 
before they are put under, probably for the last time, smoking 
a toke or doing a line of cocaine. Maybe they would. I don't 
know. I certainly wouldn't. But that is what we are talking 
about here.
    We are talking about legalization of mind-altering drugs. 
They are called mind-altering drugs because they alter your 
mind, and one can argue about the extent to which that happens, 
but it's mind-altering drugs for that reason.
    I am somewhat intrigued--and I know time is short--but I am 
still very intrigued by the Drug Policy Foundation and the work 
that it does, and perhaps we can get to that more later on if 
Mr. Soros would be with us. But just a couple of quick 
questions, Mr. Ehlers.
    Does the Drug Policy Foundation--is it a 501(c)3 
organization?
    Mr. Ehlers. Yes.
    Mr. Barr. Does the Foundation lobby in support of drug 
legalization policies?
    Mr. Ehlers. No. We don't lobby on behalf of drug 
legalization policies. We do some lobbying, yes, as 501(c)3s 
are allowed to do.
    Mr. Barr. It is your view that it is permitted under 
501(c)3 status.
    Mr. Ehlers. Yes.
    Mr. Barr. What sort of lobbying do you do? Is it like today 
speaking with Members of Congress and the State legislature 
yourself?
    Mr. Ehlers. No. We do grass-roots lobbying, too. We put out 
action alerts for members to respond to, and we write about 
legislation, which isn't necessarily lobbying. I mean, action 
alerts is the primary means of lobbying for us.
    Mr. Barr. And you think that is not inconsistent with being 
a 501(c)3 organization?
    Mr. Ehlers. No.
    Mr. Glasser. Mr. Barr, since I am the president of the Drug 
Policy Foundation board and more familiar than Mr. Ehlers, 
maybe I can answer----
    Mr. Barr. Mr. Ehlers, maybe I can ask also, would that be 
consistent with the position of the Christian coalition, which 
recently came under fire for doing alerts and voter guides and 
so forth?
    Mr. Glasser. That is political partisan activity.
    Mr. Ehlers. Yes, that is not----
    Mr. Glasser. Mr. Barr, as you well know--I know you are 
talking to him, but I am going to answer the question.
    Mr. Barr. You are not appearing here as Mr. Ehlers' 
attorney. I am asking him the questions.
    Mr. Glasser. I am here as Mr. Ehlers' superior on the 
board, and if you want to know about what the Drug Policy 
Foundation does with respect to its tax exemption, I will tell 
you. He doesn't know.
    Mr. Barr. Well, if I wish to hear from you on that, Mr. 
Glasser, I will ask you; and if I don't, I am sure in objective 
style, Mr. Mica will give you additional time.
    Mr. Glasser. If you wish to know the answers to the 
questions, you will ask me; and if you wish to harass Mr. 
Ehlers, you will ask him.
    Mr. Barr. I really don't think that asking questions of 
somebody who comes up here representing a foundation or a legal 
entity about the work that that legal entity or organization is 
doing and the legal basis on which it is operating without 
getting into all the ins and outs of legalisms which I am not 
doing is harassing. And if I do, then every single witness that 
comes up here and is questioned about their work by any member 
of any panel on either side of the aisle is harassing 
witnesses, that's not----
    Mr. Glasser. If you want to know the answer, you would 
direct it to the person who knows the answer, wouldn't you? We 
all know what you are doing.
    Mr. Barr. With all due deference, you're a great man; but I 
don't think you are the only one that can answer questions.
    Mr. Glasser. I am the only one on this panel who can answer 
those questions.
    Mr. Barr. Well, we'll see.
    Mr. Mica. We don't want to get into some kind of an 
exchange at this point. Mr. Barr was yielded the time. Mr. 
Barr, do you have further questions of the witness?
    Mr. Barr. Just very briefly, Mr. Chairman, following onto, 
again, some of the policies regarding the Drug Policy 
Foundation.
    Is the Drug Policy Foundation providing support to the drug 
legalization efforts in various States, including Florida, 
Maine, and Oregon?
    Mr. Ehlers. No.
    Mr. Barr. It is not engaging in any sort of activities in 
terms of gathering of signatures and whatnot for referenda or 
for petitions?
    Mr. Ehlers. No.
    Mr. Barr. Are you aware of any work by Mr. Soros currently 
similar to what was engaged in in the California effort with 
respect to signatures for petitions and referenda in other 
States?
    Mr. Ehlers. No.
    Mr. Barr. Is the Drug Policy Foundation or George Soros, to 
your knowledge, presently accepting any money from any foreign 
entity which promotes drug usage, such as certain companies or 
entities from Colombia or Mexico?
    Mr. Ehlers. Not that I am aware of.
    Mr. Barr. Do you--does the Drug Policy Foundation receive 
any money from any foreign sources?
    Mr. Ehlers. We have members in other countries, yes.
    Mr. Barr. That donate money?
    Mr. Ehlers. Yes.
    Mr. Barr. Provide money?
    Mr. Ehlers. They are members, yes.
    Mr. Barr. Is that just from individuals?
    Mr. Ehlers. As far as I know.
    Mr. Barr. Does the Drug Policy Foundation assist any 
individuals or groups who are seeking to obtain drugs for 
personal use?
    Mr. Ehlers. Could you repeat that?
    Mr. Barr. Does the Drug Policy Foundation assist any 
individuals or groups seeking to obtain drugs for personal use?
    Mr. Ehlers. No.
    Mr. Barr. Mr. Glasser, I would be delighted to entertain 
any information you would care to provide to supplement what 
Mr. Ehlers provided in response to questions concerning the tax 
exempt status and lobbying efforts of the Drug Policy 
Foundation.
    Mr. Glasser. Sure. 501(c)3 organizations are permitted to 
do a certain amount of lobbying under 501(H) of the Internal 
Revenue Code, which permits various percentages of your total 
expenditures to be used for lobbying up to certain maximums.
    So lobbying is permitted. That is different from activity 
that is electoral, which is not permitted. The Drug Policy 
Foundation does no such electoral activity. It does do 
lobbying, both grass roots and direct within the limits of 
501(H), and it has elected, under 501(H), as has the American 
Civil Liberties Union Foundation and many other 501(c)3 
organizations.
    Mr. Barr. When you talk about electoral, does that include 
seeking to influence the result of a ballot or referendum in 
any way?
    Mr. Glasser. No. I just mean elections of individuals to 
public office. Referenda and initiatives are a form of 
lobbying. It's just direct instead of legislative, but it's 
lobbying.
    Mr. Barr. Is that the sort of activity that is permitted, 
in your view, for the Drug Policy Foundation in some states?
    Mr. Glasser. Yes, it is permitted under 501(c)3 if you have 
elected under 501(H).
    Mr. Barr. If, for example, the Drug Policy Foundation were 
asked to engage in activities in support of a particular 
candidate and you were advising them on that, you would advise 
them that that is not permissible?
    Mr. Glasser. Yes, that is correct.
    Mr. Barr. If they came to you and asked if it was 
permissible to lobby in support of a drug referendum or a 
particular initiative or proposition concerning drug 
legalization and to, I guess, indirectly support those who 
favor it, that would be permissible?
    Mr. Glasser. That's permissible within very restrictive 
amounts, somewhat less than 20 percent of your total 
expenditures. So unless your total expenditures are very high, 
you don't get to spend very much; but you can spend within 
those statutory amounts, yes.
    Mr. Barr. But if the organization has a generous benefactor 
and that person donates large amounts of money, in your view, 
the amount of money that the organization would have to engage 
in that sort of lobbying would increase. You say it is on a 
percentage?
    Mr. Glasser. Yes. It would, to a dollar limit. The limit in 
the law is that no matter how much money you have and no matter 
what the applicable percentages, you can't spend more than $1 
million. In any case, the amount of money that Mr. Soros 
provides the Drug Policy Foundation is entirely for a grant 
program in which we make grants to other organizations. So none 
of that money is used for any of those purposes.
    Mr. Barr. When you use the figure $1 million, is that per 
State or per issue or per----
    Mr. Glasser. No, that is per organization. If a 501(c)3 
organization elects under 501(H) of the code to do a certain 
amount of lobbying, it is a percentage--graduated percentage of 
amounts; but in no situation can you spend more than $1 
million, no matter what the percentages are. So, say 20 percent 
or $1 million, whichever is less.
    Mr. Barr. Could you increase that if one established 
subsidiaries under that parent organization, for example?
    Mr. Glasser. No. Because the statute and the regulations 
define affiliated organizations in ways that have to do with 
whether you are controlling them or not. So you can't multiply 
those limits by having subsidiaries that you control.
    Mr. Barr. OK. Thank you very much. Maybe this is the sort 
of thing we can get into later. I very much appreciate, Mr. 
Glasser, your elucidation; and I appreciate the testimony of 
the witnesses and appreciate the chairman for calling this very 
important hearing. Thank you.
    Mr. Mica. I thank the gentleman. I have a unanimous consent 
request to include in the record an article entitled, ``Should 
Safer Smoking Kits Be Distributed to Crack Users?''
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.201
    
    [GRAPHIC] [TIFF OMITTED] T3346.202
    
    [GRAPHIC] [TIFF OMITTED] T3346.203
    
    [GRAPHIC] [TIFF OMITTED] T3346.204
    
    Mr. Mica. Another unanimous consent request to insert 
``Crack Smokers Directions,'' here from the Drug Treatment 
Services of the Bridgeport Connecticut Health Department.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.205
    
    [GRAPHIC] [TIFF OMITTED] T3346.206
    
    [GRAPHIC] [TIFF OMITTED] T3346.207
    
    Mr. Mica. Additional unanimous consent request to submit an 
article entitled, ``High on a Lie,'' by Daniel Levine.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.208
    
    [GRAPHIC] [TIFF OMITTED] T3346.209
    
    Mr. Mica. And any other materials submitted without 
objection will be made a part of the record.
    [Note.--Substantial additional information referred to may 
be found in subcommittee files.]
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3346.210
    
    [GRAPHIC] [TIFF OMITTED] T3346.211
    
    Mr. Mica. As I said, we will leave the record open for at 
least 2 weeks if additional documentation and information is 
wished to be submitted either by the public or other groups.
    There being no further business to come before the 
subcommittee, I would first like to thank each of the panelists 
for their patience and participation and for their contribution 
today.
    It is a difficult subject, and there is a lot of 
controversy surrounding it and difference of opinion. But we 
hope to continue this discussion and again hear these topics 
fairly and openly in future panels. Thank you.
    This meeting of the subcommittee is adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
